<html>
<title> - SECURING THE HOMELAND: REFORMING DHS TO MEET TODAY'S THREATS</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                 SECURING THE HOMELAND: REFORMING DHS TO 
                          MEET TODAY'S THREATS

=======================================================================


                                HEARING

                               BEFORE THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 15, 2021

                               __________

                           Serial No. 117-22

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                                     

        Available via the World Wide Web: http://www.govinfo.gov
        
                              __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-751 PDF                 WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------   
 
                    COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            John Katko, New York
James R. Langevin, Rhode Island      Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     Clay Higgins, Louisiana
J. Luis Correa, California           Michael Guest, Mississippi
Elissa Slotkin, Michigan             Dan Bishop, North Carolina
Emanuel Cleaver, Missouri            Jefferson Van Drew, New Jersey
Al Green, Texas                      Ralph Norman, South Carolina
Yvette D. Clarke, New York           Mariannette Miller-Meeks, Iowa
Eric Swalwell, California            Diana Harshbarger, Tennessee
Dina Titus, Nevada                   Andrew S. Clyde, Georgia
Bonnie Watson Coleman, New Jersey    Carlos A. Gimenez, Florida
Kathleen M. Rice, New York           Jake LaTurner, Kansas
Val Butler Demings, Florida          Peter Meijer, Michigan
Nanette Diaz Barragan, California    Kat Cammack, Florida
Josh Gottheimer, New Jersey          August Pfluger, Texas
Elaine G. Luria, Virginia            Andrew R. Garbarino, New York
Tom Malinowski, New Jersey
Ritchie Torres, New York
                       Hope Goins, Staff Director
                 Daniel Kroese, Minority Staff Director
                          Natalie Nixon, Clerk
                            
                                                        
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable John Katko, a Representative in Congress From the 
  State of New York, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     5

                               Witnesses

Ms. Carrie Cordero, Senior Fellow and General Counsel, Center for 
  a New American Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................     9
Mr. Thomas S. Warrick, Senior Fellow and Director of The Future 
  of DHS Project, Atlantic Council:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Ms. Katrina Mulligan, Acting Vice President, National Security 
  and International Policy, Center for American Progress:
  Oral Statement.................................................    26
  Prepared Statement.............................................    27
Mr. Frank J. Cilluffo, Director, McCrary Institute for Cyber and 
  Critical Infrastructure Security, Auburn University:
  Oral Statement.................................................    30
  Prepared Statement.............................................    32

                             For the Record

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Statement of Max Stier, President and CEO, Partnership for 
    Public 
    Service......................................................    70
The Honorable Dan Bishop, a Representative in Congress From the 
  State of North Carolina:
  Chart..........................................................    47

 
      SECURING THE HOMELAND: REFORMING DHS TO MEET TODAY'S THREATS

                              ----------                              


                        Thursday, July 15, 2021

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 12:03 p.m., via 
Webex, Hon. Bennie G. Thompson [Chairman of the committee] 
presiding.
    Present: Representatives Thompson, Jackson Lee, Langevin, 
Payne, Slotkin, Cleaver, Green, Clarke, Titus, Demings, 
Barragan, Gottheimer, Torres, Katko, Guest, Bishop, Van Drew, 
Miller-Meeks, Harshbarger, Clyde, Meijer, Cammack, Pfluger, and 
Garbarino.
    Chairman Thompson. The Committee on Homeland Security will 
come to order.
    The committee is meeting today to receive testimony on 
``Securing the Homeland: Reforming DHS to Meet Today's 
Threats.''
    Without objection, the Chair is authorized to declare the 
committee in recess at any point.
    Today the committee is meeting to discuss how the 
Department of Homeland Security must refocus its mission to 
best respond to the most serious threats facing our Nation. 
This conversation comes at a timely moment as we approach the 
20th anniversary of the 9/11 attacks.
    DHS was established in 2003 to prevent and respond to 
terrorist attacks within the United States. Since then, the 
range of threats the Department must manage has expanded well 
beyond foreign terrorism. Today, DHS is also tasked with 
confronting the threats posed by the Coronavirus, cyber 
attacks, violent domestic extremists, and climate change. It is 
critical that the Department assess the full range of threats 
facing the country and align its resources accordingly.
    Unfortunately, under President Trump, the Department had a 
myopic focus on immigration and border security at the expense 
of its other missions. DHS also suffered grave reputational and 
operational damage carrying out the last administration's 
failed policies. Some have embraced the notion that DHS must 
that be dismantled, but that is not the answer. Instead, we 
must reform DHS to enhance accountability and transparency, 
earn Americans' trust, and improve work force morale.
    Earlier this month, I introduced the DHS Reform Act. The 
bill seeks to ensure the Department has a strong and integrated 
core to secure the homeland while ensuring accountability, 
transparency, and protection of Americans' civil rights and 
civil liberties. This legislation reflects recommendations made 
by those who have closely examined the challenges facing DHS, 
including the Center for a New American Society, the Atlantic 
Council, and the Center for American Progress. All three 
organizations identified the need for increased oversight of 
the Department's law enforcement operations. For example, my 
bill addresses that need by creating an ``associate secretary'' 
position to oversee such operations. Additionally, my bill 
seeks a greater role for both the Office of Privacy and the 
Office of Civil Rights and Civil Liberties to strengthen 
Constitutional protections in DHS policies, programs, and 
activities. All three organizations also recognize that 
improving morale among the DHS work force must be a top 
priority.
    The DHS Reform Act authorizes several programs aimed at 
identifying and addressing the causes of low employee morale. 
We have before us today representatives from these 
organizations. I look forward to discussing in greater detail 
their recommendations for transforming DHS. As the Department 
looks to refocus its operations to address emerging threats and 
long-standing challenges, the Committee on Homeland Security 
stands ready to assist. Unfortunately, the committee lacks 
jurisdiction to deliver a full DHS authorization bill or to 
advance legislation that reflects its oversight findings beyond 
a few narrowly-tailored areas.
    Today, over 90 committees and subcommittees have 
jurisdiction over parts of DHS, and no single committee is 
involved in all measures relevant to the Department. I am 
working to change that as I engage with House Leadership and 
other committees. Fixing jurisdiction over DHS is one of the 
only recommendations of the 
9/11 Commission that has yet to be resolved. This issue has 
hobbled both the committee and the Department for the last 15 
years. It is long past time for it to be addressed.
    For DHS to be successful in carrying out its wide-ranging 
missions, it needs to have the confidence of the American 
people and its partners in the homeland security enterprise. I 
look forward to discussing with the witnesses and the Members 
today how we can reform DHS to do just that.
    With that, I recognize the Ranking Member, the gentleman 
from New York, Mr. Katko, for an opening statement.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             July 15, 2021
    Today the committee is meeting to discuss how the Department of 
Homeland Security must refocus its mission to best respond to the most 
serious threats facing our Nation. This conversation comes at a timely 
moment as we approach the 20th anniversary of the 9/11 attacks. DHS was 
established in 2003 to prevent and respond to terrorist attacks within 
the United States. Since then, the range of threats the Department must 
manage has expanded well beyond foreign terrorism.
    Today, DHS is also tasked with confronting the threats posed by the 
Coronavirus, cyber attacks, violent domestic extremists, and climate 
change. It is critical that the Department assess the full range of 
threats facing the country and align its resources accordingly. 
Unfortunately, under President Trump the Department had a myopic focus 
on immigration and border security at the expense of its other 
missions.
    DHS also suffered grave reputational and operational damage 
carrying out the last administration's failed policies. Some have 
embraced the notion DHS must that be dismantled, but that is not the 
answer. Instead, we must reform DHS to enhance accountability and 
transparency, earn Americans' trust, and improve workforce morale.
    Earlier this month, I introduced the DHS Reform Act. The bill seeks 
to ensure the Department has a strong and integrated core to secure the 
homeland while ensuring accountability, transparency, and protection of 
Americans' civil rights and civil liberties. This legislation reflects 
recommendations made by those who have closely examined the challenges 
facing DHS, including the Center for a New American Security, the 
Atlantic Council, and the Center for American Progress.
    All three organizations identified the need for increased oversight 
of the Department's law enforcement operations, for example. My bill 
addresses that need by creating an ``associate secretary'' position to 
oversee such operations. Additionally, my bill seeks a greater role for 
both the Office of Privacy and the Office for Civil Rights and Civil 
Liberties to strengthen Constitutional protections in DHS policies, 
programs, and activities. All three organizations also recognized that 
improving morale among the DHS workforce must be a top priority.
    The DHS Reform Act authorizes several programs aimed at identifying 
and addressing the causes of low employee morale. We have before us 
today representatives from these organizations. I look forward to 
discussing in greater detail their recommendations for transforming 
DHS. As the Department looks to refocus its operations to address 
emerging threats and long-standing challenges, the Committee on 
Homeland Security stands ready to assist.
    Unfortunately, the committee lacks jurisdiction to deliver a full 
DHS authorization bill or to advance legislation that reflects its 
oversight findings beyond a few narrowly-tailored areas. Today, over 90 
committees and subcommittees have jurisdiction over part of DHS, and no 
single committee is involved in all measures relevant to the 
Department. I am working to change that as I engage with House 
Leadership and other committees. Fixing jurisdiction over DHS is one of 
the only recommendations of the 9/11 Commission that has yet to be 
resolved.
    This issue has hobbled both the committee and the Department for 
the last 15 years--it is long past time for it to be addressed. For DHS 
to be successful in carrying out its wide-ranging missions, it needs to 
have the confidence of the American people and its partners in the 
homeland security enterprise. I look forward to discussing with the 
witnesses and the Members today how we can reform DHS to do just that.

    Mr. Katko. Thank you, Mr. Chairman. I want to echo your 
sentiments with respect to jurisdiction. It is long past time 
that we fix that and I thank you for raising that issue.
    I also thank you for holding this timely hearing today to 
discuss reforms for the Department of Homeland Security. I want 
to thank our distinguished witnesses for taking time to appear 
before the committee.
    Amazingly, we are approaching the 20th anniversary of 
September 11. As we do, this committee and the Department 
stands at a crossroads. At this crossroads we can either choose 
to work together and successfully enact meaningful changes that 
will benefit this country or we can choose to go about business 
as usual, leaving American communities vulnerable.
    Nearly 20 years ago, Congress established Homeland Security 
by combining 22 separate Federal agencies. The intent was to 
ensure that Government would be able to connect the dots of the 
many threats facing the American people and prevent another 9/
11 from happening. To this day, to its credit, Homeland 
Security has been successful preventing many terrorist attacks 
on our soil while consistently responding to new and evolving 
threats to the homeland.
    Given these successes, I have been astonished to hear 
from--calls from some of my colleagues recently on the other 
side of the aisle for radical changes and budget cuts that 
would weaken or even abolish critical Homeland Security 
missions that protect Americans' lives every day.
    I cannot express enough how dangerous I believe this 
rhetoric to be as it sends all the wrong messages to our 
adversaries.
    While there is no doubt the Department must continue to 
evolve and mature, its functions that are truly critical to our 
National security must be improved, not degraded. After 9/11, 
Homeland was stood up in haste to address the fears and threats 
facing a distressed Nation. As a result, it still faces growing 
pains and often struggles to nimbly respond to challenges. For 
example, since its inception the Department has struggled to 
coalesce around a common vision and create a unified culture. 
It is 22 separate agencies largely operating independently, 
keeping their own policies and cultures intact.
    Homeland Security has also struggled to support centralized 
support functions for its components, such as acquisitions, IT 
systems, and financial management, all of which are still on 
the Government Accountability Office's high-risk list.
    Although the Department has made some progress, there is 
still more it needs to do. I am encouraged to hear that 
Homeland Security's financial systems modernization is back on 
track and key to ensuring that the homeland can support all the 
components efficiently and are good stewards of taxpayer 
dollars. However, Homeland Security is still working to 
centralize other support functions necessary to put the 
Department in the best position to achieve its many critical 
missions.
    Homeland Security has also made progress in anticipating 
and addressing new and evolving future threats to the homeland, 
such as those related to cybersecurity. In 2018 Homeland 
Security and Congress took action to address cyber threats by 
establishing the Cybersecurity and Infrastructure Security 
Agency, of CISA, to act as the Nation's lead civilian 
cybersecurity agency and primary conduit for information 
sharing and partnership with the private sector.
    Last week I held a round table with CISA on ransomware 
issues in my district in central New York to discuss how we can 
prevent future attacks and further coordinate the efforts 
between Homeland Security and local businesses and governments. 
An overwhelming takeaway was how much these stakeholders value 
the free and voluntary services CISA provides. Now is the time 
to double down on our CISA investment. With the threat 
landscape we face, there is no other option.
    I firmly believe that cybersecurity is the preeminent 
National security and homeland security threat we face. It is 
dizzying to think about the string of cyber incidents we have 
just seen over the last several months. State-backed espionage 
campaigns on Federal networks, devastating ransomware campaigns 
against pipelines, our food supply, transit systems, and 
critical IT services. The bad guys are emboldened and we must 
continue the full court press to flip the paradigm.
    Today, Homeland Security continues to make some human 
capital progress. I applaud the Department for hiring nearly 
300 cybersecurity professionals as part of its 60-day cyber 
work force ``sprint''. Homeland Security also has said it has 
exceeded its initial hiring goal of 200 new cybersecurity 
personnel by 50 percent and is calling it the largest 
cybersecurity hiring initiative in its history.
    That said, the Department's authority to nimbly hire top 
talent, particularly in the cybersecurity arena, remain too 
inflexible. We cannot be boxed in by legacy mindsets or 
bureaucratic inertia. To fully support CISA's work, the agency 
needs sustained robust funding to carry out its mission and 
respond to evolving threats. The Secretary has acknowledged 
that CISA needs to be the quarterback of the .gov domain and I 
fully agree. But CISA will be hard-pressed to do so without 
more substantial funding.
    To that end I firmly believe that CISA needs to be a $5 
billion agency in the next 5 years.
    Today our Nation faces vastly different threats from the 
one that struck on 9/11. This means that we need a DHS that can 
transform and adapt better than it does now. We need a homeland 
security that can identify and mitigate and even prevent these 
new threats, threats that range from China's push for global 
power and influence to global political and economic 
instability and organized crime. However, in recent years, 
Homeland Security's operations have been hamstrung by a high 
number of vacancies and turnovers in senior positions. This 
also must change for Homeland to formulate strategic plans and 
to prepare for the future security of the homeland.
    Looking forward, the Department would benefit from a 
thorough assessment of what it is doing now, whether it should 
keep doing those things, and if there is something it should be 
doing that it isn't, what should we do about that. This is 
where another Quadrennial Homeland Security Review would be 
invaluable. This is an exercise in strategy prepared by law 
every 4 years, but one that DHS has not been able to accomplish 
since 2014--7 years ago. That is unacceptable.
    I urge the Secretary and the entire Homeland Security 
leadership to commit to this effort. It is time for Congress 
and the administration to commit to the Department by 
instilling leaders that will buckle down, ask the hard 
questions, and inspire its work force to contribute to making 
Homeland Security into the Department the American people want 
and need.
    Homeland Security is effective and nimble in responding to 
disasters, thwarting attacks of all kinds, and that is a 
steward of the public's trust. Homeland Security plays a vital 
role in keeping us safe as we travel, engage in commerce, 
recover from major disasters, and navigate an increasingly 
complex interconnected world. Despite this work, Homeland 
Security has struggled to earn the trust of the American people 
and the confidence of partners and stakeholders.
    Integrating the disparate mission sets of the Department 
and ensuring that it is nimble enough to respond to pressing 
threats is paramount to providing comprehensive security to our 
Nation.
    So, let us roll up our sleeves and figure out what we need 
to do to protect and safeguard the American people better than 
we do right now.
    Thank you, Mr. Chairman, and I yield back.
    [The statement of Ranking Member Katko follows:]
                 Statement of Ranking Member John Katko
    Mr. Chairman, thank you for holding this timely hearing to discuss 
reforms for the Department of Homeland Security and thank you to our 
distinguished witnesses for taking time to appear before the committee.
    We are quickly approaching the 20th anniversary of September 11 and 
as we do, this committee, and the Department, stand at a crossroads. At 
this crossroads, we can either choose to work together and successfully 
enact meaningful changes that will benefit this country, or we can 
choose to go about business as usual, leaving American communities 
vulnerable.
    Nearly 20 years ago, Congress established DHS by combining 22 
separate Federal agencies. The intent was to ensure that Government 
would be able to connect the dots of the many threats facing the 
American people and prevent another 9/11 from happening. To this day, 
and to its credit, DHS has been successful at preventing many terrorist 
attacks on our soil, while consistently responding to new and evolving 
threats to the homeland.
    Given these successes, I have been astonished to hear calls from 
some of my colleagues on the other side of the aisle for radical 
changes and budget cuts that would weaken or even abolish critical 
homeland security missions that protect American lives every day. I 
cannot express how dangerous I believe this rhetoric to be, as it sends 
all the wrong messages to our adversaries. While there is no doubt the 
Department must continue to evolve and mature, its functions are truly 
critical to our National security and must be improved, not degraded.
    After 9/11, DHS was stood up in haste to address the fears and 
threats facing a distressed Nation. As a result, it still faces growing 
pains and often struggles to nimbly respond to challenges.
    For example, since its inception, the Department has struggled to 
coalesce around a common vision and create a unified culture. Its 22 
separate agencies have largely operated independently, keeping their 
own policies and cultures intact.
    DHS has also struggled to centralize support functions for its 
components, such as acquisitions, IT systems, and financial management, 
all of which are still on the Government Accountability Office's high-
risk list. Though the Department has made some progress, there is still 
more it needs to do. I am encouraged to hear that DHS's financial 
systems modernization is back on track and key to ensuring that DHS can 
support all the components efficiently and are good stewards of 
taxpayer dollars. However, DHS is still working to centralize other 
support functions necessary to put the Department in the best position 
to achieve its many critical missions.
    DHS has also made progress in anticipating and addressing new and 
evolving future threats to the homeland, such as those related to 
cybersecurity. In 2018, DHS and Congress took action to address cyber 
threats by establishing the Cybersecurity and Infrastructure Security 
Agency to act as the Nation's lead civilian cybersecurity agency and 
primary conduit for information sharing and partnership with the 
private sector. Last week I held a roundtable with CISA on ransomware 
issues in my district in Central New York to discuss how we can prevent 
future attacks and further coordinate efforts between DHS and local 
businesses and governments. An overwhelming takeaway was how much these 
stakeholders value the free and voluntary services CISA provides. Now 
is a time to double down on our CISA investment. With the threat 
landscape we face, there is no other option.
    I firmly believe that cybersecurity is the pre-eminent National 
security and homeland security threat we face. It's dizzying to think 
about the string of significant cyber incidents we have seen just over 
the last 7 months--State-backed espionage campaigns on Federal 
networks, devastating ransomware campaigns against pipelines, our food 
supply, transit systems, and critical IT services. The bad guys are 
emboldened, and we must continue the full court press to flip the 
paradigm.
    Today, DHS continues to make some human capital progress. I applaud 
the Department for hiring nearly 300 cybersecurity professionals as a 
part of its 60-day cyber workforce sprint. DHS also says it has 
exceeded its initial hiring goal of 200 new cybersecurity personnel by 
50 percent and is calling it the ``largest cybersecurity hiring 
initiative in its history.'' That said, the Department's authorities to 
nimbly hire top talent, particularly in the cybersecurity arena, remain 
too inflexible. We cannot be boxed in by legacy mindsets or 
bureaucratic inertia.
    To fully support CISA's work, the agency needs sustained, robust 
funding to carry out its mission and respond to evolving threats. The 
DHS Secretary has acknowledged that CISA needs to be the quarterback of 
the .gov, and I fully agree, but CISA will be hard-pressed to do so 
without more substantial funding. To that end, CISA needs to be a $5 
billion agency in the next 5 years.
    Today, our Nation faces vastly different threats than the one that 
struck on September 11. This means that we need a DHS that can 
transform and adapt. We need a DHS that can identify, mitigate, and 
even prevent these new threats--threats that range from China's push 
for global power and influence, to global political and economic 
instability and organized crime.
    However, in recent years, DHS operations have been hamstrung by a 
high number of vacancies and turnover in senior positions. This also 
must change for DHS to formulate its strategic plans and to prepare for 
the future security of the homeland.
    Looking forward, the Department would benefit from a thorough 
assessment of what it is doing now, whether it should keep doing those 
things, and if there is something it should be doing that it isn't.
    This is where another Quadrennial Homeland Security Review would be 
invaluable. This is an exercise in strategy required by law every 4 
years, but one that DHS has not be able to accomplish since 2014, 7 
years ago. I urge the Secretary and the entire DHS leadership to commit 
to this effort.
    It is time for Congress and the administration to commit to the 
Department by instilling leaders that will buckle down, ask the hard 
questions, and inspire its workforce to contribute to making DHS into 
the Department the American people want and need. A DHS that is 
effective and nimble in responding to disasters, thwarting attacks of 
all kinds, and that is a steward of the public's trust.
    DHS plays a vital role in keeping us safe as we travel, engage in 
commerce, recover from major disasters, and navigate an increasingly 
complex, interconnected world. Despite this work, DHS has struggled to 
earn the trust of the American public and the confidence of partners 
and stakeholders. Integrating the disparate mission sets of the 
Department and ensuring that it is nimble enough to respond to pressing 
threats is paramount to providing comprehensive security to our Nation. 
So, let's roll up our sleeves and figure out what DHS needs to do to 
protect and safeguard the American people.
    Thank you, Mr. Chairman, and I yield back.

    Mr. Katko. Mr. Chairman, we are unable to hear you.
    Chairman Thompson. Thank you very much. I guess the 
gremlins have gotten me too.
    Other Members of the committee are reminded that under the 
committee rules opening statements may be submitted for the 
record. Members are also reminded that the committee may 
operate according to the guidelines laid out by the Chairman 
and Ranking Member in our February 3 colloquy regarding remote 
procedures.
    I now welcome our panel of witnesses.
    Our first witness, Miss Carrie Cordero, the Robert M. Gates 
senior fellow at the Center for New American Security, and 
author of the report titled ``Reforming the Department of 
Homeland Security Through Enhanced Oversight and 
Accountability''.
    Our next witness is Mr. Tom Warrick, director of The Future 
of DHS Project at the Atlantic Council. Mr. Warrick previously 
served as the DHS deputy assistance secretary for counter-
terrorism policy.
    Our third witness is Miss Katrina Mulligan, acting vice 
president for the National Security and International Policy at 
the Center for American Progress and author of ``Redefining 
Homeland Security: A New Framework for DHS to Meet Today's 
Challenges''.
    Our final witness is Mr. Frank Cilluffo, who is the 
director of Auburn University's McCrary Institute for Cyber and 
Critical Infrastructure Security. He previously directed 
President Bush's Homeland Security Advisory Council.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask Ms. Cordero to summarize her statement for 5 
minutes.

STATEMENT OF CARRIE CORDERO, SENIOR FELLOW AND GENERAL COUNSEL, 
               CENTER FOR A NEW AMERICAN SECURITY

    Ms. Cordero. Chairman Thompson, Ranking Member Katko, 
Members of the committee, thank you for the opportunity to 
appear before you today on the important topic of informing the 
Department of Homeland Security.
    For the past 2 years I have led a project at the Center for 
a New American Security focused on reforming DHS with a 
specific emphasis on selected law enforcement, intelligence, 
border security, and immigration aspects of the Department's 
work. I am grateful for the opportunity to share the insights 
developed through this project and to work with this committee 
going forward in connection with its important oversight and 
legislative responsibilities.
    I am particularly delighted to be joined today by my 
friends and colleagues, Katrina Mulligan, Tom Warrick, and 
Frank Cilluffo, all of whom have meaningful insights and 
expertise to share with the committee.
    As I mentioned in my written testimony, my grounding is a 
9/11-era operational counter-terrorism and counterintelligence 
lawyer. As a result of that formative experience, I have zero 
interest in going backward and undoing nearly 20 years of 
changes to the laws and institutions that kept the country safe 
from an act of terrorism on the scale of September 11. However, 
2021 is not 2001 and the threats that the country faces today 
are not the same. Maligned foreign cyber aggression, domestic 
terrorism, natural disasters, and pervasive domestic gun 
violence are all affecting Americans on a daily basis. DHS must 
adapt to current and emerging threats while improving its 
internal oversight and accountability.
    In short, I don't just want us to develop a DHS that can 
meet today's threats, I want to see a DHS that has the 
legislative framework, organizational capability, trained, 
resourced, and expert work force that is ready to meet 
tomorrow's threats. I am heartened by this committee's 
willingness to take on this important work.
    But our institutions are not keeping up. Although there 
were advance warnings, our Nation was unprepared to respond to 
the global pandemic that has killed over 600,000 Americans. As 
someone who had a front-row view to the prompt, decisive, 
bipartisan action that Congress and the Federal Government took 
to respond to the 9/11 attacks, the insufficiency of the 
Federal Government's response as it emerged in early 2020 is 
impossible to ignore.
    DHS in particular was created to protect the country from 
foreign threats, yet it appeared to have played no meaningful 
role in warning the country or mobilizing its response to the 
pandemic in the early months of the virus spread across the 
country.
    As another example of the insufficiency of our institutions 
to protect our democracy, it was not foreign terrorist but 
domestic terrorists and insurgents who threatened the 
Constitutional order and the personal safety of the Members and 
staff of Congress on January 6. Although I don't subscribe to 
the view that January 6 was an intelligence failure, our 
homeland security apparatus could have done more.
    DHS, through the Secret Service, leads National special 
security event operations. Had the 6th been designated an NSSE 
and been subject to its rigorous planning and preparation 
protocol, the events we witnessed would not have reached the 
level of severity that they did. The protection of our 
Constitutional system and the effective transfer of power was 
primarily thanks to the heroic actions of members of the 
Capitol Police and the District of Columbia's Metropolitan 
Police Department.
    We still need to improve the physical security of the 
Capitol and Members of Congress, as well as other public 
officials, like election officials and judges in this 
environment of political violence. A review of those protective 
measures and recommendations for improvement will I hope be a 
component of the newly-formed select committee under the 
Chairman's leadership.
    Turning to the DHS Reform Act of 2021, my written testimony 
includes a selected set of recommendations, several which I am 
grateful to see reflected in the bill. The DHS Reform Act will 
pave the way for a better DHS. As you work to move it out of 
committee, I hope that you will consider some of the additional 
recommendations in my written testimony and underlying reports.
    To highlight just a few quickly here, I strongly support 
the proposal to create an associate secretary to bolster the 
leadership capacity of the Department. That proposal was a key 
recommendation of my May 2020 report and also by the other 
independent reviews of my colleagues here today.
    In addition, I recommend that Congress update the DHS 
mission at Section 101 of the Homeland Security Act. DHS cannot 
do its best work if its statutory mandate, organization, and 
funding is inextricably tied to a threat of a prior era while 
other threats present a growing menace. Updating the statutory 
mission might also improve the persistent morale issues at the 
Department that I know the committee is interested in.
    Finally, the oversight and accountability for the 
considerable law enforcement components of DHS need to mature. 
DHS was not created to serve as a Federal police force, a 
function reserved for the States and localities, nor is it an 
internal security service or a domestic intelligence service, 
concepts that were roundly rejected, even after the 9/11 
attacks. The risks of not reforming the law enforcement 
functions are substantial, and I outline them further in my 
written testimony.
    Thank you very much for the opportunity to participate 
today. I look forward to your questions and to continuing to 
work with this committee.
    [The prepared statement of Ms. Cordero follows:]
                  Prepared Statement of Carrie Cordero
                             July 15, 2021
                            i. introduction
    Chairman Thompson, Ranking Member Katko, and Members of the 
committee, thank you for the opportunity to appear before you today on 
the important topic of reforming the Department of Homeland Security 
(DHS or the Department). For the past 2 years, I have led a project at 
the Center for a New American Security (CNAS) focused on reforming DHS, 
with a specific emphasis on selected law enforcement, intelligence, and 
border security and immigration aspects of the Department's work. I am 
grateful for the opportunity to share the insights developed through 
this project, and to work with this committee going forward in 
connection with its important oversight and legislative 
responsibilities.
    Since this is my first appearance before this committee, I thought 
it might be useful to provide some additional information about my 
background and experience to give you a better sense of the perspective 
I bring to these issues. My grounding is as a 9/11-era operational 
counterterrorism and counterintelligence lawyer. I worked in the 
National security components of the Justice Department pre- and post-9/
11 and was sent over to the FBI's Strategic Information Operations 
Center the morning of 9/11 after the second tower was struck, where I 
continued to work over the days, weeks, and months thereafter, 
supporting the Justice Department's National security operations. Most 
of my Government experience from 2000-2010 was at the intersection of 
National security, foreign intelligence collection, and protecting 
civil liberties and privacy, including matters handled under the 
Foreign Intelligence Surveillance Act. As the first Justice Department 
National Security Division (NSD) detailee to the Office of General 
Counsel in the Office of the Director of National Intelligence from 
2007-2009, I served as the primary legal advisor to the intelligence 
community's Civil Liberties Protection Officer, and routinely provided 
advice to intelligence community executive leaders on what we then 
referred to as the ``domestic intelligence'' or, domestic security and 
intelligence portfolio. I was integrally involved in developing 
guidelines and interagency oversight processes related to National 
security investigations. Upon returning to the NSD front office in 
2009, I co-chaired an interagency task force focused on improving 
processes related to intelligence, surveillance, and compliance. Since 
leaving Government service in 2010, I have taught graduate-level law 
seminars at Georgetown Law on intelligence community reform and 
cybersecurity law and policy. Accordingly, I approach National and 
homeland security legislative and policy issues with the eye of both a 
practitioner and an academic.
    As a result of these formative professional experiences, I have 
zero interest in going backward, and undoing nearly 20 years of changes 
to the laws and institutions that kept the country safe from an act of 
international terrorism on the scale of September 11, 2001. However--
and this is important--2021 is not 2001. The threats to security and 
safety the country faces today are not the same. While some threats of 
the past have receded, they have not disappeared. Instead, threats to 
American security, safety, and health appear to have compounded. And 
our National and homeland security institutions which are designed to 
protect Americans from the threats they actually face need to keep 
pace. In short, I don't just want us to develop a DHS that can meet 
today's threats, I want to see a DHS that has the legislative 
framework, organizational capability, and trained, resourced, and 
expert workforce that is ready to meet tomorrow's threats.
                ii. recent homeland security challenges
    There are indications that our institutions are not keeping up with 
the current and emerging threat landscape, and DHS is, unfortunately, 
an example. Although there were advance warnings by experts and 
planning by prior administrations, by orders of magnitude, our Nation 
was unprepared to respond to the global pandemic that has killed over 
600,000 Americans and 4 million souls world-wide. As someone who had a 
front-row view to the prompt, decisive, bipartisan action Congress and 
the Federal Government took to respond to the 9/11 attack, the 
insufficiency of the Federal Government's response to the greatest 
public safety threat as it emerged in early 2020 is impossible to 
ignore. DHS, in particular, was created to protect the country from 
foreign threats. From an outside observer's perspective, however, it 
has appeared to have played no meaningful role in warning or protecting 
the country or mobilizing its response to the Coronavirus pandemic in 
the early months of the virus' spread across the United States. As 
Secretary Alejandro Mayorkas testified before this committee in March, 
that has since changed.
    As another example of the insufficiency of our institutions to 
protect our democracy, it was not foreign terrorists but domestic 
terrorists and insurgents who threatened the Constitutional order and 
the personal safety of Members and staff of the U.S. Congress on 
January 6, 2021. Although I do not subscribe to the view that January 6 
was an intelligence failure, our homeland security apparatus should 
have been mobilized to do more to protect against the destruction and 
violence of that day. DHS--through the departmental component of the 
Secret Service--leads National Special Security Event (NSSE) 
operations. In my judgment, had January 6 been designated an NSSE and 
been subject to its rigorous planning and preparation protocols, the 
events we witnessed on that day would not have reached the level of 
severity that they did. DHS had both an intelligence warning and a 
protective coordination role that it could have leveraged in 
anticipation of that day's violence; instead, the protection of our 
Constitutional system and the effective transfer of power was primarily 
thanks to the heroic actions of members of the Capitol Police and the 
District of Columbia's Metropolitan Police Department.
    The political dynamics that motivated the violent insurgency of 
January 6, 2021, have not fully dissipated; continued work from 
intelligence, law enforcement, and physical security perspectives must 
continue. The administration's National Strategy for Countering 
Domestic Terrorism, issued last month by the National Security Council, 
is a good start and outlines how various agencies, including DHS, can 
facilitate the sharing of information and development of programs that 
raise awareness about warning signs for domestic terrorism. Meanwhile, 
there remains important work to be done to improve the physical 
security of the Capitol and Members of Congress, whether here in 
Washington, DC, or at home in their districts, as well as that of other 
public officials like election officials and judges, in this continued 
environment of potential political violence. A review of those 
protective measures and recommendations for substantial improvement, 
will, I hope, be a significant component of the newly-formed Select 
Committee, under the Chairman's leadership.
    Meanwhile, malign foreign cyber aggression, additional 
manifestations of domestic terrorism, natural disasters prompted by a 
changing climate, and pervasive domestic violence facilitated by gun 
proliferation are affecting all Americans on a daily basis. DHS is a 
Department that could be capable of better protecting our citizens from 
these types of threats. But in order to do so, DHS must adapt to 
current and emerging threats while improving its internal oversight and 
accountability. It needs Congress' attention, engagement, and action to 
do so. I am heartened by this committee's willingness to take on this 
important work.
                              iii. mission
    As this committee recognizes by virtue of holding this hearing, it 
is time to take a renewed look at the core mission of DHS. The 
Department was created in 2002 to bring together capabilities of 22 
different Federal Government entities with a wide array of functions, 
primarily to protect against a future international terrorist attack. 
From the outset, however, the nature of the day-to-day activities of 
the DHS components included aspects that could relate to 
counterterrorism, but that also covered a range of activities that had 
nothing to do with terrorism. Areas like immigration, border security, 
law enforcement, emergency management, and transportation security are 
all ones that are relevant to the counterterrorism mission, but are 
also functions that are far broader than just counterterrorism.
    Accordingly, Congress should update Section 101 of the Homeland 
Security Act to reflect the activities that DHS engages in on a day-to-
day basis, and to provide flexibility for the Department to shift 
activities and priorities as the threat environment evolves. It's time 
to provide the statutory grounding to enable this Department to move 
beyond the post-9/11 era. This is not to say the international 
terrorism threat does not exist. But the modern threat environment has 
evolved. DHS cannot do its best work under the current threat 
environment if its statutory mandate, organization, and funding is 
inextricably tied to an international terrorism threat of a prior era, 
while other threats present a growing menace to the United States' 
society, economy, and safety.
    Congress could take two different approaches to modernizing the 
statutory mission. It could start from scratch and reimagine the 
Department's mission. Alternatively, even a modest update to the text 
could provide much greater flexibility for the Department to evolve in 
closer alignment with current, emerging, and future threats to the 
homeland. In my May 2020 report, Reforming the Department of Homeland 
Security Through Enhanced Oversight & Accountability, I included 
proposed text that provides a modest revision to the statutory mission 
and would welcome the opportunity to work with this committee on 
refining it further.
    Updating the statutory mission might also contribute to rectifying 
the persistent and dismal morale issues at the Department. As Members 
of this committee are likely aware in the Partnership for Public 
Service's 2020 rankings of the best places in the Federal Government to 
work, DHS ranks dead last for large agencies. DHS is a Department where 
many employees work on issues that are unconnected or have only 
theoretical connections to the counterterrorism mission. One way to not 
only improve the performance and functioning of the Department, but 
also the morale of its valuable workforce, is to ensure that each and 
every DHS employee is invested in the Department's mission. Based on my 
experience in public service, I know that mission is what motivates 
public servants. If we want to motivate the DHS workforce to feel pride 
in their work, we need to do a better job of making sure that they see 
their efforts reflected in the Department's mission.
 iv. improving oversight & accountability for law enforcement functions
    DHS currently houses the largest Federal law enforcement officer 
capacity of any department in the Federal Government. There are law 
enforcement components and activities spread across a wide range of the 
Department's agencies and sub-components. DHS was not created, however, 
to serve as a Federal police force, a function reserved for States and 
localities. Nor is it an internal security service or a domestic 
intelligence service, concepts that were roundly rejected, even after 
the 9/11 attacks.
    While the administration, as a practical matter, needs to focus on 
the day-to-day management of the Department, solving problems, and 
improving operational competency and morale, Congress needs to 
seriously think about and take steps to future-proof this Department 
against inappropriate political pressure or outright abuse of law 
enforcement authority and power. From the implementation of the travel 
ban, to the enactment of the family separation policy, to the 
aggressive deployment of tactical units to Portland, Oregon, DHS has, 
unfortunately, revealed itself as an institution that is not capable of 
withstanding inappropriate political pressure. This state of affairs is 
neither fair to the workforce of DHS or the people it serves and 
interacts with in the course of performing its legitimate and lawful 
functions.
    The risks of not reforming the law enforcement functions are 
substantial. First, the aggressive deployment of law enforcement 
personnel into situations for which they are neither trained nor 
prepared for places both officers and civilians at risk. Second, to the 
extent DHS may deploy its law enforcement personnel beyond their 
intended purposes, activities may be conducted outside the bounds of 
laws, proper procedures, and each component's mission. These actions 
harm public confidence in not just the Department, but law enforcement 
Nation-wide. Today's environment is a difficult one for law enforcement 
officers and police who do follow the law and serve the public interest 
to the best of their abilities; heavy-handed local law enforcement 
activity by DHS is not helpful to the efforts at the State and local 
level to build public confidence in law enforcement personnel. Third, 
DHS is a highly operational Department: Its officers and employees 
interact with the public--both U.S. citizens and foreign persons--
daily, routinely, and at a high volume. Clear guidelines, sophisticated 
and up-to-date training, and robust oversight structures are essential 
to ensure that DHS law enforcement officers carry out their 
responsibilities in accordance with the Constitution, laws, and rules, 
especially those related to the protection of civil liberties and 
privacy.
                       v. dhs reform act of 2021
    The DHS Reform Act of 2021 is a positive step toward providing 
greater oversight and accountability for the Department. In all, the 
proposed legislation provides appropriate and needed reforms that will 
pave the way for a better DHS. As you work to move it out of this 
committee, I hope that there will be constructive efforts to build 
bipartisan support for it. While I will not comment on each provision 
of the proposed legislation in this written statement, I do wish to 
highlight and offer constructive comments on certain aspects of the 
proposed legislation:
  <bullet> I strongly support the proposal to create an associate 
        secretary to bolster the leadership capacity of the Department 
        in Section 102 of the bill. This proposal was a key 
        recommendation of my May 2020 report, and was also recommended 
        by the other independent reviews conducted since then. Given 
        the particular expertise needed to oversee law enforcement 
        activities, the portfolio designated in the bill makes sense 
        and will ensure that the Secretary has the needed space to give 
        sufficient attention to all aspects of the Department's work, 
        and not be unduly focused on immigration and border security, 
        which are important, but do not represent the full scope of the 
        Department's functions and responsibilities.
  <bullet> In order to ensure that the Department's leadership has the 
        needed flexibility to address not just today's homeland 
        security threats but tomorrow's, I would urge Congress not to 
        limit the organization of certain internal aspects of the 
        Department too narrowly. For example, Section 308 of the bill 
        designates ``no more than five Assistant Secretaries within the 
        Office of Strategy, Policy, and Plans with divided 
        responsibility'' for areas that the proposed legislation then 
        defines roughly as counterterrorism, border security and 
        immigration, cybersecurity and infrastructure security, law 
        enforcement, and trade and economic security. In the current 
        environment, for example, natural disaster emergency management 
        or public health emergency response might be areas that would 
        benefit from this designation. In another decade or two, other 
        areas might benefit from this policy leadership focus. Congress 
        may wish to allow a future Secretary or under secretary 
        slightly more flexibility in designating the functions of 
        assistant secretaries as the threat environment and the needs 
        of the Department change over time.
  <bullet> One area that I also urge the committee to consider 
        including in future debate or amendments is a requirement for 
        the promulgation of modernized operational guidelines for law 
        enforcement activities across the Department. While the bill at 
        Section 890c does provide for ``policies and guidelines'' to 
        better train on ``accountability, [and] standards for 
        professional and ethical conduct,'' given the substantial law 
        enforcement--including complex investigative activities--the 
        Department engages in, the Department should have operational 
        guidelines that establish the Constitutional floor for 
        operational activities and provide clear guidance for the scope 
        and conduct of those activities. Given the breadth of the 
        Department's law enforcement responsibilities and the nature of 
        its complex investigations, the guidelines should be developed 
        in consultation with the Attorney General, and should be made 
        publicly available, consistent with National security.
  <bullet> The bill proposes valuable provisions to bolster the work of 
        the chief privacy officer in Section 301 and officer for civil 
        rights and civil liberties in Sections 306, and requires 
        coordination with both those officials in Section 511 for 
        programs that affect their areas of expertise. I would go a 
        step further and create an under secretary for privacy, civil 
        liberties and transparency, as discussed in my May 2020 report. 
        Joining these offices under one high-level official and adding 
        transparency as an additional highlighted function would 
        provide a stronger voice and capability to coordinate these 
        important functions Department-wide.
                     vi. summary of recommendations
    Over the past 2 years, I, along with colleagues internal and 
external to CNAS, have made a variety of recommendations to modernize 
the DHS mission and improve the Department's operations, oversight, and 
accountability, particularly related to selected law enforcement, 
intelligence, and border security and immigration functions. Launched 
in 2019, the CNAS project on DHS oversight and accountability has 
played a leading role in bringing greater policy community attention to 
DHS and the need for modernizing and reforming the organization to meet 
the threats of today and tomorrow. Research under this project has 
drawn on a wide range of experts with operational, policy, and legal 
expertise, including input and advice from prior DHS senior leaders who 
have served in every administration since the Department's creation.
    For ease of reference, a selected set of recommendations--several 
of which are reflected in the DHS Reform Act of 2021--made as part of 
this on-going project is provided below. These recommendations are 
drawn from the following reports, policy briefs, and articles published 
in connection with CNAS' umbrella project on DHS oversight and 
accountability:
  <bullet> Carrie F. Cordero, Heidi Li Feldman, and Chimene Keitner, 
        ``The Law Against Family Separation,'' Columbia Human Rights 
        Law Review, 51 no. 2 (2020).
  <bullet> Carrie Cordero, ``Reforming the Department of Homeland 
        Security Through Enhanced Oversight & Accountability,'' (Center 
        for a New American Security, May 2020), with photographs by 
        Ivan Pierre Aguirre.
  <bullet> Carrie Cordero and Katrina Mulligan, ``Modernizing the 
        Department of Homeland Security,'' Lawfare, December 9, 2020.
  <bullet> Carrie Cordero and Katie Galgano, ``The Department of 
        Homeland Security: Priorities for Reform,'' (Center for a New 
        American Security, March 11, 2021).
  <bullet> Christian Beckner, ``Reassessing Homeland Security 
        Intelligence: A Review of the DHS Office of Intelligence and 
        Analysis,'' (Center for a New American Security, May 25, 2021).
  <bullet> Carrie Cordero and Katie Galgano, ``From Mardi Gras to the 
        Philippines: A Review of DHS Homeland Security 
        Investigations,'' (Center for a New American Security, 
        forthcoming July/August 2021).
                                mission
  <bullet> Congress should update the Department's statutory mission at 
        Section 101 of the Homeland Security Act to reflect current and 
        emerging threats and facilitate the Department's ability to 
        adapt to tomorrow's threats.
  <bullet> The administration should recalibrate the Department's focus 
        on security and safety issues that most threaten Americans 
        today, and enable the Department to pivot to the threat 
        environment of tomorrow.
  <bullet> The administration should align the use of law enforcement 
        powers with intended purpose and prioritization, including 
        limiting the use and deployment of Border Patrol personnel for 
        border security purposes only.
                              organization
  <bullet> Congress should create the position of associate secretary 
        to provide more robust leadership capacity across the 
        Department's extraordinarily wide range of responsibilities and 
        activities.
  <bullet> Congress should create the position of under secretary for 
        privacy, civil liberties, and transparency, to ensure better 
        coordination across the Department of these important 
        portfolios at a higher profile leadership level.
  <bullet> The Secretary should direct the Office of Strategy, Policy, 
        and Plans to develop policies and procedures to better 
        coordinate oversight and compliance across the Department.
  <bullet> The administration should create a joint duty program across 
        DHS components and at DHS headquarters, and include joint duty 
        as a path to career advancement.
  <bullet> The administration and Congress should work together to 
        place the Office of Intelligence and Analysis (I&A) on 
        stronger, forward-looking footing, by either ``going big'' and 
        broadening the scope of I&A's authority and functions, or 
        ``going small'' and focusing I&A's work on a tighter, more 
        discrete set of core issues that better serves Departmental 
        leaders and focuses on high-quality products with a tailored 
        utility and audience.
  <bullet> The administration and Congress should work together to 
        focus the operations, eliminate redundancies with other Federal 
        investigative law enforcement agencies, and improve oversight 
        over DHS Homeland Security Investigations (HSI), including 
        considering removing HSI from Immigration and Customs 
        Enforcement (ICE) and creating a Senate-confirmed component 
        head.
  <bullet> The administration should create a Department Leadership 
        Council, consisting of the component and agency heads to meet 
        regularly with the Secretary and deputy secretary.
  <bullet> The administration should create a Departmental Oversight 
        and Accountability Council, which would bring together the 
        compliance and oversight personnel across the Department 
        responsible for legal, civil liberties, and privacy protection.
                               oversight
  <bullet> The Secretary should direct a review of law enforcement 
        operational guidelines across the components of the Department, 
        as well as a review of operational procedures and guidelines 
        governing detention practices.
  <bullet> Congress should mandate the development and issuance of 
        modernized law enforcement operational guidelines, in 
        consultation with the Attorney General.
  <bullet> Congress should direct the public release of newly developed 
        law enforcement operational guidelines, consistent with the 
        protection of National security.
  <bullet> Congress should conduct or direct the execution of an 
        oversight review of the number and function of political 
        appointees across the Department at non-leadership levels and 
        identify opportunities to recalibrate the balance of political 
        and career officials at non-leadership levels.
  <bullet> Congress should continue to enhance the authority of the 
        homeland security committees of Congress to serve as the 
        primary vehicles for conducting oversight of DHS.
  <bullet> With respect to family separation in the immigration 
        context, Congress should legislate requirements for the 
        reunification of families separated under the 2018 policy, 
        mandate an adequate Government tracking system for children who 
        enter the border security and immigration system, and legislate 
        adequate representation for children in immigration 
        proceedings.
    Thank you for the opportunity to participate today. I look forward 
to your questions and continuing to work with this committee.

    Chairman Thompson. Thank you very much.
    I now ask Mr. Warrick to summarize his statement for 5 
minutes.

 STATEMENT OF THOMAS S. WARRICK, SENIOR FELLOW AND DIRECTOR OF 
          THE FUTURE OF DHS PROJECT, ATLANTIC COUNCIL

    Mr. Warrick. Thank you very much, Mr. Chairman. Ranking 
Member Katko and Members of the committee, thank you for the 
opportunity to testify here today.
    It is clear that DHS today needs all of the good help it 
can get. It is the third-largest Cabinet department in the U.S. 
Government, has more than 200,000 employees, and its missions 
include some of our country's most important challenges. There 
are many DHS mission areas that need attention, it has 
management challenges throughout the Department for most of 
which is morale, with 2020 having been a particularly 
tumultuous year.
    At the outset, Mr. Chairman, I just say that the Atlantic 
Council itself does not take positions on legislation. Views 
expressed are those of individual experts. I do want to thank 
our senior advisory board, our former secretaries and acting 
secretaries and the more than 100 experts on homeland and 
National security who contributed to our findings and 
recommendations, and to technical support from Accenture 
Federal Services and SAIC on how to support the DHS work force 
and understand DHS's unique organizational challenges. But the 
responsibility for the conclusions are mine.
    So it is on that basis, Mr. Chairman, that I want to offer 
my endorsement of H.R. 4357, the DHS Reform Act of 2021, which 
embodies some of the best thinking about how DHS needs to be 
reformed. I also urge the Members of this committee to continue 
your efforts to make the Department more effective in 
protecting the American people from non-military threats.
    Mr. Chairman, any comprehensive assessment of DHS starts 
with the need to refocus its mission. On this point, all of the 
reports that you have been reading agree. Our report said that 
the most urgent threat when we released it in September 2020 
was the COVID-19 pandemic and the greatest long-term threat to 
lives and infrastructure comes from climate change and that DHS 
should prioritize its work in these areas. I am obviously very 
pleased to see that the Biden administration has taken up both 
of these challenges with the priority that it deserves.
    But the one other important point I need to make is that 
our report calls for DHS to take on the overall mission of 
defending the United States and the American people from non-
military threats. DHS's missions currently include protecting 
American democracy from cyber attacks, protecting critical 
infrastructure, election security, countering foreign nation-
state misuse of our social media platforms, all of which I 
group together under the umbrella of protecting American 
democracy.
    It is true that DHS needs to maintain its level of 
resources and efforts on all of its other missions. One of the 
hallmarks of the Department, as you said, Mr. Chairman, is it 
keeps adding missions, but none of its current missions goes 
away. Just as the United States is fortunate to have a 
Department of Defense and men and women in uniform who lead the 
Nation's defense against military threats, DoD is not the right 
place to lead defense of the Nation against non-kinetic 
threats. So if DoD's bumper sticker version of its mission is 
we fight and win America's wars, DHS needs to think of its 
mission as we lead the defense of the Nation against non-
military threats. This is what DHS needs to move toward.
    DHS also needs to think of communications as a core mission 
and win the trust of the American people by how it takes on 
what it does. It also needs to modernize its approach to 
public-private partnerships because that is the way DHS 
contributes to tackling the dangers from climate change.
    DHS morale is another important challenge. Let me ask the 
Clerk to put up slide No. 2 for the committee to take a look 
at. One of the things that we have all noted is that DHS has 
ranked last in the annual surveys of employee morale since 
2010. The data from the September-October 2020 shows DHS is 
still last among large Cabinet departments and agencies in the 
Federal Government.
    But our analyses show that morale at DHS is not a hopeless 
task--far from it. DHS has had numerous success stories. Frank 
Taylor at the Office of Intelligence and Analysis, between 2014 
and 2017, Sarah Saldana at Immigration and Customs Enforcement, 
Tex Alles and John Kelly at the U.S. Secret Service between 
2017 and 2019.
    If I could ask the Clerk to show slide 3. Thanks. 
Unfortunately, in 2020 morale at one of DHS's two long-time 
success stories, U.S. Citizenship and Immigration Services fell 
off a cliff. USCIS fell from 90th of 420 sub-agencies to 339th 
out of 411. The reasons for this drop is overhearing of their 
own. DHS had other success stories. The components that were 
most associated with the response to the COVID-19 pandemic and 
protecting our 2020 election showed their morale improve 
because I believe of a combination of good leadership and 
commitment to the importance of their missions.
    There are a number of other reforms that need to be made 
that will obviously enhance morale. This committee's hearing on 
May 4 on the rights of the TSA work force coincided with our 
recommendation that TSA be the first project for reform and 
that pay and work force issues need to be prioritized. 
Secretary Mayorkas announced that this was his priority as well 
on June 3. It is important now to ensure that DHS get the 
necessary funding.
    You can take the slides down. Thanks.
    There are other management challenges DHS needs to address, 
very quickly, strengthening headquarters, better coordination 
of policy and resources and, in particular, as my colleague, 
Carrie Cordero said, establishing an associate secretary to 
coordinate law enforcement activities without micromanaging 
what those law enforcement agencies need to do.
    DHS needs to integrate more substantively civil rights, 
civil liberties, privacy protections, and rotate people in and 
out.
    Mr. Chairman, what both you and Representative Katko said 
about the importance of consolidating Congressional oversight 
also needs to be a priority.
    So, with that, I would be happy to answer any questions 
that the committee may have.
    Thank you.
    [The prepared statement of Mr. Warrick follows:]
                Prepared Statement of Thomas S. Warrick
                             July 15, 2021
    When the Atlantic Council started developing The Future of DHS 
Project in June 2019, no Washington-based think tank had done a 
comprehensive study of the Department of Homeland Security since 2004. 
Today, you have three: By the Atlantic Council's Future of DHS Project, 
the Center for a New American Security, led by Carrie Cordero, and the 
Center for American Progress, led by Katrinia Mulligan. True, there has 
been a lot of expert thought and advice across the political spectrum 
on the individual issues DHS is involved in, including from experts 
like Frank Cilluffo--on issues like cybersecurity, borders and 
immigration, counterterrorism, and climate change--but in the 15 years 
since 2004, there had not been as much attention given to DHS as an 
institution.
    Yet it's clear that DHS needs all the good help it can get. DHS is 
the third-largest Cabinet department in the U.S. Government. It has 
more than 200,000 employees. Its missions include many of our country's 
most important security challenges. Many of DHS's mission areas need 
more attention than they have been receiving. Since 2010, despite some 
years of improvement, employee morale at DHS was consistently last 
among large Cabinet departments. Management challenges abounded, with 
2020 being a particularly tumultuous year.
    Although our 3 reports differ in important ways, they have a number 
of fundamental points in common. As I walk you through the conclusions 
of the Atlantic Council's Future of DHS Project reports, I want to 
recognize some of the progress to date, with special thanks to the work 
of this committee and Chairman Thompson for leading the push for reform 
at DHS. I will also note some of the points that the 3 respective 
reports have in common. I want to offer my endorsement of H.R. 4357, 
the DHS Reform Act of 2021, which embodies some of the best thinking 
about how DHS needs to be reformed. I also want to urge the Members of 
this committee to continue the effort and make the DHS Reform Act the 
first of a series of Congressional efforts to make the Department more 
effective in protecting the American people from non-military threats.
    I should take a moment to note the Atlantic Council's policy of 
intellectual independence. The Atlantic Council itself does not take 
positions on legislation. Views expressed are those of individual 
experts. I also want to credit our Senior Advisory Board of former 
Secretaries and Acting Secretaries, who helped guide the project and 
the more than a hundred experts who contributed to our findings and 
recommendations. Of course, responsibility for the conclusions is mine, 
as the lead author and director of The Future of DHS Project.
   summary of the atlantic council's future of dhs reports from 2020
I. Re-Focus DHS's Mission on Protecting the Nation from Non-Military 
        Threats
    Any comprehensive assessment of DHS must start with the need to re-
focus DHS's mission. On this foundational point, all 3 reports agree. 
The Future of DHS Project report, released in August and September 
2020, said that the most urgent threat facing the United States was the 
COVID-19 pandemic. The greatest long-term threat that DHS needs to 
focus on is the threat to lives and infrastructure from climate change. 
The Biden administration has taken up both these challenges with the 
priority they deserve.
    On the threat of terrorism, we pointed out that while terrorism may 
have been the reason DHS was founded, over the years DHS has had 
missions added to it that leave terrorism one mission among many. I 
agree with my colleague Carrie Cordero's conclusion that DHS needs a 
new authorizing statute to replace the Homeland Security Act of 2002 in 
a way that makes DHS's missions more clear.
    Even the terrorism threat is changing. DHS needs to use the next 2 
to 3 years to get ready to deal with a different terrorist threat than 
we faced on 9/11. Our report said in September 2020 that DHS needs to 
give more attention and resources to domestic terrorism, White 
supremacism, and other ``home-grown'' causes. The January 6 attack on 
the U.S. Capitol only reinforced this conclusion. The Atlantic 
Council's ``After the Insurrection'' series has looked at what needs to 
be done to address this threat. The Biden administration's domestic 
terrorism strategy released in May was a good start, especially its 
call for the domestic terrorism response to be ideologically neutral 
while recognizing that White supremacists and other like-minded violent 
extremists are unquestionably responsible for more lethal attacks than 
any other ideological movement in the past decade--and as an attack on 
American democracy, nothing comes close to the January 6 attack on the 
Capitol. It was also good to see additional funding for domestic 
terrorism programs at DHS and the Department of Justice (DOJ). However, 
the strategy needs more money and people to succeed. A good strategy 
alone doesn't tell us victory's sticker price.
    There is one very important point about re-focusing DHS missions 
that I want to make. The Future of DHS report calls for DHS to take on 
the overall mission of defending the United States and the American 
people from non-military threats. DHS missions currently include 
protecting American democracy from cyber attacks, protecting critical 
infrastructure, election security, countering foreign nation-state 
misuse of social media. I group all of these under the umbrella of 
``protecting American democracy.''
    DHS needs to maintain its level of resources and efforts on 
counterterrorism, aviation security, border management and immigration, 
maritime security, emergency management, disaster response, and 
protecting U.S. continuity of governance. None of DHS's current 
missions is going away, but this shows that DHS currently has most of 
the stovepipes of non-military defense already under its umbrella.
    The United States is fortunate to have the Department of Defense 
(DoD) and our men and women in uniform leading the defense of the 
Nation against military threats. However, DoD is not the right place to 
lead the defense of the Nation against non-kinetic threats. However, 
there does need to be a Cabinet department that can provide unity of 
effort against non-military threats.
    If DoD's bumper-sticker version of its mission is ``We fight and 
win America's wars,'' DHS needs to think of its mission as ``We lead 
the defense of the Nation against non-military threats.''
    This is what DHS needs to move toward.
    DHS also needs to think of communications as a core mission. This 
means better communications with other parts of the Federal, State, 
local, Tribal, and territorial governments, the private sector, and 
especially the American people. DHS needs to have access to Classified 
communications and a press office equal to that of other departments 
for which communications with the public is a vital part of its 
mission. DHS needs to be staffed resourced for all these things. 
Currently, it's not.
    DHS also needs the trust of the American people to succeed. DHS 
needs to factor into its decisions how its actions affect the trust the 
American people have in DHS. We need as a country to recognize that 
DHS, like our uniformed military and intelligence community, needs to 
be non-partisan. This point is one on which my colleagues and I 
strongly agree.
II. Modernize DHS's Approach to Public-Private Partnerships
    The Future of DHS report also urged DHS to modernize its approach 
to public-private partnerships. DHS's role is unique among Federal 
Cabinet departments in how it works with other Federal agencies, with 
State, local, Tribal, and territorial governments, with the private 
sector, and with the American people. Other Federal departments do some 
of these things--DHS does all of them.
    As one example, for telecommunications and financial companies to 
defend their networks against today's cyber threats will require a 
closer partnership with DHS than ever before. Network operators need 
higher-fidelity, often Classified intelligence to take action, and 
increasing the speed of sharing is now vital, because cyber attacks 
take place at network speeds, and the Federal Government needs to be 
able to communicate relevant information, including attribution, in 
real time. Adversaries from overseas--whether nation-states or cyber 
criminals--will exploit any delays in defending computer and financial 
networks. This will require a closer and more sophisticated partnership 
in defense of our computer and financial networks.
    The partnership that DHS has with State and local governments is 
also going to be vital in defending American lives and infrastructure 
from climate change and extreme weather. Other Cabinet departments are 
involved in tackling ways to halt the rise in global temperature. 
However, a vital part of our National defense against these changes has 
to be action by DHS through FEMA and the CISA infrastructure protection 
experts working with State and local governments and the private sector 
to find ways to protect lives and infrastructure from climate change 
and extreme weather. Our report offered a number of specific 
recommendations how to do this. DHS needs to be one of the departments 
at the center of our Nation's efforts to address climate change.
III. DHS's Morale Can Be Significantly Improved
    DHS also has more than its share of management challenges. Foremost 
among these is low morale. DHS has been last among large Cabinet 
departments since 2010, according to the Federal Employee Viewpoint 
Survey (FEVS) as analyzed by the Partnership for Public Service's Best 
Places to Work in the Federal Government (hereafter, ``Partnership''). 
I will now present several updates the results we released last year 
that incorporates new data released from the 2020 FEVS survey taken 
from September 14 to November 5, 2020. (As the Partnership made clear, 
for 2020, they changed the way they calculated scores, so much of what 
appears to be an across-the-board improvement in morale across the 
Federal Government is actually due to this change in the methodology.)
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    As Figure 1 above shows, DHS still ranks last in overall morale of 
large departments and agencies in the Federal Government. Our report 
released last September showed that improving morale at DHS is not a 
hopeless task--far from it. DHS has had numerous success stories 
improving morale at the component levels. We cited the data showing 
what Frank Taylor did at the Office of Intelligence & Analysis between 
2014 and 2017, where his reorganization led to higher morale. 
Similarly, what Sarah Saldana did at Immigrations and Customs 
Enforcement (ICE) between 2015 and 2017, and what Randolph ``Tex'' 
Alles and John Kelly did at the U.S. Secret Service between 2017 and 
2019, all show that morale at DHS can be improved significantly, and 
over a span of 2 to 3 years.
    Unfortunately, in 2020, morale at one of DHS's two long-time 
success stories--US Citizenship and Immigration Services (USCIS)--fell 
off a cliff. Morale at the U.S. Coast Guard and USCIS have long been 
among DHS's success stories. But between May 2019 and September-October 
2020, USCIS fell from 90th out of 420 sub-agencies across the Federal 
Government to 339th out of 411. The reasons for this deserve a hearing 
of their own.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Interestingly, DHS still had success stories in 2020. Three of the 
DHS components most involved in helping with the response to the COVID-
19 pandemic and the 2020 election--the Science & Technology Directorate 
(S&T), the Federal Emergency Management Agency (FEMA), and the 
Cybersecurity and Infrastructure Security Agency (CISA)--all saw their 
morale improve because, I believe, of a combination of leadership and 
commitment to the importance of the mission.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Another morale success story in late 2020 appears to have been the 
Office of Intelligence & Analysis (I&A), which saw a sharp drop in 
morale in May 2018, and opted out of the FEVS survey for 2019. I&A 
underwent a change in leadership on August 3, 2020, and 2 months later, 
survey data suggested that morale had increased back to the levels that 
Frank Taylor left it in 2017. Some of this may be due to the change in 
Partnership's calculation methodology, but the improvement over 2018 
appears to be real.
    Morale, of course, does not tell the whole story. The FEVS survey 
concluded on November 5, just before the results of the 2020 
Presidential election were known. We at the Atlantic Council have been 
closely following the intelligence failures that led to the January 6 
attack on the U.S. Capitol. My colleague Mitch Silber has documented 
the intelligence failures that allowed the January 6 attack to surprise 
the Capitol Police leadership and much of the country. I am sure that 
the new acting under secretary, John Cohen, will tackle both the 
substantive mission and morale of I&A together, because the two are 
related.
    However, overall morale in DHS continues to be dominated by the 
Transportation Security Administration (TSA) and Customs and Border 
Protection (CBP), which make up about 60 percent of the DHS workforce. 
Both TSA and CBP have underlying factors that negatively affect morale, 
and both need to be addressed.
    Our report recommended making significant improvements at TSA, 
especially to address the low pay of TSA's screening officers. In our 
report and before a subcommittee of this committee, I showed this 
slide, which makes it clear that low pay at TSA urgently needs to be 
addressed:
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    This committee held a hearing on May 4 on H.R. 903, the Rights for 
the TSA Workforce Act. On June 3, Secretary of Homeland Security 
Alejandro Mayorkas announced that TSA would expand collective 
bargaining, adopt better workplace standards and practices, and 
increase pay for TSA's screening workforce. Secretary Mayorkas, TSA 
Administrator David Pekoske, and everyone involved in this important 
decision deserve the recognition for making this important change. 
Knowing Secretary Mayorkas and Administrator Pekoske, I am confident we 
are seeing the first steps to turning around employee morale at TSA and 
DHS. It will be important to work to ensure that DHS gets the necessary 
funding and support to fully implement the plans that Secretary 
Mayorkas has directed TSA to prepare.
IV. Address DHS's Management Challenges
    Let me turn briefly to the other management recommendations in our 
report. While discussions of DHS's missions tend to get the most 
attention, DHS needs to make significant changes to how it manages 
itself if it wants to succeed at those missions. These changes need 
more attention from the Congress and the American people.
    First, DHS headquarters needs to be strengthened. This is a point 
on which all the studies of DHS agree. Right now, component personnel 
think headquarters does not understand component operational 
practicalities. Headquarters personnel think components do not see the 
big picture or appreciate that external factors sometimes require 
changes in what components do, and sometimes how they do them. In fact, 
there is truth in both viewpoints.
    DHS needs to better coordinate policy and resources. The incoming 
Under Secretary for Strategy, Policy, and Plans Rob Silvers understands 
this. There also need to be major changes in how DHS budgets for 
tomorrow's threats.
    DHS headquarters needs the right kind of oversight over the law 
enforcement missions of the Department. The Atlantic Council developed 
the recommendation of an associate secretary, based on the associate 
attorney general who oversees significant parts of the Department of 
Justice. I am very pleased to see this recommendation included in the 
DHS Reform Act of 2021. Headquarters should not be in the business of 
micromanaging DHS's law enforcement components. But neither should 
headquarters be in the dark. One of the FBI's great strengths is the 
ability to shift priorities--as they did after 9/11, or after Russian, 
Chinese, and Iranian operatives started to interfere with American 
democracy in the 2016 election. There are times when the Nation needs 
DHS's law enforcement agencies to be able to change direction to 
address new challenges. An associate secretary should be able to lead 
these efforts.
    In addition, DHS needs to more substantively integrate civil 
rights, civil liberties, and privacy protections into all that it does, 
but especially into its law enforcement missions. This is a point on 
which all 3 of the major studies of DHS agree. The idea that DHS would 
deploy to Portland, Oregon, elite forces designed to operate in rugged 
terrain against heavily armed drug dealers and terrorists--against the 
wishes of the Governor and mayor involved--violates the principles of 
trust that are essential for DHS to succeed. The provisions of the DHS 
Reform Act of 2021 should help here.
    DHS also needs to learn from the experience of the Department of 
Defense, embodied in the 1986 Goldwater-Nichols Act, and allow more 
rotational details of personnel between headquarters and components. 
I'm pleased to see the DHS Reform Act of 2021 include a number of 
provisions that will allow these kinds of personnel details to take 
place.
    These provisions don't get the headlines, but they are invaluable 
to building a Department of Homeland Security that deserves the trust 
of the American people, and is able to defend the Nation from non-
military threats.
V. Strengthen and Consolidate Congressional Oversight of DHS
    Finally, I want to note the importance of strengthening the 
Congressional oversight of DHS. Ideally, DHS should have a single major 
authorizing committee, just as the Department of Defense does. 
Consolidating Congressional oversight over DHS is the last remaining, 
unfulfilled recommendation of the 9/11 Commission. Your efforts, Mr. 
Chairman, and the efforts of others on this committee, have achieved 
much progress for this idea in the past year. These efforts need to 
continue, and I look forward to working with you and the other Members 
of the committee to strengthen the Department of Homeland Security and 
make it better able to protect the Nation from non-military threats.
    I would be happy to answer any questions the committee may have.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    

    Chairman Thompson. Thank you very much.
    The Chair recognizes Ms. Mulligan to summarize her 
statement for 5 minutes.

STATEMENT OF KATRINA MULLIGAN, ACTING VICE PRESIDENT, NATIONAL 
SECURITY AND INTERNATIONAL POLICY, CENTER FOR AMERICAN PROGRESS

    Ms. Mulligan. Thank you.
    Chairman Thompson, Ranking Member Katko, and distinguished 
Members of the House Committee on Homeland Security, I too 
appreciate the opportunity to testify before you today.
    Over the past year I have led a study on DHS focused 
primarily on reexamining first order questions. What does 
America need from a Department of Homeland Security today and 
how has that changed in the last 20 years?
    But rather than tell you about our conclusions, I'd like to 
take 3 quick minutes to show you. So you can start the video 
now.
    [Video playing.]*
---------------------------------------------------------------------------
    * The video is available at this link: https://youtu.be/
8T84J0ytiro.
---------------------------------------------------------------------------
    Ms. Mulligan. Thank you.
    So before I close I want to emphasize two things. First, 
DHS has the potential to meet today's moment. Second, though 
the panel today reflects a diversity of viewpoints we agree on 
several areas for reform. I would encourage this committee to 
focus closely on areas where we are speaking in unison. To 
highlight just a few, we agree that DHS is critical to ensuring 
the security and prosperity of Americans and should be reformed 
rather than dismantled. We agree that DHS needs to take a 
broader view of what it means to keep the Nation secure. We 
agree that DHS should have a larger role in communicating with 
States, the private sector, and the public, and that DHS needs 
an elevated role for protecting the privacy and civil liberties 
of Americans. We agree that more oversight and restraint is 
needed for DHS's operational and law enforcement functions.
    Thank you for the opportunity to testify today and I look 
forward to hearing your questions.
    [The prepared statement of Ms. Mulligan follows:]
                 Prepared Statement of Katrina Mulligan
                             July 15, 2021
    Chairman Thompson, Ranking Member Katko, and distinguished Members 
of the House Committee on Homeland Security, thank you for the 
opportunity to testify before you today. I commend this committee for 
seeking to address long-standing challenges facing the Department of 
Homeland Security (DHS). I also want to thank my fellow panelists for 
their scholarship on DHS reform, which I turn to often to inform my own 
thinking.
    I offer three general observations:
    1. DHS has become seriously out of balance with America's needs.
    2. A reimagined DHS should recalibrate its priorities, moving 
        toward a ``safety and services'' approach.
    3. Though the panel today reflects a diversity of viewpoints, we 
        agree on several areas for reform that this committee is well-
        positioned to undertake.
    First, DHS has become seriously out of balance with America's 
needs. Established in late 2002, the Department of Homeland Security 
was largely defined by the 
9/11 terrorist attacks, and the response to those tragic events 
continues to shape the priorities and mission of the Department today. 
Since its founding, there has been persistent confusion about DHS's 
role as well as complaints about its structure, operations, and 
oversight. Observers across the political spectrum have argued that, in 
the rush to stand up a new Department, disparate components of the 
Federal bureaucracy were shoehorned into DHS, with mixed results. As 
Members of this committee know, since its founding, DHS's budget has 
more than doubled in size, from roughly $30 billion in fiscal year 2004 
to more than $64 billion in fiscal year 2018--not counting disaster 
relief funds, which vary depending on emergencies that happen each 
year.\1\ Today, DHS is the largest Federal law enforcement agency in 
the Government, with more than 240,000 employees--more than twice the 
size of the U.S. Department of Justice (DOJ).\2\
---------------------------------------------------------------------------
    \1\ Congressional Research Service, ``Trends in the Timing and Size 
of DHS Appropriations: In Brief'' (Washington: 2019), available at 
https://fas.org/sgp/crs/homesec/R44604.pdf; U.S. Department of Homeland 
Security, ``FY 2021 Budget in Brief'' (Washington: 2021), available at 
https://www.dhs.gov/sites/default/files/publications/
fy_2021_dhs_bib_0.pdf.
    \2\ U.S. Department of Homeland Security, ``About DHS,'' available 
at https://www.dhs.gov/about-dhs; Bureau of Human Resources, ``Facts 
about Our Most Valuable Asset--Our People'' (Washington: U.S. 
Department of State, 2019), available at https://www.state.gov/wp-
content/uploads/2019/05/HR_Factsheet0319.pdf; U.S. Equal Employment 
Opportunity Commission, ``Department of Justice (DOJ),'' available at 
https://www.eeoc.gov/federal-sector/department-justice-doj-0.
---------------------------------------------------------------------------
    DHS claims a role in most National security issues--and a number of 
issues that fall outside of National security--but there are few areas 
where DHS leads the Government's response and even fewer where it does 
so well and without controversy. The Department's founding mission to 
prevent another 9/11-style attack continues to influence its outsize 
focus on counterterrorism--despite the fact that DHS's ability to 
prevent terrorism is limited, and entities such as the FBI and National 
Counterterrorism Center (NCTC) are often in the lead statutorily. The 
dominating focus on counterterrorism comes at the expense of other 
activities that DHS is uniquely positioned to execute among Federal 
agencies such as providing efficient, safe, and respectful immigration 
services; facilitating international trade and travel; serving as the 
Nation's risk adviser for critical infrastructure; and proactively 
responding to disasters that do not fall within the missions of other 
parts of the Federal bureaucracy.
    To remedy this imbalance, DHS should take a broader view of what it 
means to keep the Nation ``secure'' and adapt its mission, priorities, 
and activities accordingly. In doing so, DHS should address the 
following unmet needs, which largely fall between the gaps in today's 
Federal bureaucracy.
    A leading Federal emergency response system. The United States 
        needs a proactive emergency preparedness and resilience 
        capacity and a flexible and capable response system that can 
        respond to a wide range of emergencies quickly and efficiently. 
        DHS should serve as the lead coordinator of U.S. Government 
        emergency preparedness and response efforts on the wide range 
        of emergencies that affect the country.
    A better way of communicating threat information to and from the 
        public and private sectors. In a world where the public and 
        private sectors must take independent action to ensure 
        America's safety and security, the Government needs a trusted, 
        effective mechanism to communicate threat information with the 
        public and private sectors and between different levels of 
        State, local, and Federal Government officials. DHS already 
        plays an important role but should be designated the Federal 
        Government's lead for sharing information, advocating for 
        greater Government transparency, and for developing new 
        communications capacities that add value to the American 
        people.
    A fair, workable, and humane approach to border management. Factors 
        such as devastating hurricanes and droughts due to climate 
        change, political unrest, and gang violence, especially in 
        Central American countries, have translated to a high number of 
        migrants, including large numbers of families and unaccompanied 
        children, seeking asylum in the United States. DHS should shift 
        toward a more service-driven approach that treats immigration 
        as an asset to be managed rather than a crime to be enforced.
    A truly integrated cyber and critical infrastructure capacity. 
        Cyber attacks on critical infrastructure are increasingly 
        common and could grind the U.S. economy and daily life to a 
        halt. There is a clear need to build on the success of DHS's 
        Cyber and Infrastructure Security Agency (CISA) by expanding 
        the indicators and mechanisms for sharing cyber threat 
        information and more proactively sharing cyber threat 
        intelligence between businesses and Government agencies.
    An effective response to domestic violent extremism. Threats from 
        domestic violent extremism are rapidly growing in the United 
        States and endanger our way of life, our values, and our 
        democracy. While law enforcement responses to domestic violent 
        extremism primarily fall within the FBI's authority, DHS should 
        be charged with taking the lead in countering disinformation, 
        coordinating Federal grant-making programs to promote 
        resilience, and providing support for risk-based prevention 
        responses.
     core mission focused on protecting civil liberties and privacy. 
        DHS regularly interacts with--and collects information on--
        Americans and U.S. persons in the routine course of its duties. 
        DHS has a responsibility to safeguard the information it 
        acquires but it could also play an important role in 
        safeguarding the security of personal or private information 
        from malicious cyber actors and foreign governments. 
        Establishing the protection of civil liberties and privacy as a 
        core DHS mission would fill a critical gap in Executive branch 
        roles that is not currently being comprehensively addressed by 
        other departments and agencies.
    DHS has the potential to meet today's moment. There is no other 
department with DHS's range of flexible authorities and unique capacity 
to respond to these issues and others that fall between the gaps of 
responsibilities of other Federal departments and agencies. There is no 
other department better suited to coordinate effective Federal 
emergency response; communicate threat information between the public 
and private sectors; provide a working, humane approach to border 
management; facilitate an integrated cybersecurity and infrastructure 
capacity; and implement effective approaches to counter the threats 
from domestic extremism fueled by white supremacy and the rise of anti-
Government militias. And there is no other department with the mandate 
and track record of playing a bridging role between State, local, 
Tribal, and territorial officials and the Federal Government. This 
committee can ensure DHS is oriented to fill these critical gaps 
through its oversight functions.
    Second, as my colleagues and I have called for in a recent study by 
the Center for American Progress (CAP),\3\ a reimagined DHS should 
recalibrate its priorities, moving away from a threat-oriented model 
and toward a ``safety and services'' approach. While the Department 
must continue its efforts to protect, secure, prevent, and enforce, 
these activities should be brought into balance with DHS's other 
missions. DHS should organize--and articulate its mission--around 5 new 
core values:
---------------------------------------------------------------------------
    \3\ Mara Rudman, Rudy deLeon, Joel Martinez, Elisa Massimino, Silva 
Mathema, Katrina Mulligan, Alexandra Schmitt, and Philip E. Wolgin, 
``Redefining Homeland Security: A New Framework for DHS To Meet Today's 
Challenges,'' (Washington: Center for American Progress, 2021), 
available at https://www.americanprogress.org/issues/security/reports/
2021/06/16/500642/redefining-homeland-security-new-framework-dhs-meet-
todays-challenges/.
---------------------------------------------------------------------------
  <bullet> Connecting.--DHS should prioritize service and partnerships 
        and invest in efforts to connect State, local, Tribal, and 
        territorial officials with Federal resources and officials.
  <bullet> Communicating.--DHS should manage information sharing and 
        public disclosures of intelligence between Federal entities and 
        their local counterparts through a leading role that would be a 
        valuable public service.
  <bullet> Facilitating.--DHS should continue to facilitate lawful 
        international trade and travel, ensure that U.S. transportation 
        services are safe, and maintain U.S. waterways and maritime 
        resources.
  <bullet> Welcoming.--DHS should provide efficient and respectful 
        service to aspiring citizens and other immigrants and emphasize 
        its unique role in welcoming the people who immigrate to, 
        visit, or seek refuge in the United States.
  <bullet> Helping.--DHS should expand its existing capacity on 
        disaster relief and emergency management and invest in new, 
        flexible headquarters and regional capabilities that can 
        address a wide range of emergencies and situations.
    DHS should dial down its strategic focus in the following areas, 
bringing them into balance with its other priorities:
  <bullet> Protecting.--DHS should coordinate cybersecurity and 
        critical infrastructure to bridge the gap between public and 
        privately-owned infrastructure and ensure that Federal 
        protection efforts can effectively extend to all sectors across 
        the country.
  <bullet> Securing.--DHS should maintain its core objective of 
        securely, efficiently, and humanely managing our air, land, and 
        maritime borders.
  <bullet> Preventing.--DHS should focus on the increasing prevalence 
        of domestic challenges and borderless threats while maintaining 
        its important role in preventing attacks against the United 
        States at home and abroad.
  <bullet> Enforcing.--DHS should conduct a recalibration of its 
        enforcement activities within broader department goals of 
        safety and service and move law enforcement activities that are 
        not aligned to this mission to other areas of the Federal 
        Government that are better suited to these functions.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Fig. 1: DHS should move away from a threat-oriented model which is 
principally concerned with protecting, securing, preventing, and 
enforcing, and toward a ``safety and services'' model that brings those 
activities into balance with 5 new core values: Connecting, 
communicating, facilitating, welcoming, and helping.

    Third, though the panel today reflects a diversity of viewpoints, 
we agree on several areas for reform. We represent 3 distinguished 
institutions and bring different perspectives to our analysis of DHS 
reform. We offer divergent visions for what the future of DHS could 
look like. It is therefore significant and worthy of the committee's 
attention that despite these differences we agree on several areas for 
reform.
  <bullet> We agree that DHS is critical to ensuring the security and 
        prosperity of Americans and should be reformed rather than 
        dismantled.
  <bullet> We agree that DHS needs to be more focused on today's most 
        serious threats, including pandemics, critical infrastructure, 
        the effects of climate change, cybersecurity, and foreign 
        interference.
  <bullet> We agree that DHS should have a lead role in communicating 
        with State, local, Tribal, and territorial governments and with 
        the private sector.
  <bullet> We agree that DHS needs an elevated role for privacy, civil 
        rights, and civil liberties and we support this committee's 
        efforts to strengthen civil rights and civil liberties 
        protections in DHS policies, programs, and activities.
  <bullet> We agree that DHS has a unique responsibility to foster 
        trust among the American people and those who seek safety or 
        opportunity here.
  <bullet> Though our policy solutions differ, we agree that more 
        oversight--and restraint--is needed for DHS's operational and 
        law enforcement functions.
  <bullet> Though we differ on the details, we agree that DHS 
        headquarters needs to be strengthened--and increase in size--if 
        it is to effectively oversee the Department's activities.
  <bullet> Finally, we strongly agree that Congress should improve 
        oversight over DHS activities, ideally through concentrating 
        oversight responsibilities with the designated homeland 
        security committees, to the extent possible.
                               conclusion
    DHS has the potential to meet today's moment, and is uniquely 
positioned among other Federal agencies to address unmet needs and 
pressing challenges the United States faces right now and in the years 
ahead. As then-nominee Alejandro Mayorkas argued in his confirmation 
hearing, DHS is and should be ``fundamentally, a Department of 
partnerships.''\4\ He is right. Going forward, DHS should prioritize 
service and partnerships, connecting people in the United States to 
Federal services that reflect American values and are essential to 
America's shared prosperity. The Department's threat-oriented roles 
will, of course, remain, but this new framework will help DHS realign 
its focus and priorities on those areas where it can be maximally 
effective and provide value to the American people and those who live, 
study, work, travel, and seek safety here.
---------------------------------------------------------------------------
    \4\ CNN, ``Excerpts from Biden's DHS pick Alejandro Mayorkas' 
opening statement,'' January 19, 2021, available at https://
www.cnn.com/2021/01/19/politics/mayorkas-opening-statement-excerpts/
index.html.
---------------------------------------------------------------------------
    Thank you for the opportunity to testify before this committee and 
I look forward to your questions.

    Chairman Thompson. Thank you very much.
    I now ask Mr. Cilluffo to summarize his statement for 5 
minutes.

 STATEMENT OF FRANK J. CILLUFFO, DIRECTOR, MC CRARY INSTITUTE 
    FOR CYBER AND CRITICAL INFRASTRUCTURE SECURITY, AUBURN 
                           UNIVERSITY

    Mr. Cilluffo [continuing]. Ranking Member Katko and 
distinguished committee Members. I too would like to thank you 
for the opportunity to testify before you today.
    As my colleagues have said, the array of threats to this 
country has evolved substantially over time and therefore so 
too must our National architecture for countering these 
threats. I commend the committee for your proactive approach to 
tackle some of these important reforms.
    Allow me to begin with a little bit of history and context. 
Unfortunately, nothing as fancy as my colleagues before me with 
the cool videos and the like, but DHS was established, I think 
as we have all now made clear, directly in response to the 
horrific terrorist attacks of 9/11. We went through at that 
time the largest reorganization of the Federal Government since 
the National Security Act of 1947 and preventing, preparing 
for, and responding to terrorism was the driving force behind 
the Department.
    At the same time, however, DHS had and continues to have a 
wide set of important missions. The most prevalent and most 
pressing threat today is cyber. The system is blinking red and 
this is the area where we must work the hardest and double down 
our efforts, not at the expense of other missions and threats, 
but in addition to them.
    Consider the events of the past 6 months alone in which we 
have seen a rash of incidents from SolarWinds and the Microsoft 
exchange hacks targeting the IT supply chain, to the Kaseya 
ransomware incident only a few days ago, and a spate of other 
significant ransomware attacks that preceded it, including U.S. 
pipelines and the food supply. Ransomware attacks are hitting 
epidemic proportions, targeting entities from schools to 
businesses. No one and nothing is off limits.
    I was pleased to see this morning the Government's new 
ransomware campaign, since it is really important for the 
Government to speak with one voice and bring everything 
together. DHS must be well-structured and well-funded to meet 
the cyber mission. Continuity of leadership is a vital first 
step. Meaningful maturation of the Department requires the post 
in these senior echelons be filled. I think Jen Easterly's 
confirmation earlier this week was an important first step. 
Next we ought to consider codifying the CISA director to a 5-
year term, elevating the role to ensure continuity across the 
organization.
    Fortunately, Congress and DHS have undertaken some 
significant actions in response to the increase in cyber 
attacks. Codifying the Cyber State of Distress and the Cyber 
Response and Recovery Fund will ensure adequate preparation and 
funding the ability to surge critical resources and coordinate 
asset response.
    DHS must continue to support their principal partners, 
State, local, Tribal, territorial governments, and the private 
sector. With cyber, as with the broader homeland security 
enterprise, we can't forget it is ultimately about finding 
meaningful ways to enhance and enable those on the front lines. 
Reaching this far requires people, a skilled and deep bench to 
meet the mission, building and sustaining a cyber work force so 
that caliber and size needed by the Department and beyond is 
truly an urgent priority.
    The most effective way to get there is to proceed in a 
multi-pronged approach, including in career training, 
recruitment, retention efforts, plus K-12 and post-secondary 
initiatives. A special emphasis in my eyes ought to be accorded 
to upscaling veterans and recruiting a more diverse 
cybersecurity work force.
    To fulfill its potential as an inter-agency partner, CISA 
must mature and be strengthened. To this end, the agency's 
National Risk Management Center should be codified. I am happy 
to get into some of that during Q&A.
    Moreover, our current approach to .gov security is too 
scattershot. CISA can and should play a more central role here. 
The 2021 National Defense Authorization Act empowered CISA to 
hunt for cyber threats on U.S. Government networks. This is a 
good start, but more robust defense requires substantially more 
visibility than presently exists.
    Perhaps the area where we can have the greatest impact in 
the near term is to finally translate the nouns into the verbs 
when we talk about public-private partnerships. This is atop 
the list of priorities for us on the Cyber Solarium Commission 
this year, and I see Congressman Langevin has joined, so a real 
driver with us on the Commission. I think the newly-created 
Joint Cyber Planning Office, the JCPO, within CISA is a 
positive development and should be stood up ASAP and serve as 
the center of gravity for public-private coordination of 
defensive cyber-based activities, priorities set by the new 
National cyber director.
    The Commission has also recommended that a joint 
collaborative environment, with CISA at its center, be 
established by law for the purpose of sharing cyber threat data 
among Federal entities and between the U.S. Government and 
private sector. Both National and economic security urgently 
demand greater visibility across the entirety of our supply 
chains. I am happy to get into that at greater length during 
Q&A as well.
    Just, finally, SICI. So the Commission proposed that the 
most critical of our critical infrastructure, meaning 
systemically important critical infrastructure, be subject to 
enumerated benefits and burdens. The idea here is to impose 
cyber incident reporting requirements at SICI companies in 
return for some liability protection and direct intelligence 
support from the U.S. intelligence community.
    Happy to see a rash of good activity on the Hill and bills 
around data breach notification and incident reporting. I'd 
like to commend Ranking Member Katko for his five pillars. I 
think this will get us a long way to where we need to be.
    In closing, the Department must be calibrated to adapt to 
the cyber imperative, which will continue to evolve. CISA needs 
to be provided with the requisite authorities, accountability, 
and resources to get the job done, especially in relation to 
our most critical infrastructure.
    Mr. Chairman, it is always a privilege to speak to this 
committee and I look forward to any questions and trying to 
answer them. So, thank you.
    [The prepared statement of Mr. Cilluffo follows:]
                Prepared Statement of Frank J. Cilluffo
                             July 15, 2021
                              introduction
    Chairman Thompson, Ranking Member Katko, and distinguished 
committee Members, thank you for the opportunity to testify before you 
today. The array of threats to this country has evolved substantially 
over time and therefore so too must our National architecture for 
countering these threats. Your proactive approach to taking on this 
challenge by examining the Department of Homeland Security (DHS) in 
particular, is commendable and I hope to help you move the ball forward 
in this statement and in my verbal remarks at this hearing.
             evolution of the department's threat landscape
    Allow me to begin with a bit of history and context. DHS was 
established in 2002 in direct response to the horrific attacks of 9/11. 
At the time, the principal threat to the country was from terrorists, 
specifically al-Qaeda and like-minded (self-styled) ``jihadists''. 
Counterterrorism was thus the animating purpose of the Department. At 
the same time however, DHS had, and continues to have, a wide set of 
missions including transportation security, border security, emergency 
management and response to man-made and National disasters, protecting 
U.S. economic security, and strengthening preparedness and resilience--
to name a few.
    Today, all these missions and threats persist; and DHS continues to 
be instrumental inpreparing for and responding to them. Having said 
that, the most prevalent and most pressing threat now is cyber. The 
ecosystem has evolved such that in 2021, cyber is the system's blinking 
red light, the most imminent threat facing the country. Accordingly, 
cyber is the area where we must now double down and work the hardest to 
enhance our capabilities--not at the expense of other missions and 
threats, but in addition to them.
    The case for focusing on the cyber mission and ensuring that DHS is 
both well-structured and well-funded to meet it, is so strong that it 
practically makes itself. Consider the events of just the past 6 
months, in which we have seen a rash of incidents from the SolarWinds 
and Microsoft Exchange hacks targeting the IT supply chain, to the 
Kaseya ransomware incident (only days ago) and a spate of other 
significant ransomware attacks that preceded it--many directed against 
critical National infrastructure and functions, including U.S. 
pipelines and the food supply. While not necessarily the most 
significant cyber threat, ransomware is perhaps the most prevalent. It 
is hitting epidemic proportions, targeting entities from schools to 
businesses; no one and nothing is off-limits.
    The breadth of entities affected by cyber incidents has been 
striking, as has the severity of the actual consequences, which 
continue to be uncovered week by week. Perhaps most disturbingly, these 
incidents have targeted and undermined the very trust upon which the 
entire system is founded. For all these reasons, current circumstances 
demand that DHS be postured robustly to reflect and respond to the 
reality that the cyber threat is nothing short of front and central 
today.
            maturing the department to meet today's threats
    Leadership.--In concrete terms, this means starting at the top, 
literally. Meaningful maturation of the Department requires the posts 
in its senior echelons (cyber and Department-wide) to be filled, and to 
be occupied in a manner that supports the principle of continuity of 
leadership. This crucial measure is in Chairman Thompson's recently 
reintroduced DHS Reform Bill.\1\ In particular, the director of the 
Cybersecurity and Infrastructure Security Agency (CISA) should be 
emphasized requisite with its importance. As the Cyberspace Solarium 
Commission (on which I serve as a commissioner) recommended, codifying 
a 5-year term for the director of the agency and elevating the role 
would ensure continuity across the organization and attract the best 
the Nation has to offer.
---------------------------------------------------------------------------
    \1\ ``Department of Homeland Security Reform Act of 2021'' https://
homeland.house.gov/imo/media/doc/DHS%20Reform%20Act%20of%202021.pdf 
recruitment and retention efforts, plus K through 12 and postsecondary 
initiatives. Special emphasis should be accorded to upskilling veterans 
and recruiting a more diverse workforce.
---------------------------------------------------------------------------
    To be clear, many of those who took on key roles in an acting 
capacity performed a true public service for the Nation at a critical 
juncture in time. But to rely on these individuals over-much and over-
long is not fair, either to them or to DHS.
    Congress and this committee.--Congress and this committee also have 
an important role to play in moving the Department forward. 
Specifically, there is a deep need for this body to reauthorize DHS and 
be afforded the requisite authorities to oversee the Department. 
Fulsome oversight is of course a crucial Congressional responsibility; 
but it is not an either/or proposition, meaning that Congress must 
authorize DHS in addition to oversee it. Unless we press ahead on both 
fronts, the Department will not be able to reform itself to properly 
meet today's threats.
    Partners.--Though DHS is our focal point, we must look outward as 
well as inward to understand and appreciate all that needs doing to 
propel us from where we are, to where we need to be. To achieve our 
cyber aims and ends, DHS must be able to support its full panoply of 
principal partners: State, local, Tribal, and Territorial (SLTT) 
governments, and the private sector. This means two-way flow of 
information, shared timely and in a manner that facilitates action 
(i.e., next steps) on both sides. With cyber as with the broader 
homeland security enterprise, we need to find ways to enhance and 
enable the front lines.
    Workforce.--Reaching this bar requires more than technology. It 
also requires people--a skilled and sufficiently deep bench to meet the 
mission. Building and sustaining a cyber work force of the caliber and 
size needed by the Department (and beyond) is a truly urgent priority. 
The most effective way to get there is to proceed in a multi-track way 
that encompasses both shorter- and longer-term measures, including in-
career training, recruitment, and retention efforts, plus K through 12 
and post-secondary initiatives. Special emphasis should be accorded to 
upskilling veterans and recruiting a more diverse workforce.
    Interagency.--Precisely because the cyber threat is so pervasive 
and complex, tackling it requires a whole-of-Nation approach. In turn, 
providing the private sector and other levels of government with the 
support they need from Federal entities must be a team effort. In this 
regard, DHS and specifically CISA \2\ should work hand-in-glove with 
NSA's Cybersecurity Division and FBI as a triad, that is powered by the 
unique capabilities andauthorities that each element brings to bear. 
Together with the National Cyber Director (NCD), a new position, 
synergy and strategy should take on new salience, as everyone will 
finally be working off the same sheet of music.
---------------------------------------------------------------------------
    \2\ CISA was established by the Cybersecurity and Infrastructure 
Security Agency Act of 2018, sponsored by Representative Michael 
McCaul.
---------------------------------------------------------------------------
    Response.--There have been a number of great developments and 
actions taken by Congress as of late to respond to the increase of 
cyber attacks, including codifying the Cyber State of Distress and the 
Cyber Response and Recovery Fund. In the event of a significant cyber 
incident, the Government needs a mechanism to surge critical resources 
to facilitate response, mitigation, and recovery. The Solarium 
Commission therefore recommended the ability for the President or 
designated Federal official to declare a cyber state of distress. Such 
declaration would strengthen the Secretary of Homeland Security's 
ability to ensure adequate preparation and coordinate asset response.
    Coupled with the declaration authority, it is vital for the 
Government to have available recovery funds. The cyber response and 
recovery fund, another Solarium Commission recommendation, will be used 
to augment U.S. Government response teams and their ability to assist 
SLTT governments and the private sector in responding to and recovering 
from an attack. In addition, the recommendations in Ranking Member 
Katko's Five Pillar Plan will add to the success.\3\
---------------------------------------------------------------------------
    \3\ ``Ranking Member John Katko SolarWinds Campaign Response Five 
Pillar Plan'' https://republicans-homeland.house.gov/wp-content/
uploads/2021/02/Katkos-5-Pillars.pdf.
---------------------------------------------------------------------------
    National Risk Management.--To fulfill its potential as an 
interagency partner and beyond, CISA must mature and be strengthened. 
To this end, the Agency's National Risk Management Center (NRMC) should 
be codified. Elevating the NRMC in this way would help underscore and 
advance the difficult and exceptionally important work that the Center 
does. One example, which deserves far more attention than it has 
received, is the NRMC effort to identify National critical functions.
    The NRMC's work on National critical functions provides a strategic 
foundation for prioritizing critical infrastructure and related risk 
management measures, thereby delineating a targeted path to enhancing 
the country's resilience. That ability to bounce forward after an 
incident diminishes the returns that an adversary can expect to reap 
from an attack on U.S. entities or interests and serves as a 
disincentive to attack in the first place. The NRMC should therefore 
continue and amp up its efforts to build out our understanding of 
National critical functions, to better position the United States to 
(simultaneously) remain resilient and deter foes.
    A specific application of this recommendation relates to the 
intersection of two domains: Cyber and space. Increasingly, space is 
fundamental to continuity of a host of other critical National 
operations and functions, such as positioning, navigation, and timing 
(PNT). As cyber threats pose an ever-increasing risk to U.S. space 
assets, the NRMC should redouble its focus on expanding and deepening 
its understanding of National critical functions in this area.
    However, the work of the NRMC and the Department on National cyber 
risk reduction cannot and should not stop with identification. The 
Department should be vested with a consistent, multi-year fund to 
enable it to drive strategic investment aimed at reducing and 
mitigating risk to critical infrastructure and enhancing the Nation's 
resiliency.
    Planning.--Industry and Government must work together to plan and 
prepare for the cyber threats our Nation is facing. As recommended by 
the Solarium Commission, the newly-created Joint Cyber Planning Office 
(JCPO) within CISA should be stood up swiftly and serve as the center 
of gravity for public-private coordination of defensive cyber 
activities based on the priorities set by the National Cyber 
Director.\4\ Cross-sector collaboration is key to the success of JCPO 
and to creating comprehensive plans to respond to and recover from 
future incidents.
---------------------------------------------------------------------------
    \4\ ``Gas pipeline hack reveals cyber vulnerabilities. But Biden 
infrastructure plan doesn't fix them.'' https://www.nbcnews.com/think/
opinion/gas-pipeline-hack-reveals-cyber-vulnerabilities-biden-
infrastructure-plan-doesn-ncna1267021.
---------------------------------------------------------------------------
    Preparation Grants.--Local government partners require improved 
defensive capabilities to protect themselves against emerging and ever 
more frequent cyber threats and attacks. The DHS Homeland Security 
Advisory Council (HSAC) SLTT Cybersecurity Subcommittee, which I co-
chaired, recommended the creation of a dedicated grant program to 
improve local Government cybersecurity and create bulk purchasing 
vehicles for vital cyber necessities.\5\ The use of grants will enable 
SLTT partners to improve their preparation and capabilities 
substantially.
---------------------------------------------------------------------------
    \5\ ``Homeland Security Advisory Council Final Report of the State, 
Local, Tribal, and Territorial Cybersecurity Subcommittee'' https://
www.dhs.gov/sites/default/files/publications/
2._sltt_final_report_0.pdf.
---------------------------------------------------------------------------
    Deterrence.--While resilience supports deterrence, it does not 
eliminate the need for a broader U.S. strategy to deter our adversaries 
by imposing real costs and consequences upon them. For too long, China 
and Russia (for example, but they are not alone) have been allowed to 
engage in cyber behavior that has damaged U.S. National and economic 
security, without corresponding effects being visited upon the 
perpetrators.
    Until we use all instruments of state-craft to influence the 
decision calculus of our adversaries, bad behavior will go unchanged. 
This means getting serious about even the more passive forms of hostile 
behavior, such as nation-states (like China and Russia) stymieing the 
long arm of the law by affording safe haven to cyber criminals 
committing ransomware attacks that affect critical infrastructure in 
this country and others. It is surely no accident, for instance, that 
the enormous Kaseya ransomware/supply chain attack was powered by 
malware designed to avoid Russian-language systems.\6\
---------------------------------------------------------------------------
    \6\ ``Code in huge ransomware attack written to avoid computers 
that use Russian, says new report'' https://www.nbcnews.com/politics/
national-security/code-huge-ransomware-attack-written-avoid-computers-
use-russian-says-n1273222.
---------------------------------------------------------------------------
    Unified Security.--Stepping up our offense must also be 
complemented by a more comprehensive and coherent defense. Our current 
approach to .gov security is too scattershot. CISA can and should 
occupy a more central role here. The fiscal year 2021 National Defense 
Authorization Act empowered CISA to hunt for cyber threats on U.S. 
Government networks. This is a good start; but more robust defense 
requires substantially more visibility than presently exists.
    Amplified visibility, which feeds our understanding of threat and 
underlies both response and resilience, requires genuine partnerships 
within and outside Government. The imperative to turn the nouns about 
public-private partnership into verbs has never been clearer. Both 
National and economic security urgently demand greater visibility 
across the entirety of our supply chains, as underscored in a recent 
report of the HSAC Economic Security Subcommittee which I chaired.\7\ 
Yet, as things now stand, cyber incident reporting is not mandatory and 
barriers to information sharing persist. This situation gives rise to 
dangerous blind spots.
---------------------------------------------------------------------------
    \7\ ``Homeland Security Advisory Council Final Report: Economic 
Security Subcommittee'' https://www.dhs.gov/sites/default/files/
publications/final_economic_security_subcommit- tee_report_1.pdf.
---------------------------------------------------------------------------
    Information Sharing.--Against this concerning background, the 
Cyberspace Solarium Commission has recommended that a joint 
collaborative environment be established by law, for the purpose of 
sharing cyber threat data among Federal entities and between the U.S. 
Government and the private sector. The proposal further envisions CISA 
at its center, as manager of the programs supporting the JCE.
    In addition, the Solarium Commission proposes that the most 
critical of the critical--meaning systemically important critical 
infrastructure (SICI)--be codified and subject to enumerated benefits 
and burdens, in service to the U.S. National interest. The idea is to 
impose a cyber incident reporting requirement on SICI companies in 
return for liability protection for such incidents and direct 
intelligence support from the U.S. intelligence community.
    More consistency in incident reporting is needed. Without 
situational awareness, Government cannot properly support and defend 
the Nation. Earlier reporting will allow the Government to provide more 
tools and capabilities in this regard. Fortunately, Congress is now 
moving in this direction with multiple bills on data breach 
notification and incident reporting, including Ranking Member Katko's 
leadership to identify and secure SICI, with CISA playing a lead role 
in the designation process.
    Industrial Control Systems.--The industrial control systems (ICS) 
that power critical infrastructure merit special consideration. 
Identifying and remedying vulnerabilities in ICS is crucial, in part 
because ICS represent the interface where information technology and 
operational technology intersect. Put differently, this is where cyber 
domain and the physical world coincide. In this context, a breach on 
the IT side can cause catastrophic effects in the real world.
    The hybrid threat here demands that our ICS be shored up carefully. 
A bipartisan bill sponsored by Ranking Member Katko and co-sponsored by 
Chairman Thompson and other committee Members,\8\ H.R. 1883,\9\ 
intended to do just that. The proposed legislation would enhance U.S. 
capabilities in this area and entrench in law CISA taking point on that 
task, including by providing free tools and services to critical 
infrastructure stakeholders.
---------------------------------------------------------------------------
    \8\ Rep. Cammack, Rep. Clarke, Rep. Garbarino, Rep. Gimenez, Rep. 
Langevin, and Rep. Pfluger.
    \9\ ``DHS Industrial Control Systems Capabilities Enhancement Act 
of 2021'' https://www.congress.gov/bill/117th-congress/house-bill/1833/
text?r=11&s=4.
---------------------------------------------------------------------------
                               conclusion
    The threat landscape will continue to evolve as cyber domain brings 
new challenges and opportunities for America and its adversaries alike. 
Placing the country on a more solid footing to confront these pressing 
threats is a must, especially in relation to our most critical 
infrastructure. Today's hearing is a significant step in that 
direction.
    Moving ahead, the Department must be calibrated to adapt to this 
cyber imperative while also retaining and advancing the ability to 
counter the wide range of other threats and to fulfill the many 
missions for which DHS was established.
    Thank you for the opportunity to testify before you today.\10\ I 
look forward to trying to answer any questions that you may have.
---------------------------------------------------------------------------
    \10\ Thank you also to Sharon Cardash and Matthew Edwards for their 
skillful assistance in preparing this testimony.

    Chairman Thompson. Thank you very much.
    I thank the witnesses for their testimony.
    I will remind each Member that he or she will have 5 
minutes to question the witnesses.
    I will now recognize myself for such questions.
    You know, one of the problems we have long-standing with 
DHS is the morale of the work force. All of you have done 
studies on it. Can you suggest to the committee anything you 
think we might do to get morale off the bottom? A lot of us are 
concerned about that. The missions are important, but if your 
work force is not where it needs to be in terms of morale, 
there are some challenges with it.
    So, Ms. Cordero, we will start off with you, if you don't 
mind.
    Ms. Cordero. Sure. Thank you, Mr. Chairman.
    So morale has been, as the committee knows, a persistent 
issue in the Department. I do think a couple of things. First, 
with respect to the mission, as you know, I recommended that 
Congress update the statutory mission of the Department. I 
think there are operational reasons to do that. I also think 
that there are morale reasons to do that. Right now 4 out of 
the 7 main section 101 Homeland Security Act core mission sets 
of the Department pertain to terrorism, and yet we know that 
that is out of sync with the day-to-day activities of what many 
of the work force engaged in. I do think that if the mission of 
the Department as it is laid out in law, as it is mandated by 
Congress, if employees could see their daily work reflected in 
that mission, that would be a helpful thing.
    I also think that one of the issues with the Department, I 
think is all of us recognize is that the independent agencies 
within the Department operate very autonomously with less 
oversight structure and less common culture. There have been--
in the roundtables that I have conducted of experts, there have 
been various former officials all who have said the different 
Secretaries tried to do a unity of culture and then with the 
next Secretary that effort sort of falled off. So it has never 
been able to grow throughout the course of the Department. I 
think a joint duty program would be useful in that respect so 
that we could have individuals as they are rising in their 
career rotate amongst the different components. They would get 
a better understanding of their colleagues, of the other 
mission sets of the Department. What we would do is we would 
start to create a core of future leaders who have a better 
appreciation for their colleagues, missions, operations, 
throughout the rest of the Department.
    Chairman Thompson. Thank you very much.
    Mr. Warrick.
    Mr. Warrick. Yes, Mr. Chairman.
    We took a look at a number of the specific components that 
had the greatest morale problems and had in mind some of the 
successes that other components have had, because there really 
are lessons that can be applied in places in the Department.
    In the case of TSA, addressing the low pay and the work 
force issues where people perceived that promotions are handed 
out unfairly and that good work is not recognized and rewarded, 
is something that your committee and you and others have taken 
a direct interest in with the TSA Workforce Act. So pushing 
that through I think will be one of the most important steps 
that this committee could take to help.
    Obviously I welcome Secretary Mayorkas' efforts. We just 
have to make sure he gets the resources he needs to implement 
that.
    The problems at Customs and Border Protection, CBP, are 
going to be a bit more difficult. Chief Magnus, if confirmed by 
the Senate, is going to have to take a number of steps to deal 
with a legacy of an era in which CBP hired a great many people, 
but the perception is that not all of them are up to the level 
of professionalism that the Department really needs to have. 
Some of the things that Carrie Cordero has identified in terms 
of professionalization, I hope if done right will increase the 
pride that CBP officers feel about the better mission.
    We need to do something that we----
    Chairman Thompson. All right. Thank you. Thank you very 
much. I am going to have to try to get to Ms. Mulligan and Mr. 
Cilluffo before my time runs out.
    Ms. Mulligan.
    Ms. Mulligan. So quickly, I agree that updating the mission 
and instituting a joint duty-type program are excellent 
suggestions. I think the one thing that I would focus on and 
emphasize is the politicization of the Department is also a 
driver here. One of the ways the committee can help address 
that is by ensuring that there are more career civil servants 
in leadership positions across the Department, because that is 
what helps, you know, sort-of create a buffer and help reduce 
the sort-of sharp political shifts between administrations that 
end up impacting day-to-day what you think your mission is and 
how well you think you are or aren't serving that mission.
    Chairman Thompson. Thank you very much.
    Mr. Cilluffo? Unmute yourself.
    Mr. Cilluffo. Hi, Mr. Chairman. I was saying I will be 
brief, which is very rare for me since I have never had an 
unspoken thought.
    But bottom line is I really thought that Carrie hit that 
question out of the park. Agree with everything she said there. 
The one thing I would add is the mission by definition, if 
something bad happens, that is how people are sometimes 
defining success. So if we can find ways to flip that equation, 
I think that is critical.
    I also think when it comes to cyber, I want to double tap a 
couple of points that I raised. One, we need a more diverse 
cybersecurity work force. We need more women, more people of 
color. We need to bring in--the numbers are just staggeringly 
low. I think there are ways that that can change in terms of 
morale.
    So bottom like is I know you are running out of time, I 
just wanted to add that one point on cybersecurity.
    So thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the Ranking Member.
    Mr. Katko. Thank you, Mr. Chairman. Thank you all for 
testifying today.
    [Audio malfunction.]
    Chairman Thompson. Ranking Member, I think we are having 
some problems. I am not able to hear him. We will come back to 
the Ranking Member.
    The Chair recognizes the gentlelady from Texas for 5 
minutes.
    Ms. Jackson Lee. Good morning, Chairman, and good morning 
to the witnesses.
    I am glad to hear one of the witnesses highlight 9/11 since 
those of us who are senior Members of the committee were here 
and certainly it was a cause for the creation of Homeland 
Security.
    I want to ask, as we begin to look at reform, I think the 
witness from the Atlantic mentioned COVID and one other issue, 
but did not mention the actions of January 6, which is domestic 
terrorism.
    Whoever wants to answer, do you not believe that that issue 
should be a crucial component of Homeland Security and any 
reform should be focused on how quick a response Homeland 
Security can offer because my disappointment was it was a 
discombobulated unorganized response. The FBI was completely 
absent, particularly the director of the FBI. The idea of a 
National security or domestic security agency did not seem to 
be present.
    If someone wants to take that answer.
    I also would appreciate the gentleman from the Atlantic as 
to why domestic terrorism wasn't one of his top issues.
    Mr. Warrick. It actually very much is one of my top issues. 
It was an issue in our report that we highlighted even in 
September 2020 needed more time and attention from DHS than it 
had been getting. All of that was driven home by what happened 
on January 6.
    We have also taken a very detailed look at the events of 
that day and DHS, while it is not responsible for collecting 
the dots, it is very much responsible for connecting the dots. 
DHS, INA in particular, should have done a much better job of 
bringing that forcefully if necessary, to the attention of 
leadership in the law enforcement agencies who found themselves 
unexpectedly on the front line that day. So there was a lot 
that DHS could have done better and differently.
    Ms. Jackson Lee. Ms. Cordero--thank you. Our time is very 
short. You had offered some reforms. Do you have any reform 
that would relate to a quicker response and a greater presence 
of DHS on a day like January 6, which we hope never in our life 
to see again in America?
    Ms. Cordero.
    Ms. Cordero. Thank you, Congresswoman.
    I think the DHS could have had two important roles in 
mitigating the day of January 6. The first is as a warning 
role. So this pertains to the role of intelligence and 
analysis. We actually at the Center have a new report out that 
is specifically on proposals for Congress to think about to 
reform the Department of Intelligence and analysis in the 
Department so that that office functions better. Right now it 
is neither living up to its expectations nor is it doing the 
job that folks expect it to do.
    In addition, there is a physical security component. I 
assess that had January 6 been designated a National Special 
Security Event with the Secret Service as lead under the 
leadership of the Department, that the physical security itself 
would have been much improved on January 6.
    Ms. Jackson Lee. Sorry, before my time is up. Are you 
suggesting that should have been done ahead of time? Is that my 
understanding?
    Ms. Cordero. Yes, Congresswoman.
    Ms. Jackson Lee. Thanks so very much. Sorry for the time 
shortage.
    As it relates to the pandemic, there was multiple 
confusion, layers of confusion, doctors, first responders using 
plastic bags to cover themselves. When FEMA became involved, a 
singular agency, things began to turn the corner.
    Do we have any thoughts about the reinforcing of FEMA, 
strengthening of FEMA, giving FEMA's administrator Cabinet 
status? As well, the problems we had with the Stafford Act, 
where FEMA cannot work directly with local communities.
    Someone take that point up please.
    Ms. Mulligan. Sure, I will go ahead and try.
    I think you are absolutely right that the role that FEMA 
has been playing, and is likely to play in the future, is going 
to be bigger and more central than the role it has played in 
the past.
    One of the things that I think is actually a success story 
of the existing DHS is how far FEMA has come in terms of 
developing systems and processes. What I envision long-term is 
a FEMA that functions almost like a Federal quarterback to 
augment lead departments and agencies and to build kind-of 
institutional capacity that can be used so that we aren't 
constantly relying on our military to aid in non-military and 
non-defense-related emergency response. If we can build more of 
that capacity within FEMA I think it will be to the good.
    In terms of whether FEMA needs to be a Cabinet-level agency 
itself, I actually think a strengthened DHS central 
headquarters component could be effective without a Cabinet-
level role. But I 100 percent agree that FEMA's role needs to 
be larger in a re-imagined DHS.
    Ms. Jackson Lee. Just last--let me get a response regarding 
the diverse work force. We know that TSA and TSO officers may 
be diverse, but across the board how valuable is it that we 
have a more diverse work force with women and minorities?
    If just someone can give a quick answer, Mr. Chairman, I 
will be able to yield back.
    Anyone who wishes up to take up that importance of 
diversity. I know one point was made about cyber, but across 
the board we found that to be very challenging.
    Mr. Warrick. You are absolutely right. This is one of the 
things that DHS has struggled in some areas to try to achieve. 
It does need to be the priority that I think Secretary Mayorkas 
and his team are now giving it to increase diversity in a 
number of very important areas.
    Ms. Jackson Lee. I think my----
    Chairman Thompson. The gentlelady's time has expired.
    The Chair recognizes the Ranking Member.
    Mr. Katko. Thank you, Mr. Chairman. I apologize for the 
technical difficulties and thank you for accommodating me. 
Thank you all for your testimony today.
    Ms. Cordero, I appreciate your comments very much on the 
morale issue. I thank Mr. Cilluffo for his comments on a need 
for diversity within CISA and really the Department as a whole.
    So I do want to focus my precious time here on CISA. A few 
years ago we would have never been able to anticipate how 
important CISA is going to be going forward. Since my time as 
Ranking Member I have really felt like we need to boost up 
CISA's budget so they can be the things that we need them to 
be.
    So I will just say that we need it to be a $5 billion 
agency within the next 5 years.
    Mr. Cilluffo, if Congress were able to make such an 
investment, what can we expect from CISA in return?
    Chairman Thompson. You have to unmute yourself.
    Mr. Cilluffo. I am sorry, Mr. Chairman. Ranking Member 
Katko, I just sang your praises ad nauseum. So I did want to 
thank you in all sincerity for your leadership on recognizing 
the significance of CISA and for your prioritization and 
emphasis around cybersecurity. I genuinely believe this is the 
crux of DHS's success going forward and the country expects 
nothing less.
    Basically, any policy recommendation I think has to meet 
three different criteria, and that is the marriage of 
authority--do we have clear lanes in the road, accountability--
is there the appropriate oversight, and in CISA's respect it is 
both at the National cyber director and with obviously this 
committee and Congress, and resources. After all, policy 
without resources is rhetoric.
    So I do think that the $5 billion number sounds good to me. 
I couldn't give you a very empirically-based answer to that, 
but we are going to need more resources. We expect CISA to do 
more, we expect CISA to be the quarterback inside the Federal 
Government, we expect them to be able to do more across the 
.gov network. In reality--and I mentioned this in my oral 
remarks--it is really about the public-private partnership. If 
we are winning the battles in the beltway, that is great, but 
at the end of the day it is about enabling and empowering those 
on the--our cyber first defenders. This is where I hope we see 
the most impact and I hope Congress will hold CISA to account 
to achieve some of these objectives.
    Mr. Katko. I agree with you very much about the public-
private partnership in general and the need to exchange the 
information regarding malicious attacks in particular.
    In fact, if time permits, I want to ask you one other thing 
and that is about the Homeland Security Advisory Council. You 
served on it for many years under both Democrats and 
Republicans before the current Secretary disbanded it. Why do 
you believe it is important to have a Homeland Security 
Advisory Counsel made up of bipartisan security experts to 
advise the Secretary on the homeland security?
    Mr. Cilluffo. Thank you, Congressman Katko.
    I am certainly not going to make this about me, but at the 
end of the day, an advisory council needs to be mission-driven, 
and historically it has always been nonpartisan and I genuinely 
hope that will continue to be the case.
    Ultimately it needs to have a diverse set of views, not 
just in the traditional sense, but those who look at the 
homeland security enterprise from different perspectives as 
well. So I think that that is important. It has had significant 
impact.
    So at the end of the day, any council is as good as the 
Secretaries having trust in that and driving on the missions 
that they hold near and dear, and obviously with people they 
can confide in. But my big takeaway on all of this is that I 
hope it remains as nonpartisan as it can be, because otherwise 
it is going to be a show--it is not going to be all that it can 
be.
    So thank you, Congressman Katko.
    Mr. Katko. Thank you.
    Last and real quick, but the Homeland Security Advisory 
Council, have you heard any efforts by the Secretary to 
reconstitute it? Has there been any signals from them yet?
    Mr. Cilluffo. Since I am testifying before Congress and I 
can't duck the--no, I have not heard anything, so--since the 
initial letter went out to the entire Council.
    Mr. Katko. OK. Well, thank you very much.
    Mr. Chairman, I yield back. Thank you for your 
accommodation, sir.
    Chairman Thompson. Thank you very much. Glad we are able to 
do it.
    The Chair recognizes the gentleman from Rhode Island for 5 
minutes, Mr. Langevin.
    The Chair recognizes the gentleman from New Jersey, Mr. 
Payne, for 5 minutes. Unmute yourself, Mr. Payne. We are still 
not able to hear you. Well, Mr. Langevin----
    Mr. Payne. Sir?
    Chairman Thompson [continuing]. I see you are back.
    Mr. Payne. Can you hear me?
    Chairman Thompson. Well, we will go to Mr. Langevin.
    Mr. Payne. Mr. Chairman.
    Chairman Thompson. We are going to Mr. Langevin.
    Mr. Langevin. OK. Mr. Chairman, do you want me to defer to 
Mr. Payne?
    Chairman Thompson. We will be back later.
    Mr. Langevin. Whatever you prefer.
    Chairman Thompson. We will be back to Mr. Payne shortly. 
Mr. Langevin.
    Mr. Langevin. Very good. Thank you, Mr. Chairman. I want to 
thank our witnesses for their testimony today. Let me start out 
with Mr. Cilluffo if I could. Frank, it is great to see you 
again. I appreciate your service on the Cyberspace Solarium 
Commission. I am proud to have served with you and continue to 
serve with you as the commissioner there. But unsurprisingly, I 
agree wholeheartedly with your focus on cybersecurity as the 
key emerging threat facing the country. Yesterday, the White 
House announced it had formed a Ransomware Task Force to 
address that scourge, which I think is important. But can you 
expound on the role CISA and DHS, more broadly, should play in 
protecting the Nation from ransomware, particularly, in the 
context of our Solarium Commission recommendations?
    Mr. Cilluffo. Well, thank you, Congressman Langevin. We 
follow you in terms of all you have done for the commission to 
advance our recommendations. Bottom line here is there were in 
addition to CISA's critical role, one of the primary 
recommendations we put forward and the NDAA translated into law 
and is now, has its first National cyber director is the Office 
of the National Cyber Director. Which I think serves as sort-of 
the head coach to be able to finally get everyone talking on 
the same sheet of music off of the same playbooks where 
offensive, defensive coordinators can work together and we can 
have full visibility.
    CISA does play a key role. I think the first area it can 
have greatest impact and translate a concept into reality is 
around the JCPO or the Joint Cyber Planning Office. Which can 
ultimately be the belly button between CISA and--for defensive 
purposes, not taking away from NCI, JTF, and FBI's important 
mission in law enforcement and scaling opportunities to claw 
back ransomware bitcoin and the like. But CISA does play a big 
role in being the belly button and center of gravity to be able 
to interact with our private sector.
    Congressman Langevin, as you well know, this is a big 
emphasis for us going forward. If we want to see real progress, 
it can't just be the alphabet soup and I don't mean that 
pejoratively. It can't just be the inside the beltway sets of 
issues. It really has to be about how we empower and enable our 
front-line cyber defenders. The private sector is front and 
center in all of this. They are the primary targets and not 
many companies went into business thinking they had to defend 
themselves against foreign intelligence services. But that is 
what is precisely what we are dealing with today.
    So, how do we square that circle will be priority 1, 2, and 
3 and CISA plays a big role. I was pleased to see the Stop 
Ransomware Campaign today because we are starting to see one 
voice, one team.
    Mr. Langevin. Thank you. You encapsulated it perfectly. 
That was a very insightful answer. Thank you. Let me ask this. 
I wonder if you could comment also though on the human capital 
challenges DHS is facing, especially with respect to 
cybersecurity as we consider DHS reform. What should we be 
keeping in mind to attract the cyber talent that we need?
    Mr. Cilluffo. Well, Mr.--Congressman Langevin, obviously 
the numbers are staggering and frightening if you think about 
it in terms of the shortfall in terms of a skilled 
cybersecurity work force. I think first and foremost, we need 
to upskill and reskill and retain some of the best and the 
brightest we have in place. But I do think we need to look to 
ways to recruit more diverse--bring in more diversity into the 
cybersecurity community. Women in particular make up less than 
25 percent of the cybersecurity work force. That is just 
unacceptable. We need to redouble those numbers in a big way. 
Ultimately, I think K through 12 is--once you hit--and I am 
speaking from a university, of course. I am going to say post-
secondary and college education is a priority and it is. But 
ultimately, we have to get to the next generation when they are 
a whole lot younger. Cybersecurity needs to be part of the way 
they do cyber. Ultimately, we are talking about K through 12.
    I think we have a lot we can learn from some of our allies. 
Notably, Estonia and Israel in terms of how they are literally 
bringing in at the kindergarten level, cybersecurity into the 
curricula. So, I didn't give you a clean answer on that, but it 
is all of the above,----
    Mr. Langevin. Sure.
    Mr. Cilluffo [continuing]. More of it, and faster.
    Mr. Langevin. Yes, I couldn't agree more. Yes, focusing on 
K through 12 essential and also diversity. Look, we are 
stronger when we have varied and different points of view and 
backgrounds that we can bring to the table to offer expertise 
and talent and we have to work harder on the diversity part as 
well.
    I know my time has expired. I have other questions that I 
will have to submit for the record. But thank you for those and 
thank you to the rest of the panel. I am sorry I couldn't get 
to you for questions. But thank you, Mr. Chairman. I yield 
back.
    Chairman Thompson. The gentleman yields back. The Chair 
recognizes the gentleman from Mississippi, Mr. Guest, for 5 
minutes.
    Mr. Guest. Thank you, Mr. Chairman. Frank, I want to visit 
with you just a few minutes, kind-of highlight a few of the 
things that you briefly testified in your opening statement and 
also in the report that you provided prior to your testimony. 
You say in your report that the most prevalent and most 
pressing matter that we now face is cyber. You say cyber is the 
area where we must double down and work the hardest to enhance 
our capabilities. You go on and you talk about some of the more 
recent attacks that we have seen, both late last year and this 
year. The Solar Winds, the Microsoft Exchange. You mention the 
U.S. pipeline, which I am assuming would be Colonial Pipeline, 
the food supply, which would be the JBS cyber incursions. You 
talk about ransomware and how ransomware is not just targeting 
these large multinational corporations, but they are targeting 
schools and businesses and hospitals.
    Then as you go a little later into your report, you talk a 
little bit about the deterrence factor. You say actually while 
resilience supports deterrence, it must not eliminate the need 
for a broader U.S. strategy to deter our adversaries by 
imposing real costs and consequences upon them. You go on 
specifically to mention China and Russia where many of these 
cyber attacks are occurring and that for far too long they have 
been allowed to engage in cyber behavior that has damaged the 
United States and that damaged both our National security and 
our economic security.
    So, I would like, if you would, if you could take a few 
moments to talk about this broader U.S. strategy of deterrence. 
It seems like we are constantly playing defense and we are not 
playing offense. That we are allowing these cyber attacks to 
occur in China and Russia and other nations abroad, but it 
seems that we are doing very little to engage many of those 
individuals. I know that we are talking about sometimes law 
enforcement challenges being unable to make arrests in foreign 
countries. But for countries that shield cyber attackers, what 
more can we do? What should that broader U.S. policy of 
deterrence be? I think you may be muted again very briefly.
    Mr. Cilluffo. Thank you, Congressman Guest.
    Mr. Guest. Thank you.
    Mr. Cilluffo. I think you framed that exceedingly well. Not 
my words, but yours. I mean, here is the bottom line. CISA has 
a critical role to play, but we are never going to firewall our 
way out of this problem alone. It would sort-of be like if you 
are fielding a football team of only having a front line and 
not having an offense. You need all of the above.
    The reality is, is we need to induce changes in bad cyber 
behavior. To do that, we need to start imposing costs and 
consequences on bad cyber behavior. To do that, we need to be 
willing to put some lines in the silicon. When those are 
crossed, we have to have the political will, (A), signal and 
(B), follow through on our ability to respond.
    Here is, without getting into anything Classified, because 
this is very public, we have got the greatest cyber capability 
right now. That is something that shouldn't be lost on the rest 
of the world. We also, though, need to be willing to deploy and 
employ some of these capabilities to ultimately change bad 
cyber behavior. For way too long, the bad guys have been 
getting away with murder. This is unacceptable. That said, we 
need to shore up our defenses. So, the last thing we want to do 
is--because the initiative still remains with the attacker. Our 
vulnerabilities are extreme. So, we got to bring all these 
pieces together. I am confident that the creation of the new 
National cyber director, which Congress passed last year in the 
NDAA, can help us get to that point.
    But here is the bottom line, not all hacks are the same. 
Not all hackers are the same. Intentions vary. Capabilities 
vary. At the very top of the list, peer nations are Russia and 
China. Just beneath them, Iran, North Korea, what they lack in 
capability they more than make up for with intent. They have 
very little compunction to turn toward cyber to achieve their 
objectives.
    Cyber criminals, which 5 years ago were rare, now they are 
at par with where nations were 3 to 5 years ago. So, we have 
got a--we have got a witch's brew here we need to deal with. 
The bottom line is, is we need to start imposing costs. We need 
to start imposing consequence. We need to follow through and 
bring all instruments of statecraft. Yes, that includes the 
military instrument if done appropriately to achieve our cyber 
objectives.
    Mr. Guest. Let me ask you one follow-up question and then I 
will be out of time. Do you think the administration is sending 
a strong enough message to wit to our adversities--our 
adversaries as it relates to cyber attacks in the response that 
we will take to defend ourselves using some of our offensive 
capabilities?
    Mr. Cilluffo. You know, I have long been an advocate that 
we need to do more. I have been critical of all administrations 
in this particular space. I do think we saw some positive 
developments in terms of raising this issue directly with 
Vladimir Putin. But the proof is going to be in the pudding. 
Are we going to actually follow through on some of our words 
and make sure that they are not empty? The worst thing we can 
do is say we take it seriously and not follow through. So, I 
will be cautiously optimistic that we are moving in the right 
direction, but more is needed and I don't mean to go on and on 
and on. But China is the country we really need to be looking 
at closely over the long haul. So much more there is needed and 
too much to cover in this hearing. But thank you, Congressman 
Guest.
    Mr. Guest. Thank you.
    Chairman Thompson. The Chair recognizes the gentleman--
thank you. The Chair recognizes the gentleman from New Jersey 
for 5 minutes, Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman, and I apologize for 
difficulty before. This question is to Ms. Cordero, Mr. 
Warrick, and Ms. Mulligan. The Trump administration's abuse of 
DHS authority over the last 4 years hurt the Department's 
reputation and disseminated--decimated, actually the public 
trust in DHS actions. As a Government agency that depends on 
regular interactions with State and local communities, DHS is 
uniquely reliant on its relationships with the public. I would 
like Ms. Cordero and Mr. Warrick and Ms. Mulligan to answer the 
following question. What are the biggest factors that affect 
the public's trust in DHS and how can the Department rebuild 
that trust?
    Ms. Cordero. Thank you for the question, Congressman. So, 
one of the reasons that I think DHS, in particular, is a 
Department that needs this public trust is because it is so 
operational and it touches people in a very personal way every 
single day, whether it is citizens at the airport or whether it 
is individuals, migrants trying to enter the country through 
various means. So, it is up close and personal in a way that 
many other Federal bureaucracies are not.
    It also has an extraordinarily heavy law enforcement 
component that has grown over time. It has been a very--become 
a very robust part of its operations. Therefore, it is 
essential because of these factors, that it be a Department 
that operate according to the Constitution laws, rules, 
procedures, and that the public have a good understanding of 
what those rules are.
    So, one of the set of recommendations that I have put forth 
in several of the reports that I have written have been focused 
on redeveloping and modernizing the operational guidelines that 
the law enforcement components of the Department work through 
increasing the transparency. So, once we have rules and updated 
rules about how DHS officers and employees are interacting with 
the public, put those rules out there so that people can see 
them. They can understand them. Right now, what----
    Mr. Payne. OK.
    Ms. Cordero. Sorry, I will pause there. Thank you.
    Mr. Payne. Thank you. Mr. Warrick.
    Mr. Warrick. So, I agree with everything Carrie just said. 
I won't resummarize it. DHS has extraordinary authorities. Also 
in areas like cybersecurity, everything we see makes it clear 
that there has to be even greater trust between DHS and the 
American people. So, our recommendation is that DHS needs to 
look at everything it does through the lens of is this going to 
enhance public trust? That may not make everyone happy, but it 
is going to be necessary because trust needs to one of the 
greatest assets that DHS has going forward.
    Mr. Payne. Thank you. Ms. Mulligan.
    Ms. Mulligan. So, I think that the reason that we are all 
circling around the issue of DHS's law enforcement role is 
because that really is the central place where the trust issues 
reside, in my view. As we have concluded in our report, it is 
one of the reasons why we really ought to reconsider whether 
exclusively investigative law enforcement functions belong at a 
reimagined DHS.
    There will always be some role for law enforcement within 
the Department because it will continue to need to protect, 
secure, defend, and enforce. The question really for this 
committee, I think, is are those the primary beliefs that the 
Department adds value to the American people? Or is there an 
expanded role for the view that it connects, communicates, 
facilitates, helps, and welcomes people to this country? You 
know, we argue that rebalancing those priorities and bringing 
them into balance with each other is actually one of the first 
things we can do to restore trust with the American people.
    Mr. Payne. Thank you. Mr. Chairman, I was going try to 
slide one more question in, but I will yield back. Thank you.
    Chairman Thompson. The gentleman yields back and very 
kindly. The Chair recognizes the gentleman from North Carolina, 
Mr. Bishop, for 5 minutes.
    Mr. Bishop. Thank you, Mr. Chair. Ms. Cordero, I think it 
is a fair summary to say you and Ms. Mulligan have sort-of been 
on the same page, at least the two of you, maybe also Mr. 
Warrick, on that deemphasizing the law enforcement functions of 
DHS are a priority and you mentioned, I think, terrorism and 
also immigration enforcement.
    I think the Clerk has a chart that I have used a couple 
times before. Let me see if the Clerk has that and we can put 
it up real quickly.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Bishop. Yes, everybody is familiar with this chart, I 
think. I think we are getting ready to see results for June 
that will show that blue line to have ticked up yet again and 
those are Southwest Border encounters by month. So, we are at 
a, again, what I have understood to be a 20-year high and it 
has reached--it is sort-of on a plateau and continuing 
gradually to increase. You can take that chart down, Madam 
Clerk. I just wanted to get everybody on the same page.
    The orange line that was on that was the 2019 fiscal year 
and in your paper in March about sort-of the reorienting 
Homeland Security Department, you suggested that the Trump 
administration's policies on immigration have been unsuccessful 
that there had been an increase. I think you were pointing to 
that 2019 increase in particular. But what was notable about it 
is that that orange line goes up and then it recedes. We are 
now up at this, you know, unusual peak that has then continued 
at a plateau. Does that not change your view about whether or 
not immigration enforcement continues to be an important 
priority for Homeland Security?
    Ms. Cordero. Congressman, I am not sure if you were 
directing that at me or at Ms. Mulligan. But let me start off 
and then she may have more to add as well. So, perhaps we 
have--let me explain a little bit what I mean when I am 
describing drawing down a little bit in terms of the law 
enforcement capacity of the Department. I understand the 
concerns about border security and, obviously, there is a 
continued challenge at the border with respect to immigration 
enforcement. So, I have not suggested that we draw down on 
Border Patrol or the manpower or resourcing for that at all.
    What I am suggesting is that we make sure, No. 1, that the 
law enforcement components of the Department do what their 
mission is. So, for example, when it comes to Border Patrol, I 
want to see Border Patrol agents working on border issues, not 
being deployed into the interior of the country to do things 
that are unrelated to Border Patrol.
    Mr. Bishop. OK.
    Ms. Cordero. A second piece that we focused on--that I 
focused on in my writing has been on the investigative law 
enforcement capacity of the Department. So, this is what we 
call Homeland Security Investigations, which is a component of 
ICE. That is an area where I do wonder where there are--whether 
there are some duplicative actions between and duplicative 
activities between that investigative function and perhaps some 
other law enforcement components of the Federal Government----
    Mr. Bishop. Let me----
    Ms. Cordero [continuing]. Where I think it would be useful 
to----
    Mr. Bishop. Let me----
    Ms. Cordero [continuing]. Refocus those efforts.
    Mr. Bishop. Let me interject. Thank you. Let me interject 
and this is a redirect. What is the most important and 
imperative action at this point in time by Homeland Security 
that would precipitate an attenuation in that high and 
plateaued line of enforcement encounters at the Southwestern 
Border? What does Homeland Security need to do to attenuate 
that flow as much as the Trump administration--or was 
accomplished in the Trump administration by seeing the thing 
decline rather from a peak?
    Ms. Cordero. So, Congressman, I appreciate the question. I 
don't think there is a magic bullet for solving the challenges 
at the border. I think when we talk about the border issues, 
what we are really talking about is a wide range of policy 
issues. We are talking the foreign policy as it relates to 
Northern Triangle----
    Mr. Bishop. Let me interject. I am sort-of just seeing if 
anybody has got a magic bullet. Let me see if anybody who is 
the witness would want to jump in and say--I am not saying it 
has to be a magic bullet, but something that could 
precipitously reduce that rate.
    Mr. Warrick. Representative Bishop, we need to design an 
immigration system that processes people fairly, justly, and 
very quickly. If you tried to run the Supreme Court the way we 
run traffic court, there would be chaos. The opposite is true.
    Mr. Bishop. So, if you promise to get them through faster, 
Mr. Warrick, that is what you are saying is the answer?
    Mr. Warrick. But justly and in accordance with the law, 
yes. But the entire system----
    Mr. Bishop. Do you think it would attenuate the flow?
    Mr. Warrick. You need to be able to have people's cases 
heard so that they don't have to either wait around for a 
result or be released awaiting a hearing. You ought to be able 
to design a system that avoids border crises like you have 
rightly pointed us to.
    Mr. Bishop. I yield back. Thank you, Mr. Chairman.
    Chairman Thompson. The Chair recognizes the gentleman from 
Missouri, Mr. Cleaver, for 5 minutes. The Chair recognizes the 
gentlelady from New York, Ms. Clarke, for 5 minutes.
    Ms. Clarke. Thank you very much, Mr. Chairman. Thank our 
Ranking Member and our witnesses for your insights today. The 
Center for the New American Securities Report notes that DHS's 
cybersecurity mission has grown over time. But the authorities 
of its cybersecurity entity of its--the Cybersecurity and 
Infrastructure Security Agency, CISA, have not kept pace. The 
National Defense Act of Fiscal Year 2021 includes several 
provisions to align CISA's authorities with its current mission 
including persistent threat hunting authority and the Joint 
Cyber Planning Office. But our work is hardly done. Ms. 
Cordero, how has Congress' failure to equip CISA with the 
authorities necessary to effectively carry out its cyber 
mission undermined our National security posture? How could 
this mismatch between CISA's authorities and responsibilities 
be best addressed?
    Ms. Cordero. Thank you for the question, Congresswoman. I 
do recognize that this committee and Congress does have a 
renewed attention on CISA and is considering proposals to be 
able to strengthen it. So, I appreciate this committee's work 
on that. Here is what I think when I think about what would be 
a robust CISA that we want to have? It would be a CISA that has 
the capability, resources, expertise, to warn both with respect 
to the .gov and to private and public--private-sector partners 
and other public-sector partners. It would have the ability to 
significantly assist in the remediation of cyber events and it 
would have the capabilities to protect our Democratic 
institutions. For example, CISA has demonstrated that it is 
capable of doing a lot when it comes to public-sector partners 
to protect and strengthen electoral infrastructure. So, warn, 
remediate, protect. Those are the things that I think would 
make a robust CISA.
    One of the things that I have recommended in the past with 
respect to what Congress can do, one of the recommendations of 
the Solarium Commission was to create a select committee in 
order to take on cyber issues across the board. In a prior 
report that I wrote with a colleague, Professor David Thaw, we 
recommended that there at least be an interim select committee 
on cyber so that we can take these Solarium Commission 
recommendations, which Congressman Langevin and others have 
participated in, and drive forward those recommendations so 
that they continue to have an impetus behind them and a 
legislative and oversight vehicle in Congress to make them 
happen.
    Ms. Clarke. Mr. Cilluffo, is there anything you would add 
or disagree with in that analysis?
    Mr. Cilluffo. I think Ms. Cordero is gutsy bringing up the 
Congressional oversight, but I do think that that is an issue 
we need to look at. Quite honestly, your committee, the 
Homeland Security Committee needs to have the wherewithal and 
the oversight authorities to do its job across the Department.
    But a couple of things I would raise. I brough up SICI, the 
Systemically Important Critical Infrastructure. I do think 
there is a time for incident reporting and making that required 
for the most critical of our critical infrastructures. I do 
think that the Joint Cyber Planning Office can get us a little 
closer to where we want to be on the public-private 
partnership. Because that is where the action should be. 
Ultimately, I think can move the needle the furthest.
    I am a big proponent of the National Cyber Director, but 
there is one I want to bring up that I haven't discussed and 
nor have I heard from anyone yet today. Supply chains are so 
important here. We are so dependent from a component 
perspective, we have got to start bringing onshoring some of 
these key technologies and capabilities back to the United 
States. While that is an issue across the board, the truth is 
is we have a whole long way to go because we don't even have 
visibility across our supply chains. After each incident, it is 
like we are starting afresh and anew----
    Ms. Clarke. Very well. I would love to talk to you more 
about that. I want to get in one more question for our panel.
    Mr. Cilluffo. Thank you, Ms. Clarke.
    Ms. Clarke. That is multiple administrations have struggled 
to improve coordination between CISA and other Federal 
agencies, and have tried to overcome turf battle to improve our 
cybersecurity posture. Last year's National Defense 
Authorization Act included language codifying the role of 
Federal agencies that oversee critical infrastructure sectors 
in establishing the National Cyber Director.
    Among other things, despite efforts to clarify roles and 
responsibilities of CISA and other agencies, coordination 
within the Federal Government to promote the security and 
resilience of the Nation's critical infrastructure is not where 
it needs to be. What more do you think Congress will need to do 
to ensure effective strategic interagency collaboration to 
address cyber threats against critical infrastructure? Are 
there other recommendations, for instance, for the Cyber 
Solarium Commission--from the Cyber Solarium Commission that 
you believe would help foster better collaboration? It is for 
the entire panel, I am sorry. I know my time is up. Just 
quickly any thoughts?
    Mr. Warrick. I will go first. We would certainly agree with 
what Frank is saying about the need to designate critical 
infrastructure in cyber so that they have certain obligations 
and get certain benefits. That is one of the most important 
recommendations that needs to be adopted.
    Ms. Mulligan. The one thing I would add----
    Mr. Cilluffo. Ms. Clarke, can I----
    Ms. Mulligan. The one last thing I would add is I do think 
that one of the issues that we are--you know, we can build 
capacity and we absolutely should in the ways that have already 
been outlined. But we have to start creating an output out of 
DHS that is fit for purpose. In other words, DHS is going to 
need to do a better job, continue improving its ability to 
understand what the critical infrastructure providers that are 
outside of Government actually need to be informed about and 
how to inform them in a timely way and with a level of 
specificity that they can actually act upon.
    Ms. Clarke. Very well.
    Mr. Cilluffo. Congresswoman Clarke,----
    Ms. Clarke. Yes.
    Mr. Cilluffo [continuing]. Just one point I want to raise 
because I think it is important. So, CISA, of course, is at the 
center of a lot of this activity vis-a-vis our critical 
infrastructure owner/operators. But it is also the sector risk 
management agencies. So, what we used to call the SSAs, the 
Sector Specific Agencies that are working. So, DOE, for 
example, plays an important role with grid security and needs 
to continue to do that. CISA can help enable that. So, I think 
the new National cyber director, we finally have a head coach. 
Someone who can bring together the offensive coordinator and 
the defensive coordinator onto the same field with the same 
playbook, and all I ask is that Congress enable Chris Inglis to 
be able to do his job as National cyber director. So, thank 
you.
    Ms. Clarke. I appreciate that. Mr. Chairman, I yield back 
and I thank you all for your expertise today.
    Chairman Thompson. Thank you. The Chair recognizes the 
gentleman from New Jersey for 5 minutes, Mr. Van Drew.
    Mr. Van Drew. Thank you, Mr. Chairman and Ranking Member 
Katko, and thank you for having this hearing and I thank the 
witnesses for testifying. As you all know, we are truly living 
in extraordinary times. Threats of all sorts, whether cyber, 
ransom, or physical, greatly threaten the safety and security 
of our great Nation. In the past 6 months, we have seen 
ransomware attacks like we have never seen before. Water 
treatment plants, meat packing facilities, pipelines, you name 
it, it has been attacked. Russia, China, Iran, and other 
dangerous adversaries are working to undermine our critical 
infrastructure which is why it is important now more than ever 
for Congress to work with stakeholders to produce effective 
solutions.
    In addition to our cyber vulnerabilities, our border faces 
serious threats as well. Unprecedented numbers of migrants have 
entered the United States through our Southern Border. Yet, the 
administration has done practically nothing to remedy the 
situation. Immigration and Customs Enforcement officers and 
Custom and Border Protection agents are overworked by anything 
we could even ever imagine and they have high, very high rates 
of burnout. Like the witnesses have outlined in their 
testimonies, it is no secret that the Department of Homeland 
Security has its shortcomings despite a heightened threat 
landscape.
    It is ironic, however, that the Department is receiving 
very small increase in funds at this very critical time. Ms. 
Mulligan, in your testimony, you said that DHS should shift 
toward a more service-driven approach that treats immigrants as 
an asset to be managed rather than as a crime issue or anything 
to be enforced. Do you believe--simple question--do you believe 
in the rule of law?
    Ms. Mulligan. Of course.
    Mr. Van Drew. OK. Are you aware that the United States is 
facing the highest level of migrants at the Southwest Border in 
21 years? In fiscal year 2021, over 900,000 migrants have been 
encountered along the Southwest Border. Are you aware that 
under U.S. Code Section 135, it makes it a crime to unlawfully 
enter the United States not at a port of entry? It is a crime. 
Are you aware of that?
    Ms. Mulligan. I am aware of persistently high rates of 
migrants presenting at the Southern Border, yes, over time.
    Mr. Van Drew. Are you aware that it is a crime?
    Ms. Mulligan. Absolutely.
    Mr. Van Drew. OK.
    Ms. Mulligan. Not to present, but to unlawfully enter is a 
crime.
    Mr. Van Drew. In fiscal year 2021 to date, CBP has arrested 
6,918 individuals with criminal convictions. How would you 
ensure that criminals and gang members who are smuggled into 
the country between ports of entry are actually caught because 
of the extreme danger that they present?
    Ms. Mulligan. I think its incredibly important to 
understand that none of us today have argued for a dismantling 
or, you know, a radical shift away from any of the protecting, 
securing, defending, or enforcing missions of the Department. I 
think bringing them into balance is what I have certainly 
testified about.
    In terms of safety and security at the border, I think it 
is really important to differentiate between, you know, folks 
who are trying to enter the country who have the kinds of 
criminal records that you are talking about and folks who are 
presenting at the border who don't. The overwhelming majority 
do not. Now, it is the function of CBP to try to differentiate 
between those things, but we shouldn't be treating them all the 
same. And----
    Mr. Van Drew. I understand that but, again, just going back 
to the previous statement, how can we consider this an asset to 
the country? I agree with you. We need new immigration laws. We 
need to change the system. I believe in legal immigration. But 
should we just open our borders everywhere or it is just in 
that area in the Southern Border? How do we really approach 
this? Why is it bad for a nation, a sovereign nation, to have 
borders to protect the people who live in the nation and then 
to actually put together a real legal immigration plan?
    But how can illegal immigration when, in fact, as we know, 
illegal immigration that we have now children are being used. 
Children are being abused. Children and women are being used as 
drug mules. They are being sexually attacked in order to get 
more people into our country. How can that be a good thing? How 
can that be right even for them? When before we had agreements 
with the Northern Triangle, we had agreements with Mexico in 
which those folks were held and they were treated decently 
there and we were building an actual border in our country. How 
can that be wrong? Countries have borders. Every country. 
Mexico does. Canada does. Every country we know of pretty much 
that speaks for itself at all has a border. How can we just let 
this happen?
    Ms. Mulligan. Thank you for the question. I think that we 
absolutely should have a border and I am, you know, as a lawyer 
myself, deeply respectful of the rule of law in this country. 
But I do think that when we are talking about the threats 
facing the Nation and we are prioritizing, you know, without 
infinite resources, we do need to prioritize a range of threats 
that are posing, in my view, significantly heightened risks to 
American lives and prosperity. Things like the pandemic, the 
cyber issues that we have been discussing. Those are threats 
that are impacting America's lives and their pocketbooks in 
ways that far exceed what is happening at the Southern Border.
    Mr. Van Drew. Do you think fentanyl is a threat to America, 
the drug fentanyl? Because the numbers----
    Chairman Thompson. The gentleman's----
    Mr. Van Drew [continuing]. Are geometrically growing----
    Chairman Thompson. The gentleman's time----
    Mr. Van Drew [continuing]. With fentanyl. Do you believe 
that that is a threat? It is all coming in on the ports of 
entry.
    Chairman Thompson. We will let--excuse me. We will let you 
answer the question, but the gentleman's time has long expired.
    Mr. Van Drew. Thank you, Mr. Chairman.
    Ms. Mulligan. I think fentanyl is absolutely a threat. 
Look, that is why it is tremendously important to have a 
Department of Homeland Security that is focused on taking a 
broader view of what it means to keep the Nation secure. One of 
the things that I find really heartening about the conversation 
that we are having, is that we are breaking out of, you know, 
focusing exclusively on terrorism as the only mission of the 
Department. This gets back to what Ms. Cordero and Mr. Warrick 
have said earlier. We have to get to a place where we are 
defining what it means to keep the Nation secure more broadly 
so that it includes all of the issues that you are raising and 
so that those become part of the core mission of the 
Department.
    Mr. Van Drew. Thank you for your time.
    Chairman Thompson. The Chair recognizes the gentleman from 
Missouri, Mr. Cleaver, for 5 minutes.
    Mr. Cleaver. Thank you, Mr. Chairman. I appreciate all of 
the witnesses today. I have just a couple of questions that I 
wanted to try to deal with if I could. One of them is, if it 
has already been dealt with, Mr. Warrick, or anyone, frankly, 
we have had this increase in the number of incidents on the 
U.S. airlines with unruly passengers. If that has already been 
dealt with, I will just, you know, get a response later from 
some of my colleagues. But if it has not been addressed, I 
would appreciate if any of you who might want to respond to 
that if you can.
    Mr. Warrick. So, Representative, the issue of security 
aboard airlines is one that TSA takes very seriously. Federal 
air marshals are trained in these. Airline flight crews are 
trained in how to deal with the situations. I think all of us 
have been a bit fraught about air travel over the last year. 
But this is going to be an example of the kind of mission that 
DHS will always have to undertake and is one of the reasons why 
the law enforcement personnel, the Federal air marshals that 
TSA have are an essential part of protecting our aviation 
security system.
    Mr. Cleaver. Yes, I guess--thank you. I appreciate your 
response. You know, we are having people fighting on a plane, 
you know, passengers are helping to control this, which is the 
good news. You know, and people don't want to wear a mask 
because I guess whatever side it is, but they hate the other 
side more than they love their health. So, you know, it is a 
big mess. But I guess that is going to happen like a lot of 
other things for the time being.
    But the Center for American Progress Report calls for DHS 
to refocus its work based on a safety and services model rather 
than a threat-oriented model. As I understand it, a safety and 
service approach does not ignore or reduce or downplay the 
risks that threaten American security and prosperity, but it 
does focus--suggests that we focus DHS where it is most 
effective and avoid duplicating the work of other Federal 
agencies. Ms. Mulligan, can you describe how this safety and 
service approach best addresses the foundational issues, long-
standing challenges, and expanding the DHS mission?
    Ms. Mulligan. Absolutely. You are completely right that the 
safety and services model doesn't downgrade or diminish the 
importance of the protecting and securing and enforcing 
missions that are sort-of central and have been central to DHS 
since it was created. But as Ms. Cordero said earlier, DHS is 
one of the parts of the Federal constellation of departments 
and agencies that most Americans come into contact with more 
regularly than any other Federal department. We rely on them 
when we go through airport security, when we come back from a 
vacation, you know, when disaster strikes in our home town and 
we are relying on Federal resources for help in a time of need.
    Those are missions that in my view are going to become more 
important in the next 20 years than they have been in the past 
20 years. It argues for a DHS that takes pride in those 
missions and puts them in a--brings them into balance with the 
other missions that it has been focusing on for the past 20 
years. So, you know, our vision heading into the future is for 
a reimagined DHS that moves away from the origin story of 9/11 
and focuses on how it can meet America's needs.
    Mr. Cleaver. I don't know how my time is, Mr. Chairman. I 
clearly can't see the clock. But does FEMA pull down things? I 
mean, FEMA is kind of a different part of this Homeland 
Security portfolio that, you know, our Chairman is carrying 
around. But should that be under HUD? I mean, HUD has a 
Community Development Block Grant Disaster component and it 
seems to me that that may be more appropriate for HUD than DHS.
    Ms. Mulligan. So, I think FEMA definitely belongs in a 
reimagined DHS that is focused more on safety and services. If 
DHS, if the future vision is primarily, you know, a law 
enforcement security provision department or agency, then 
maybe, yes, I could see the kind of, you know, move that you 
are describing. But in my view, there is something inherently 
integral between what FEMA provides and what is, you know, what 
the threats are that are facing the country. Having them 
integrated within the Department of Homeland Security makes a 
lot of sense as long as if those missions are not being 
diminished as the headquarter's level focuses elsewhere.
    You know, I think, you know, having seen first-hand 
emergency preparedness and disaster response when I was at the 
Department of Justice, I could say that, you know, FEMA's come 
a long way since Hurricane Katrina what they do. They, in my 
view, are one of the success stories within the Department. 
When you think about FEMA and the conversations that we have 
been having earlier in this hearing around CISA and the way 
that CISA is acting as the Nation's threat advisor, there is a 
threat advisory role that you see over and over again at DHS 
that it does better than any other part of the Federal 
departments or agencies and it needs to lean into those areas 
where what it is doing is adding unique value that falls 
between the cracks of where other departments and agencies act.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you. The Chair recognizes the 
gentleman from Texas, Mr. Pfluger, for 5 minutes.
    Mr. Pfluger. Thank you, Mr. Chairman and Ranking Member. 
There has never been a more important conversation having 
served in the military for 2 decades. I don't think that there 
has been a time since 9/11 that we have faced the number of 
threats that we face right now. Cyber threats, the rise of 
great power competition, the crisis that we have at our border, 
economic threats. I mean, they are all over.
    So, what I would like to start with being a Congressman 
from Texas and representing a district that is very much 
feeling the pain from this crisis, is specifically related to 
the border. Mr. Warrick, in your--one of your testimonies or 
questions, you talked about the morale of CBP officers. I 
couldn't agree with you more that it is at an all-time low. I 
mean, they are being asked to protect us and yet the resources 
that they are being given and the policy that is being handed 
down is anything but protective of the job that they are doing.
    So, I am interested to know with DHS's inability to really 
call the situation at our Southern Border a crisis, including 
the funding for hiring additional people, you know, what are 
the additional impacts that you see on morale? Mr. Warrick, if 
I may, have you been the Rio Grande Valley or to the Southern 
Border in the last couple of months?
    Mr. Warrick. Not in the last couple of months because, 
obviously, it is a lot easier to arrange travel as a Member of 
Congress than in the private sector. The challenges that CBP 
faces actually go back to something that predated a number of 
the policies in the Obama administration. There was a decision 
taken to change the way pay was--and overtime was administered. 
That actually was started in the----
    Mr. Pfluger. Mr. Warrick, if I may, I would like to really 
just kind-of focus on the policies we have right now and on the 
morale----
    Mr. Warrick. Right, and so----
    Mr. Pfluger [continuing]. That we are seeing.
    Mr. Warrick. Yes, and so,----
    Mr. Pfluger. I was just recently at the border and talked 
to a number of just, you know, agents that are right there 
doing the National security mission. That is really what I 
would like to kind-of understand from your perspective is.
    Mr. Warrick. Oh, yes. No, I would agree that Chris Magnus, 
if he is confirmed by the Senate, is going to have a challenge 
equal to any other major law enforcement organization going 
through some difficult times. So, it is going to take a lot of 
help and it is going to take support from the Congress that 
should be bipartisan in order to try to address CBP's problems. 
But they are deep and they go back to the hiring that was done 
when CBP felt it needed to increase its numbers and then there 
were problems that have been well-documented by both Democrats 
and Republicans in office.
    Mr. Pfluger. Well, thank you for that. We are going to 
enter an era where law enforcement is going to be--is going to 
continue to scratch their heads wondering if the policies from 
above are going to actually support the mission that they are 
doing. We have a crisis at the Southern Border. The numbers do 
not lie and yet nothing is being done to address it.
    Let me ask another question that is completely unrelated to 
the border. I would encourage everybody on this panel that we 
have got to tackle this. There are more drugs. Fentanyl was 
mentioned. It is impacting communities that are not on the 
border. My community is not on the border. I am in Texas. It is 
going to impact every single one of our communities, if not 
already.
    In some of your opening statements, it was mentioned that 
the need of an associate secretary position is being required. 
Somebody who concentrates on law enforcement issues and that it 
would be a positive step in the reformation effort. I am very 
interested in this because it sounds to me a little bit 
bureaucratic, an additional layer of bureaucratic red tape. 
What is this position really going to do? What is their 
jurisdiction going to be? Anybody can answer.
    Mr. Warrick. My view is it is going to solve the problems 
that CBP and ICE and others have that they need solutions on 
but haven't been able to get the support from headquarters and 
with the Congress that they need. So, I hope it provides that 
kind of leadership. Over to Carrie.
    Mr. Pfluger. Anybody else want to comment on that quickly?
    Ms. Cordero. Absolutely, Congressman. You know, this is the 
model of the Justice Department as well where there is an 
Attorney General, a deputy attorney general, and an associate 
deputy attorney general. All it does is it helps the Department 
be managed better because they can--the deputies and the 
associate can split up portfolios across the Department so that 
the Secretary can have a birds' eye view and then they can 
focus more on particular components.
    So, it is something that has worked in other departments. 
When I roundtabled this with experts who had served across 
administrations, bipartisan group of experts, everybody agreed 
that this would be a productive thing for the Department.
    Mr. Pfluger. Well, thank you for that. I am interested to 
see that because the deputy to the assistant to the deputy as 
somebody who served in the DOD, sometimes leads us into this 
bureaucratic nightmare where clear vision, objectives, and 
mission statements are completely clouded. What I think would 
be helpful this time for ICE specifically, since you brought 
that up, is for the priorities to be handed down. Because right 
now they don't know the priorities and they are not able to do 
their job to the full extent. Mr. Chairman, thank you. I yield 
back.
    Chairman Thompson. The gentleman yields back. The Chair 
recognizes the gentlelady from Nevada, Ms. Titus, for 5 
minutes.
    Ms. Titus. Thank you very much, Mr. Chairman. We have heard 
a lot this morning about the serious problems within the work 
force at DHS. We know that employees have low morale. They are 
not a very diverse work force. Also, they are reluctant to 
leave their regular jobs for a temporary position with FEMA to 
go out and fight some of these disasters, especially if caused 
by climate change, because unlike reservists, they don't have 
job protection guarantees.
    I am working on some of these issues with the help of the 
Chairman. For example, earlier this year I introduced the 
Homeland Security Acquisition Professional Career Program Act. 
It has passed the House and that was last April, and it passed 
out of Senate committee just yesterday. It would target 
recruitment at HBCs, veterans' organizations, and minority-
serving institutions. I hope that our panel, especially Ms. 
Cordero and I believe the two people who are employees formally 
at TSA maybe can weigh in on this and if that will positively 
help the work force. I think it would and I hope they will 
agree and help us get it out of the Senate in a hurry.
    Another problem that we have heard about and we have heard 
a lot about the border today, is the lack of the latest 
technology at DHS that we don't seem to be able to catch up and 
deal with new and emerging threats. I am especially thinking 
about unmanned aerial systems. We are seeing them more and more 
at the border as they come across with illegal drugs and 
weapons. I wonder if you know if we are working from DHS with 
Department of Defense for the development of some kind of 
countermeasure or some kind of technology to counter these 
operations to prevent these kinds of occurrences at the border. 
Because it seems like the Department of Defense does a lot of 
research in this area and we don't want to get siloed. We want 
to be able to reach across and partner and perhaps take 
advantage of some of that research.
    Mr. Warrick. Representative, that does in fact go on. The 
instrument packages that DOD needs for its use of UAVs is 
actually different from DHS's. But I am sure a technology brief 
would be enormously beneficial to show you some of the things 
that CBP professionals would like to see in future technology. 
You are absolutely right. This is hugely important and very 
leveraging and a far more effective use of scarce taxpayer 
dollars than some other ideas I have heard.
    Ms. Titus. Well, drugs seem to be a special problem. It is 
not effective to shoot them down with a gun, but you can't 
shoot them with a missile, and then you have got collateral 
damage. So, we do need some kind of technology to deal with 
that growing threat, I believe. Would you all comment about the 
work force and how diversifying it and this bill might be 
helpful? Anybody?
    Ms. Mulligan. I certainly support all efforts to diversify 
the work force. I think some of the ideas that you have laid 
out in the bill are absolutely steps in the right direction. 
You know, I think part of the problem with work force morale 
also though stems from the politization of the Department. When 
you, you know, are down at the Southern Border as we were just 
hearing from a different representative, and you are talking to 
folks who are living it day in and day out, part of the problem 
isn't just what they are being asked to do. It is how it 
changes over time. How these issues are prioritized and then 
deprioritized. So, having stable civilian leadership within the 
Department is also a critical role.
    Ms. Titus. Well, we have certainly seen a number of people 
rotate in and out of that position over the last 4 years. Many 
of whom were not qualified and stayed for only a short period 
of time and couldn't offer that kind of leadership that you 
need. Also, I think if we rewarded the work that we ask TSA 
employees to do, that might help with morale too. Not just in 
salary, but in some benefits and bargaining powers.
    Ms. Mulligan. Absolutely agree.
    Ms. Titus. OK. Well, we will keep working on that and try 
to get it through. I thank you, Mr. Chairman. I look forward to 
getting that technical briefing and maybe we can see how we can 
work on the drone issue as well.
    Chairman Thompson. Absolutely. The gentlelady----
    Ms. Titus. I yield back.
    Chairman Thompson [continuing]. Yields back. The Chair 
recognizes the gentlelady from Iowa for 5 minutes, Mrs. Miller-
Meeks.
    Mrs. Miller-Meeks. Thank you, Mr. Chair. We have certainly 
heard about the threats that are facing our homeland and we 
have heard about the border. Like Representative Pfluger, I 
have visited the border and to me, every State is a border 
State. Last year, we predicted at the pandemic many people such 
as myself that are both veterans and physicians predicted that 
with our response to the pandemic that there would be an 
increase in deaths from drug overdoses with increased drug 
addiction as well as suicide. Just today, the Des Moines 
Register published that 87 percent of opioid overdoses in Iowa 
this past year as compared to 2016, 87 percent were related to 
fentanyl. As we know, with the massive numbers of people coming 
across our border illegally and CBP having to process those 
individuals, our agents are pulled off of the border from 
protecting the border. So, that is a tremendous problem that 
has only worsened during the pandemic.
    From the pandemic standpoint, and this for any of the 
witnesses, during the response to COVID-19 this past year, it 
has been painfully apparent that not even the Federal 
Government has all the necessary resources to, you know, 
respond to a true National emergency or disaster such as the 
pandemic. We saw that there was failure on the part of the CDC 
with testing and with the FDA as well. Every year Congress 
appropriates billions of dollars in preparedness grants to 
State and local emergency managers and public safety partners. 
Even in this last COVID bill, unfortunately there was not 
increased funding to non-competitive grants to our public 
health work force, or public health grants, which are the 
people that are on the front line of treating this pandemic.
    Many say that these grants have become entitlement grants 
focused on sustainment and maintenance resulting in crowding 
out of important investments and innovation and the ability to 
meet emerging threats and risk. In light of the National 
response to COVID-19, should we overhaul these preparedness 
grants to ensure we build capacity at every level of 
government? More importantly, be able to measure the return on 
investment to the Nation with this significant investment? Any 
of the witnesses can respond.
    Mr. Warrick. I would agree that there needs to be a 
complete overhaul of how we prepare for future pandemics. 
Indeed, just as there is now a January 6 Commission, I think at 
some point, not to put too much of a burden on the Chairman, at 
some point you all should think about a commission to 
investigate what needs to be done to protect us from future 
pandemics. Because as many people have said, the response to 
COVID-19 in early 2020 was a National disaster with a number of 
deaths exceeding that of many of our major wars. We need to 
have you all in the Congress lead an effort to try to deeply 
understand what went wrong because I can tell you from what I 
know, it is a problem.
    Mrs. Miller-Meeks. Thank you, Mr. Warrick. I would 
wholeheartedly agree. I am on the Select Subcommittee on the 
Coronavirus Task Force and I do think that our response to this 
pandemic and future pandemics, in addition to supply chain 
manufacturing coming back to the United States, the origins of 
COVID-19, which seems to be an issue with our colleagues on the 
other side of the aisle, we need to explore that. And use the 
international community to set standards for disclosure and 
laboratory safety, especially when you are biolevel 4. Just to 
follow up on that, do you think States have the responsibility 
to obtain and maintain a certain level of preparedness for 
future pandemics and/or cyber attacks?
    Mr. Warrick. Yes, but we can't turn upside down the Federal 
responsibility. That also has to be part of the picture.
    Mrs. Miller-Meeks. Thank you very much, Mr. Chair. I yield 
back my time.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the gentlelady from Florida, Mrs. Demings, for 5 
minutes.
    Mrs. Demings. Thank you so much, Mr. Chairman, and thank 
you to all of our witnesses for being with us today. Ms. 
Mulligan, multiple administrators--or administrations have 
struggled to improve coordination. I am particularly interested 
in a coordination, communication, transparency, between CISA 
and other Federal agencies that share other responsibility. We 
have already heard it said that we have talked about the 
National, the appointment of the National cyber director. We 
have heard it said just let him be able to do his job.
    But despite efforts to clarify roles and responsibilities 
of CISA and other agency coordination within Federal Government 
to promote the security and resilience of the Nation's critical 
infrastructure, is not where it needs to be. Ms. Mulligan, what 
more do you think Congress will need to do to ensure effective 
strategic interagency corroboration, or collaboration to 
address cyber threats against critical infrastructure? I would 
hope as we discuss so many issues today on this particular 
committee, that we would not abandon our responsibility which 
our primary responsibility is the safety and security of our 
homeland in all areas of our Nation, whether it is an attack on 
the United States Capitol or other areas. So, Ms. Mulligan, if 
you could please talk about some of the challenges of 
coordination and what can Congress do to help?
    Ms. Mulligan. So, one of the biggest issues, you know, I 
have served in multiple different departments in the Federal 
Government, from the intelligence community, to the Department 
of Justice, to, you know, part of the National Security Council 
staff. One of the issues that you see is confusion surrounding 
who is the lead Federal agency? So, one of the things that this 
committee can be extremely helpful in doing, and as Ms. Cordero 
discussed earlier, is sort-of relooking with fresh eyes at 
DHS's mission and be very clear about where we want DHS to be 
the lead Federal agency and where we want it to support.
    When it comes, you know, our recommendations at the Center 
for American Progress are that DHS should have the lead and be 
the lead Federal agency in two really important areas that are 
central to the question you have asked. One is in connecting 
Federal resources and officials with State, local, Tribal, and 
territorial officials and also with the public and private 
sectors. What we find is that is often each department and 
agency on their own trying to make those connections, it is 
very confusing for the people who are the recipients of that 
outreach. If you designate DHS as the lead for handling the 
connecting mission, that is going to create a lot of clarity 
and it is going to empower DHS to do what it does quite well. 
CISA is a great example of this.
    The other place where I think multiple folks on the panel 
agree that DHS should have a larger role is around 
communicating. What we mean by--what I mean by communicating is 
communicating threat information and prophylactic actions that 
the public and private sector can take with, you know, 
companies, the American people. Being the lead communicator 
about threat information is a really important way for DHS to, 
you know, invest in the resilience that you were just talking 
about.
    Mrs. Demings. Thank you so much, Ms. Mulligan. Mr. Warrick, 
climate change is driving the frequency, size, impact, and 
complexity of a range of natural disasters including storms, 
floods, droughts, wildfires. Of course, this places an 
additional burden on FEMA, as you can imagine. As these 
disasters become more complex, their cascading effect becomes 
more unpredictable and thereby stresses the entire Homeland 
Security enterprise. I do believe they are directly related. 
Can you please describe the strategy DHS needs to use to 
address the security implications of climate change?
    Mr. Warrick. So, it is not DHS's mission, Representative 
Demings, to lower global temperatures. But it is DHS's mission 
to make sure that extreme weather, hurricanes, floods, 
wildfires do not jeopardize American lives and American 
infrastructure. That means working closely with State and local 
governments to make sure that codes are up to spec, that they 
have emergency assistance when they need it. But it especially 
is important that we design for resilience. That all of the 
things that Government does that touches our lives is done with 
an effort to try to protect us so that when one of these kinds 
of disasters occurs, it doesn't harm people. It doesn't destroy 
the infrastructure of our country.
    Mrs. Demings. Thank you so much, Mr. Warrick. Mr. Chairman, 
I yield back.
    Chairman Thompson. Thank you. The gentlelady yields back. 
The Chair recognizes the gentleman from Georgia for 5 minutes, 
Mr. Clyde.
    Mr. Clyde. Unmute myself. Oh, there we go. All right, thank 
you, Mr. Chairman. I want to follow up on my colleague from 
Texas' excellent comments. You know, we talk about morale 
within DHS hitting the bottom and I would certainly agree. It 
is completely clear that when an agency's important work 
doesn't get support from top leadership, especially political 
leadership, morale suffers. So, we can start by stopping the 
negative comments about ICE, about Border Patrol, about CBP, et 
cetera, when they are just trying to do their job and follow 
the law.
    When politicians purposely degrade them and threaten to 
defund them, of course it is going to negatively impact morale. 
We should be supporting DHS efforts to follow the law like 
continuing the construction of the border wall, which was 
written into the law by Congress. But instead, this 
administration is countering that law by Executive Order and 
the result is a Biden border crisis.
    So, now, to Ms. Cordero, I have a question for you. In your 
briefing paper published by the Center for New American 
Security and called, ``The Department of Homeland Security 
Priorities and Reform'', you suggested and I quote: ``DHS 
border security and law enforcement activities should 
correspond to components' authorized missions and refreshed 
Departmental priorities driven by legitimate security and 
safety threats and needs.''
    House and Senate Democrats have repeatedly called for 
defunding ICE and CBP, yet border agents have intercepted known 
terrorists, gang members, sexual predators, and interdicted 
thousands of pounds of illicit drugs and even some weapons. 
According to data published in June by CBP, Nation-wide drug 
seizures were up 18 percent in May 2021 over April 2021. 
Seizures of methamphetamines increased 53 percent. Seizures of 
heroin increased 7 percent. Seizures of fentanyl increased 9 
percent. In addition, 7,450 pounds of fentanyl have been seized 
so far this fiscal year as of the end of May, far surpassing 
the 4,700 pounds seized at all of fiscal year 2020. So, a 
question for you, Ms. Cordero, just yes or no, do you agree 
that there is a legitimate security and safety threat at the 
Southwestern Border?
    Ms. Cordero. Thanks for the question, Congressman. I agree 
that the border presents a current challenge for immigration 
and border security. I think that there in the political dialog 
surrounding the border issues that there has been a melding of 
issues between those individuals who are seeking to cross the 
border for--that present an actual security threat versus those 
individuals who seek to enter the border for other reasons 
fleeing the circumstances that they are in. That becomes a--
that is a law enforcement issue. So, I think there is a 
distinction between----
    Mr. Clyde. Ma'am, please. Please, so, yes. So, I am 
assuming that is a yes. That you do agree there is a legitimate 
security and safety threat at the Southwestern Border. So, it--
--
    Ms. Cordero. I agree that border security can present 
security issues. I don't necessarily agree that every 
individual crossing the border is a National security threat.
    Mr. Clyde. Ma'am, I asked if there was border threat and 
so, OK. Now, I want to transition. I want to commend CISA on 
launching their new website, stopransomware.gov. I believe that 
launched today. I am very, very thankful for that. I think that 
will do a lot for private enterprise. Now, I have got a couple 
questions here, one for Mr. Warrick. Then also I don't want to 
leave Ms. Mulligan out here. I would like you to answer this 
question as well. What information do you think the Government, 
both law enforcement and the intelligence community, could more 
quickly share with the private sector on a regular basis that 
could help disrupt ransomware or other cyber attacks?
    Mr. Warrick. That would be information that people can 
actually take action on, encouraging them to make sure they 
have basic cyber hygiene in place. Making sure that they 
understand what the minimal standards are for being a good 
citizen and a responsible business owner. This especially needs 
to be done for our small businesses. That is a resource-
intensive activity. But our small businesses need the help that 
they can get from a place like CISA.
    Mr. Clyde. OK, thank you. Ms. Mulligan.
    Ms. Mulligan. I think CISA is doing a really exceptional 
job trying to wrap its head around that right now. They have 
had some notable successes. But I think the key building on 
what Mr. Warrick said is identifying ways for the Federal 
Government to share that are fit for purpose, that can be 
actioned by the public and private sector, which isn't always 
easy for the Federal Government to translate what it collects 
into usable information for folks who are outside the 
Government.
    But I think the other key part is making sure that what 
CISA is doing that there is clarity about its role as the lead 
for communicating that information. Part of the issue that I 
see playing out in the Federal Government right now is lack of 
clarity about who is in the lead. Is it the FBI or others? 
Making sure that CISA has a leadership role.
    Mr. Clyde. OK, well, thank you. I want to get Mr.--if 
pronounce this right, so----
    Chairman Thompson. The gentleman's time has expired. The 
Chair recognizes the gentlelady from California, Ms. Barragan, 
for 5 minutes.
    Ms. Barragan. Thank you, Mr. Chairman. Let me start by 
thanking Ms. Cordero for your response about distinguishing a 
security threat at the border. I wish our politicians would 
focus on the security threat posed by domestic terrorism. When 
you have politicians degrading Capitol Hill police and what 
happened at the Capitol and saying these insurrectionists and 
these rioters were just another tourist visit at the Capitol, 
it is hard to take seriously the conversations sometimes about 
security threats at the border. So, let me just thank you for 
your response in making that distinction from people who are 
fleeing violence to what is actually a security threat. We 
should look at ourselves, which is why I am proud that our 
Chairman is going to be leading this effort on the January 6 
Commission.
    With that, let me move on to my first question. Ms. 
Cordero, let's start with you. Since its inception, the border 
security immigration enforcement and law enforcement functions 
of DHS Customs and Border Protection, Immigration and Customs 
Enforcement, in particular, have grown disproportionately large 
and broad in scope, without the necessary oversight. Key 
adjustments must be made in these areas to improve DHS's 
safeguards and accountability in the next decade and beyond. 
Ms. Cordero, starting with you, can you tell us more about your 
proposed reforms in the areas of border security, immigration 
enforcement, and law enforcement?
    Ms. Cordero. Absolutely, and thank you. Thanks for the 
question, Congresswoman. So, I will tick through them quickly 
because we made a lot of recommendations. As I have mentioned, 
updating the mission of the Department I think is really 
important developing the direction of updated and modernized 
operational guidelines for the Department.
    I believe it was really sort-of an unintended consequence 
that this enormous law enforcement capacity that really 
actually is greater in terms of manpower than even the Justice 
Department and all of its investigative agencies, has been 
concentrated in the Department of Homeland Security. So, when 
there is the responsibility of having all that law enforcement 
power, there needs to be sufficient oversight structures that 
exist across the entire Department. So, creating operational 
guidelines, releasing them publicly. Creating an oversight 
council that is headed by the head of policy in the Department. 
Creating the associate secretary who can have a greater 
management portfolio focused on the law enforcement capacities. 
Then looking at things like transparency, training, hiring 
standards for the law enforcement components and giving them 
set priorities that reflect the current threat landscape. All 
of those things together are things that I hope that the 
Congress and the administration will take on in order to bring 
this law enforcement capacity under appropriate oversight and 
accountability.
    Ms. Barragan. Thank you. Ms. Mulligan, is there anything 
you would like to add to--any recommendations you may have in 
this area?
    Ms. Mulligan. So, I think that I really sort-of align 
myself with many of the recommendations that Ms. Cordero has 
already presented. I just think overall, the Department is 
going to need to rebalance and have much more clarity about 
where we want it to be prioritizing. Because as this hearing 
demonstrates, there are so many different fronts in protecting 
American security and prosperity that we are going to need to 
help DHS understand where we want it prioritizing and where it 
can free up resources for investment in other priorities.
    Ms. Barragan. Great. Mr. Warrick, do you have anything you 
want to add or?
    Mr. Warrick. No, I think those are excellent comments. 
There is obviously a lot that needs to be done and I think that 
good leadership at DHS headquarters needs to set the right tone 
without trying to micromanage or politicize what law 
enforcement and Homeland Security does.
    Ms. Barragan. Thank you. Ms. Mulligan, I want to say I am a 
visual learner and I appreciated seeing your video in your 
opening remarks. I think it was a great way to kind-of show 
what is needed and the balance as was put in there. Can you 
further in the last 30 seconds, explain your recommendations 
for DHS to focus on a more public service-oriented model and 
how it would fit within the larger role as the Federal 
incidence response leader?
    Ms. Mulligan. Great, well, thank you for that question. I 
am very glad to hear that the video is useful. It has been a 
labor of love for us to try to illustrate what a reimagined DHS 
might look like. You know, I think the important thing to 
remember about DHS is that many of the missions that we are 
advocating for it to focus additional attention on are missions 
the Department already has. They are things that the Department 
is regularly engaging in the facilitation of goods and travel, 
you know, goods and travel across the borders. It is regularly 
involved in communicating threat information and, you know, 
doing, you know, sort-of serving as the Nation's sort-of crisis 
response through FEMA.
    What we are arguing is that those missions are being 
deemphasized and deprioritized or have been in the past, and a 
disproportionate amount of headquarters-level focus has been 
really on what are essentially political priorities. 
Enforcement at the Southern Border and this focus on 
counterterrorism that we think is a bit out of sync with 
today's threat picture. So, it seems very ripe at this point 
nearing the 20-year anniversary of DHS's creation to bring its 
missions and priorities into better balance with what we 
actually want it to be doing. So, it is those first-order 
questions about what we need from DHS and how that has changed 
in the last 20 years that we think is perfect for this 
committee to be focused on.
    Ms. Barragan. Thank you so much. My time has expired. Mr. 
Chairman, I yield back.
    Chairman Thompson. The gentlelady yields back. The Chair 
recognizes the gentleman from New York, Mr. Garbarino, for 5 
minutes.
    Mr. Garbarino. Thank you, Mr. Chairman, and also thank you 
to the Ranking Member for putting this hearing together. My 
first question is for Mr. Cilluffo and we will see what the 
other witnesses have to say after what you have to say. But 
specifically, I want to know what you think about what overlap 
do you see between the Office of Intelligence and Analysis and 
the Office of Operations Coordination? How is DHS ensuring that 
these offices are not duplicative and are performing worthwhile 
functions? Do you think they would be better-equipped to 
coordinate and information share as one integrated unit?
    Mr. Cilluffo. Congressman Garbarino, first go Islanders, I 
hope. That is my team from home, so. No, I think you raise a 
great question there. I am little dated in terms of some of the 
headquarter functions, but anywhere where you can see. So, one 
big take-away in terms of DHS is they have not clearly 
delineated and defined the Office of the Secretary. So, if you 
were to compare say DHS with DOD or even Department of State, 
there is a much greater awareness in terms of what the Office 
of the Secretary can drive and work on.
    Part of that is because it is a collage. Some called it the 
Island of Misfit Toys. I don't look at it that way. It was 
collage of 22 really different but unique agencies and 
departments. So, I do think we need to be looking for any 
opportunities where we can streamline. We can enhance 
efficiency. Most importantly, coherence.
    One of the things that I am pushing on which we haven't 
discussed today is around economic security and DHS's important 
role from a supply chain perspective. Here you have an 
opportunity given every one of the components touches this 
issue in one way or another to streamline that and focusing. 
So, a long-winded way of saying, I mean, yes, but I would need 
to look at it a little more closely.
    Mr. Garbarino. Sure. I appreciate that. I guess we will go 
to Ms. Cordero, if you have anything to add?
    Ms. Cordero. I do, Congressman, thank you, on Intelligence 
and Analysis in particular. So, under our project, we 
commissioned earlier this year a paper that was written by 
Adjunct Senior Fellow Christian Beckner and he took a deep dive 
into I&A and basically proposed for Congress two different 
models, either go big or go small. Because right now I&A is not 
making anybody happy. There are expectations, but its 
authorities don't match the expectations that we have for it as 
far as assembling intelligence information and providing 
warnings.
    So, the go big model would be resource it more, give it 
more authority to be able to conduct intelligence analysis 
across a wider range of activities and threats. The other model 
would be to go much smaller and have it perform more like I&R 
at the State Department where it really is just services, the 
Secretary, and other policy members, and have that 
deconfliction with CISA. Let CISA do their own intelligence 
reporting on cyber threats and I&A be more tailored to serving 
the needs of the policy makers. They are very different 
proposals, but our assessment is that Congress should take a 
deeper look at this and pick one and then go with it so that we 
help I&A move into its sort-of next iteration where it can be 
more productive.
    Mr. Garbarino. I appreciate that and I will have to take a 
look at that study or that paper that you are talking about. 
Ms. Mulligan or Mr. Warrick, anything further you want to add?
    Mr. Warrick. Yes, so, I first want to thank you, 
Representative, for being the first person who has mentioned 
the Operations Coordination Office, which gets no attention. In 
fact, it is I think one of the--even more than I&A, needs to be 
either a go big or go small type of enterprise. It runs the 
operations center that I&A staffs. That is what it is--that is 
why they seem to have similar functions. But I&A is the classic 
EO 12333 intelligence organization with special authorities and 
capabilities that OPS does not have. Exactly as Carrie says, 
I&A exists to serve not just the Secretary, but also the State 
and local fusion centers, as well as all other DHS personnel 
who need intelligence analysis.
    Mr. Garbarino. I appreciate that and, Ms. Mulligan, 
anything to add or did we beat this one--beat this horse----
    Ms. Mulligan. Yes, I think we are----
    Mr. Garbarino [continuing]. To death?
    Ms. Mulligan. I think we are all speaking in unison here. I 
mean, this is--this really is a place where it either needs to 
be--have the bigger mission or it needs to be more tailored to 
focus on filling a specific need that isn't being met elsewhere 
in the Government. But trying to straddle both worlds isn't 
working and I think it is an area that is ripe for a refresh.
    Mr. Garbarino. I love when everybody agrees. This is great.
    Mr. Cilluffo. Congressman, can I add one minor point just 
because it is historically relevant? So, when we initially 
stood up the Department of Homeland Security from the White 
House, there was the intent to marry up the Office of 
Intelligence with infrastructure protection. What was then NPPD 
and is now CISA. So, it started on a different footing because 
in between that there was the establishment of the National 
Counterterrorism Center, which obviously played a much bigger 
role, especially the DSOP function to be able to support some 
of these missions.
    So, in some ways, I&A started off in a very awkward kind of 
way. Just in the for what it is worth. I think now is the time 
where you can start looking to whether or not we need to right-
size it, grow it, but do it in a way that doesn't compete with 
the FBI and the broader interagency. Because quite honestly, 
they do some of this a lot better. Or narrowly focus it and 
then let some of the components take on some of their unique 
subject-matter areas. Whether it is CBP and the border or CISA 
vis-a-vis the latest and greatest Chinese or Russian malware. 
So, sorry, I just wanted to yield back----
    Mr. Garbarino. I appreciate that and I yield back. I am out 
of time. Thank you though.
    Chairman Thompson. Thank you. Typical New Yorker, take more 
time, but I do appreciate it. The Chair recognizes another New 
Yorker, Mr. Torres, for 5 minutes.
    Mr. Torres. Mr. Chairman, Congressman Gottheimer is on. He 
is more senior than I am, so I can defer to him.
    Mr. Gottheimer. Are you sure, Mr. Torres?
    Mr. Torres. Yes, happy to. Those are the rules.
    Mr. Gottheimer. Thanks. Mr. Thompson, is that OK?
    Chairman Thompson. Since he is the Vice Chair, I will let 
him go with this one, but go ahead Mr. Gottheimer.
    Mr. Gottheimer. Thank you, Mr. Torres. I thought you, Mr. 
Chairman, you were going to call me a New Yorker, which would 
of course been deeply insulting. As long as you compared me to 
Mr. Garbarino that would even be worse. But, you know, but I 
just appreciate you organizing this important hearing to 
discuss how we can strengthen the Department of Homeland 
Security to better confront new and emerging threats and 
challenges.
    As we know, the Department was established in 2002 in the 
aftermath of the terrorist attacks on September 11 as was just 
mentioned with the necessary focus on countering threats mostly 
from foreign terrorist groups. Today, nearly 2 decades later, 
the threat landscape looks quite different. For instance, we 
have seen the rise of a diffuse domestic and home-grown 
terrorist movement, especially White supremacists and other 
racially or ethnically motivated violent extremists, which as 
Director Ray has testified, ``With a primary source of 
ideologically motivated lethal incidents.''
    Mr. Warrick, if I can ask you a question. How prepared is 
today's DHS to address the serious threats of domestic 
terrorists and members of violent extremist groups like those 
including members of groups like the Oath Keepers and Three 
Percenters and Proud Boys involved in the January 6 attack on 
the Capitol?
    Mr. Warrick. It needs to be understood, Representative, 
that DHS has very specific limited statutory roles in this 
area. Lead investigative agency for criminal violations is the 
FBI. That needs to stay that way. But DHS needs to be able 
through its Intelligence and Analysis Office to connect the 
dots to put together warnings for senior leadership. There 
needs to be greater clarity on whose job is it to look at 
social media and be aware of what people are saying. I saw the 
FBI director and my good friend Jill Sanborn kind-of fumble 
that question a little bit in a hearing a few weeks ago. This 
is something that it really needs to have Congress clarify 
whose authority it is to do what with respect to social media 
because there are significant privacy and other challenges in 
this area.
    Mr. Gottheimer. Related to that, is there something that 
you would change the way DHS is structured to help protect us 
from this threat? Is there----
    Mr. Warrick. We have a detailed report my colleague Mitch 
Silber has put together that I will make sure is sent to your 
staff. But basically, there needs to be an intelligence and 
warning officer within the director of National intelligence 
whose job it is to make sure that nothing escapes notice and 
that nothing gets politicized. This is especially important in 
domestic terrorism.
    Mr. Gottheimer. Is that a Classified report or un-
Classified?
    Mr. Warrick. Our report is a think tank report written by 
the former head of New York police intelligence for more than a 
decade. It is one of the more scholarly papers in addition to 
the one that Chris Beckner also put out, which is also worth 
reading. But you should talk to those two authors because they 
have got some really interesting things to say.
    Mr. Gottheimer. Without objection, Mr. Chairman, I would 
like to put that in the record, if that is OK.*
---------------------------------------------------------------------------
    * The information can be found at https://www.cnas.org/
publications/reports/reassessing-homeland-security-intelligence and 
https://www.atlanticcouncil.org/wp-content/uploads/2021/05/FINAL-
5.20.2021-Domestic-Violence-Extremism-Report.pdf.
---------------------------------------------------------------------------
    Mr. Gottheimer. Ms. Cordero, could you describe where DHS's 
Office of Intelligence and Analysis fits into the various 
National security-focused agencies conducting intelligence 
analysis and how does DHS rank compared with the FBI, for 
example, in equity increased DHS intelligence capacity?
    Ms. Cordero. Thank you, Congressman. So, I&A, Intelligence 
and Analysis is the component in the Department of Homeland 
Security that is a part of the intelligence community. So, that 
way, it is able to both glean information from its intelligence 
community affiliation and disseminate it and share it with 
other Federal, State, local, Tribal partners in a way that they 
can receive that information. At the same time, it also can 
receive information from the State and local network and the 
activities of the Department itself and feed that information 
if its relevant back to the intelligence community. So, it 
provides an important link there.
    I&A does not do what the FBI does in terms of its 
investigative authorities to disrupt and pursue criminal 
prosecution of domestic terrorism activities, which oftentimes 
are prosecuted as other violent crime or weapons-related or 
other types of criminal violations. So, the Department of 
Homeland Security never has and it would not be appropriate for 
it to have that investigative authority that disrupts potential 
terrorist activity. That resides still with the FBI.
    So, I think the question for I&A is does Congress want to 
expand its ability to conduct more intelligence analysis or 
does it want it to narrow and not be duplicative of what the 
FBI or the intelligence community is doing? I think the reason 
these different reports that Mr. Warrick mentioned are 
important, including the one that we put out, is because I&A is 
at that inflection point right now.
    Mr. Gottheimer. OK. Well, thank you. I yield back my 1 
second left to the Vice Chairman. Thank you, Mr. Torres, again 
for yielding again. I yield back, Mr. Chairman.
    Chairman Thompson. Thank you very much. The Chair 
recognizes the Vice Chair of the full committee, the gentleman 
from New York, Mr. Torres.
    Mr. Torres. Thank you, Mr. Chair. You know, it has been 
said that there is a crisis of public trust in DHS. I am 
wondering if--and this question is specifically for Ms. 
Mulligan--do you share my concern that continuing the 287(g) 
Program, which expanded exponentially under the Trump 
administration would only serve to perpetuate that crisis of 
public trust in the agency?
    Ms. Mulligan. Thank you for your question. I do. I do.
    Mr. Torres. You know, if DHS is not effective at policing 
abuses among its own law enforcement officials, what reason is 
there to think that DHS would be effective at policing abuses 
among State and local law enforcement officials who have been 
deputized to enforce Federal immigration law?
    Ms. Mulligan. You know, I think that--I think that there is 
an incredibly important set of issues in the question that you 
raise that really gets at the heart of how important it is that 
we root out extremism within members of the Federal and State 
law enforcement for that matter, who are in positions of trust. 
It is particularly important in the law enforcement context.
    I think the numbers that we are seeing and the connections 
that we are seeing in the indictments out of the January 6 
events are very concerning. I think--I have actually been 
pleased to see the Department take some immediate actions as 
well as the Secretary of Defense because I think we have a 
problem both in our active-duty military and in our veterans' 
communities.
    Mr. Torres. You know, I served on the New York City Council 
and we had oversight over the NYPD, which is a paramilitary 
force unto itself. What we often found was there was a small 
subset of officers who drove a disproportionate share of abuse. 
I am wondering if that same dynamic exists within the ranks of 
DHS law enforcement and whether DHS has a system in place for 
tracking abuses among officers and a system for early detection 
and intervention? This question is for anyone who has insight 
into the subject matter of that question.
    Mr. Warrick. There were significant studies done by CBP 
under both Democratic and Republican administrations that 
declared the internal discipline system to be broken. If you 
talk to former CBP officials regardless of their party, they 
will tell you that not all of those things that were broken 
have yet been fixed. This is one of the reasons I think it is 
extremely important that Chris Magnus get confirmed as 
commissioner of CBP because he is going to have to take charge 
and make sure that many of these things are addressed. Exactly 
as you say, Representative Torres, the good men and women of 
CBP know that there are a small number of bad apples among them 
and this has to be addressed. This is going to be one of the 
greatest challenges that I hope Commissioner Magnus is able to 
tackle right away.
    Mr. Torres. I know we often speak of the need for an 
independent Justice Department, an independent Attorney 
General. I don't often hear people speak of the need for an 
independent DHS or an independent DHS Secretary. It seems to me 
there is less of an expectation of institutional independence 
when it comes to DHS even though it is fundamentally a law 
enforcement agency. Is that a fair assessment? How do we change 
it? How do we create an expectation of independence?
    Mr. Warrick. Secretary Chertoff and Secretary Johnson have 
both spoken out very strongly that DHS needs to be as far as 
possible non-partisan. In the spirit that we have our uniform 
military and our intelligence community be non-partisan, that 
same ethic needs to be deeply baked into DHS. Secretary 
Napolitano was famous for joking that when she became 
Secretary, she had her partisan bone removed. The point she 
made to the work force was this was her expectation that the 
Department needs to be outside of politics as much as possible 
especially in its law enforcement missions.
    Mr. Torres. I am wondering, you know, how much of DHS's 
challenges is a function of mismanagement and how much of it is 
a function of just the youth of DHS? You know, compared to--it 
has far less institutional memory than agencies that have been 
around for decades, in some case, centuries. It is simply going 
through the growing pains of a new agency. What is the main 
cause of the dysfunction in DHS? Is it simply growing pains or 
is it deeper than that?
    Ms. Mulligan. I think it is something else. I mean, to be 
sure, every young department or agency, certainly one with the 
scope of size and responsibility that DHS has is going to have 
management challenges and that is why the oversight rules are 
so important. But the cultural problem that exists at DHS in my 
view stems from its origin story as an agency that is really 
about countering terrorism and going, you know, protecting 
America from others. That mission and origin story has seeped 
into kind-of what people think they are there to do and what 
attracts them to it in the first place.
    What we have now is we have heard throughout the day is an 
organization that we need to be doing a whole lot of other 
things besides countering terrorism and going after bad guys, 
protecting, you know, a lot--protecting and providing services 
that Americans really depend on. Yet, it has a work force that 
is disproportionately drawn to kind of this militaristic, you 
know, military cosplay kind-of role that I think is inherently 
problematic.
    One of the things that I think Congress can really do that 
sort-of gets back to something Ms. Cordero said earlier is by 
adjusting its missions, there is actually a lot that flows from 
that. Because people need to see what they are actually doing 
reflected in the missions of the Department and they need to 
see those missions being elevated and prioritized and praised 
and incentivized. If the only incentives are to engage in 
activity that is, you know, sort-of hostile to the people that 
you serve, then you are going to have a culture that looks an 
awful lot like the culture at DHS.
    Mr. Torres. My time has expired, but thank you, Mr. Chair, 
for the accommodation.
    Chairman Thompson. Yes, sir, anything for the Vice Chair. 
Well, let me thank our witnesses. All four of you have been 
excellent. You absolutely have a real grasp of knowledge about 
the subject matter. One thing I didn't talk about and we will 
circle back. I mentioned it in my opening statement. The 
jurisdictional challenges for the Department in responding to 
some mini committees and subcommittees. No other agency in 
Government has that reach to respond to. It makes it very 
cumbersome. So, we plan to continue to work at that.
    But let me again just thank you for the breadth of 
knowledge. We understand CISA and its important role in part of 
the new DHS. Our challenge for more than any other is: How do 
we marry CISA with more mature agencies who don't like the new 
kid on the block? The Colonial Pipeline is a good example of 
what I am talking about there. I won't go into it.
    But I do see the need for some regulatory review on a lot 
of what we do on pipelines and other things because so much of 
it right now is voluntary. Unless you put some teeth behind the 
regulation, then it is not going to be taken very seriously in 
my humble opinion. So, we will be moving forward around that 
subject and I guess I am trying to tease you all on your next 
report that you go back and make an argument for.
    But now let me thank you for your testimony, and the 
Members for their questions. The Members of the committee may 
have additional questions for the witnesses, and we ask that 
you respond expeditiously in writing. Before adjourning, I ask 
unanimous consent to submit a statement for the record from the 
Partnership for Public Service outlining the importance of 
employee engagement and morale to overcome DHS's challenges. 
Without objection, so admitted.
    [The information follows:]
   Statement of Max Stier, President and CEO, Partnership for Public 
                                Service
                             July 15, 2021
                              introduction
    Chairman Thompson, Ranking Member Katko, and Members of the 
committee, thank you for the opportunity to share the views of the 
Partnership for Public Service as you consider the steps needed to help 
the Department accomplish its varied and difficult missions. This past 
year the Federal Government overcame unprecedented challenges in order 
to serve and protect the American people during the COVID-19 pandemic. 
This is especially true of the workforce at the Department of Homeland 
Security. Our statement will highlight the importance of employee 
engagement and morale for overcoming present and future challenges 
facing the agency and the rest of our Government.
    The Partnership for Public Service is a nonpartisan, nonprofit 
organization that strives for a more effective Government. We work to 
improve the performance of the Federal Government and those who serve 
through an array of programs, research and policy initiatives. One of 
the ways we promote these values is through the annual Best Places to 
Work in the Federal Government rankings we produce in collaboration 
with the Boston Consulting Group (BCG). The rankings are based on the 
results of the Federal Employee Viewpoint Survey (FEVS) administered by 
the Office of Personnel Management.
    We rank agencies by size and analyze the key drivers of employee 
engagement--in other words, the factors that have the biggest impact on 
how employees view the agencies in which they work. The rankings shed 
light on how agencies fare in different categories that define the 
employee experience, including effective leadership, pay, teamwork, 
innovation, and recognition.
            the importance of employee engagement and morale
    Employee engagement and morale are essential to the overall 
performance of an agency. Higher scores in employment engagement lead 
to higher productivity, less absenteeism, greater retention and overall 
better performance.\1\ An engaged workforce also equates to higher-
quality service. For example, in an analysis of performance data from 
nearly 150 VA hospitals across the country, the Partnership for Public 
Service found that higher patient satisfaction, better call center 
performance and lower nurse turnover were all associated with a more 
satisfied and committed workforce.\2\
---------------------------------------------------------------------------
    \1\ Gallup, ``State of the American Workplace Employee Engagement 
Insights for U.S. Business Leaders.'' 2013. Retrieved from https://
www.gallup.com/workplace/238085/state-american-workplace-report-
2017.aspx. U.S. Merit Systems Protection Board, ``Federal Employee 
Engagement: The Motivating Potential of Job Characteristics and 
Rewards.'' 2012. Retrieved from https://www.mspb.gov/netsearch/
viewdocs.aspx?docnumber=780015&version=782964.
    \2\ Partnership for Public Service, ``A Prescription for Better 
Performance: Engaging Employees at VA Medical Centers.'' 2019. 
Retrieved from https://ourpublicservice.org/wp-content/uploads/2019/03/
BPTW18_VA-issue-brief.pdf.
---------------------------------------------------------------------------
    With such an impact on the Federal workforce and the people it 
serves, it is critical for leaders--both career and political--to be 
focused on engagement. The Best Places to Work rankings serve as a 
mechanism for holding agency leaders accountable for the health of 
their organizations, serve as early warning signs for agencies in 
trouble, and shine a spotlight on agency successes that can be 
replicated elsewhere.
                 employee engagement and morale at dhs
    Overall, the Department of Homeland Security's 2020 Best Places to 
Work employee engagement score is 61.1 points out of 100. That is 7.9 
points lower than the Government-wide engagement score in 2020, 8.8 
points below the median score for large agencies, and 15.9 points below 
the private-sector engagement score. While DHS ranks 17 out of 17 among 
large agencies and has been the lowest-ranking large agency since 2012, 
there are signs that the agency has made progress in engaging its 
employees in an especially challenging year.
                              bright spots
    Despite its last place ranking among large agencies, there are 
several bright spots that should be celebrated. Although DHS trailed 
the Government-wide Best Places to Work engagement score by 7.9 points 
in 2020, the gap has narrowed in recent years. In 2019, DHS trailed the 
Government-wide score by 9.4 points. Further, in 2020 the agency 
received many high marks from its employees on how it navigated the 
COVID-19 pandemic. For example, 77.5 percent of survey respondents at 
DHS agreed that their supervisors supported employee efforts to stay 
healthy and safe while working, 83 percent of respondents said their 
work unit met the needs of its customers during the pandemic, 82.1 
percent agreed that their work unit adapted to changing priorities, and 
82.1 percent believed that their work unit achieved its goals.
    Other successes from DHS subcomponents include:
  <bullet> Employees gave FEMA a score of 90.3 out of 100 in a new 
        workplace category measuring how effectively agencies supported 
        employees and navigated the COVID-19 pandemic. Additionally, 
        FEMA moved up 36 places in the Best Places to Work subcomponent 
        rankings in 2020. The Partnership's profile of FEMA's 
        engagement efforts during the pandemic is attached to this 
        testimony.
  <bullet> The Science and Technology Directorate (S&T) saw its 2020 
        Best Places to Work engagement score ranking improve by 150 
        spots. In the COVID-19 employee well-being subcategory--which 
        measures the extent to which employees felt their organization 
        supported their mental and physical well-being during the 
        pandemic--S&T was ranked number 33 out of 393 subcomponents.
  <bullet> The United States Coast Guard registered a Best Places to 
        Work engagement score of 77.1, toping both Government overall 
        and the private sector. Engagement scores at the Federal Law 
        Enforcement Training Center and the Science and Technology 
        Directorate also exceeded the Government-wide score in 2020.
  <bullet> Several DHS subcomponents saw big jumps in their 2020 
        engagement score ranks. Customs and Border Protection and the 
        Cybersecurity and Infrastructure Security Agency both climbed 
        52 spots; the Office of Operations Coordination rose 60 places; 
        and Immigration and Customs Enforcement climbed 33 spots in the 
        subcomponent rankings.
                            areas of concern
    There is still much more work to be done. Explanations for why DHS 
morale is low could include a range of nuanced factors, such as the 
size of the agency, its disparate components, a workforce that operates 
under stressful conditions, and recent high turnover and vacancy rates 
in key appointee positions.
    Areas of concern for DHS in 2020 include:
  <bullet> The Department of Homeland Security trailed Government in 
        all 8 workplace categories in the 2020 Best Places to Work 
        rankings. DHS's largest deficit came in the innovation 
        category, registering a score 12.4 points below the Government-
        wide tally. In the employee recognition category, DHS trailed 
        Government by 10 points, and in the effective leadership 
        workplace category, DHS lagged Government by 7.1 points.
  <bullet> Just 54.2 percent of survey respondents at DHS agreed that 
        they feel encouraged to come up with new and better ways of 
        doing things; 53.3 percent believe that employees are 
        recognized for providing high-quality products and services; 
        and 41.4 percent believe that the results of the Federal 
        Employee Viewpoint Survey will be used to make their agency a 
        better place to work.
  <bullet> U.S. Citizenship and Immigration Services, which ranked 90 
        of 420 subcomponents in 2019, is now ranked 339 out of 411 with 
        an engagement score of 62.9 out of 100.
  <bullet> Customs and Border Protection ranked 392 out of 393 
        subcomponents in the COVID: Employee Well-Being subcategory, 
        which assesses how employees feel about their organization's 
        efforts to support their mental and physical well-being during 
        the pandemic.
  <bullet> The Countering Weapons of Mass Destruction Office's 2020 
        engagement score (45.7 out of 100) ranks 26.2 points below the 
        subcomponent median (71.9 out of 100). The office no longer 
        ranks dead last in Government subcomponents, though, now 
        ranking 403 out of 411 subcomponents. (In 2019 it ranked 420 
        out of 420).
                            looking forward
    Both the Department and Congress have a role to play in efforts to 
improve employee engagement and satisfaction.
    Since the Best Places to Work rankings began in 2003, leadership 
has consistently been identified as the No. 1 driver of employee 
engagement. Leaders must be held accountable through oversight, and the 
Department's senior political leaders should be individuals who have 
experience managing large organizations and accept responsibility for 
the performance and operations of the Department. They should be held 
accountable for management, including employee engagement.
    For these reasons, we applaud the recent passage of the DHS MORALE 
Act in the House and encourage the Senate Committee on Homeland 
Security and Governmental Affairs to quickly approve this measure on a 
bipartisan basis. This legislation takes steps to hold the Department's 
leaders accountable for strengthening and investing in leadership 
development and employee engagement, which can improve the skills of 
existing leaders and develop the next generation of leaders.
    Also, the work that this committee is doing to revisit DHS's 
authorizing statute to clarify roles and responsibilities of leaders, 
improve the accountability and transparency of agency oversight, and 
strengthen the management of the Department generally is very important 
to helping the Department attract and retain the workforce it needs to 
carry out its missions.
    Finally, we note that the Department should also be commended for 
its Employee and Family Readiness Initiative, which is a suite of 
programs to address employee needs in areas such as stress, mental 
health, personal relationships, and financial concerns.\3\ DHS's 
Inclusive Diversity Strategic Plan \4\ also shows the Department's 
commitment to ensuring an inclusive workforce that prioritizes the 
well-being of all employees. Many DHS employees face extremely 
challenging circumstances in the workplace, which can also create 
challenges in their personal lives. Helping both employees and their 
families cope with these challenges should help improve engagement and 
retention.
---------------------------------------------------------------------------
    \3\ Testimony of Angie Bailey, Chief Human Capital Officer, 
Department of Homeland Security. Hearing on ``Solutions to Improve 
Federal Hiring,'' Senate Committee on Homeland Security and 
Governmental Affairs Subcommittee on Regulatory Affairs and Federal 
Management, July 30, 2019.
    \4\ Department of Homeland Security, ``Inclusive Diversity 
Strategic Plan.'' 2020. Retrieved from https://www.dhs.gov/sites/
default/files/publications/20_1230_ochco_dhs-inclusive-diversity- 
strategic-plan_fy21-24_1_1.pdf.
---------------------------------------------------------------------------
                               conclusion
    We know from our research that employees who are engaged in their 
work add tremendous value to their organization. As the Federal agency 
tasked with the mission as critical as protecting and securing the 
homeland, it will be important for DHS to recruit and retain a highly 
engaged and motivated workforce that can ensure future safety of the 
American people.
    Thank you for the opportunity to share the Partnership's views on 
strengthening DHS employee engagement.
                     APPENDIX: FEMA AGENCY PROFILE
fema employees weathered the pandemic, the hurricanes and the wildfires 
                with strong backing from the agency \5\
---------------------------------------------------------------------------
    \5\ See the on-line profile here: https://bestplacestowork.org/
analysis/profiles/Federal-emergency-management-agency/.
---------------------------------------------------------------------------
    Federal Emergency Management Agency employees received strong 
backing from their agency in 2020 as they responded to the worst public 
health crisis in a century and simultaneously dealt with a record 
number of natural disasters and the most active Atlantic hurricane 
season in history. Employees gave FEMA a 2020 Best Places to Work in 
the Federal Government score of 90.3 out of 100 in a new workplace 
category measuring the support they received during the height of the 
COVID-19 pandemic.
    FEMA exceeded the Government-wide COVID-19 response score of 86.1 
and outperformed the Government average on pandemic-related issues 
dealing with employee well-being, the provision of job resources, 
agency performance and supportive leadership. The agency also far 
outpaced its parent, the Department of Homeland Security, which 
registered a COVID-19 score of 80.0, and it did better than all but two 
of the DHS subcomponents on this issue.
    At the onset of the pandemic, FEMA moved to a hybrid work model, 
held daily videoconference calls to communicate important information, 
sent telework kits to every employee and steadily increased usage of 
virtual collaboration tools.
    Ray Acurso, the senior director in FEMA's Office of the Chief 
Administrative Officer, said the agency was able to ``give people a 
feeling of connectivity even though we were further apart. We were 
actually communicating more.''
    At the regional level, FEMA officials said communication with staff 
members scattered across the country and with State and local partners 
was critical to keep employees engaged, informed, and prepared to 
handle a never-ending string of public emergencies.
    ``We utilized our technology and our screens. Our connectedness to 
our FEMA Integration Teams--what a success that was for us,'' said 
Bonnie Garfias, FEMA's Region VIII senior advisor. The FEMA Integration 
Teams provide on-site technical and training assistance to State 
partners.
    FEMA also quickly ensured that workers on the front lines felt 
supported and safe. The agency was one of the first to implement COVID-
19 testing, and it organized responder lodging camps with medical 
support and quarantine areas on-site.
    During 2020, there were 230 Presidentially-declared emergencies, 
passing the previous high of 128 declarations in 2011. FEMA's National 
Response Coordination Center was activated for a record 314 days, and 
more than 5,300 staff members were deployed to support the pandemic 
response activities that included the Nation-wide delivery of critical 
medical supplies.
    In addition, FEMA deployed more than 5,000 employees to support 
both Atlantic and Pacific hurricane responses while also dealing with 
the largest wildfire in Colorado's recorded history and 5 of the 10 
largest wildfires in California's history.
    Although FEMA received high marks for its COVID-19 response, it's 
2020 Best Places to Work engagement score measuring employee overall 
satisfaction with their jobs and organization was 66.9 out of 100, 2.1 
points below the Government-wide score of 69.0. This gave FEMA a 
ranking of 286 out of 411 agency subcomponents, an improvement of 36 
spots from 2019 when it ranked 322. DHS, FEMA's parent agency, remained 
in last place among 17 large agencies with a Best Places to Work 
engagement score of 61.1.
    On the specific workplace issue of effective leadership, employees 
gave FEMA a score of 63.6 out of 100, with senior leaders rated at just 
57.6.
    Nonetheless, 85.7 percent of FEMA employees surveyed agreed or 
strongly that their agency is successful at accomplishing its mission, 
85.1 percent said the people they work with cooperate to get the job 
done and 87.6 percent said they know how their work is related to 
agency goals.
    ``If you can tie someone's day-to-day action to the purpose of 
FEMA's mission, it gives them a feeling of accomplishment when they are 
done. It gives them a sense of drive and purpose while they're going 
through the actions,'' Acurso said.
    Deanne Criswell, confirmed in April as the new FEMA administrator, 
said she is committed to improving employee job satisfaction and 
commitment, putting ``people first'' and capitalizing on some of the 
lessons learned during the pandemic.
    Criswell said FEMA's leadership team is ``taking actions that will 
contribute to an environment where people want to come to work and 
where they feel like they have a safe environment to not just do their 
work, but to be innovative, creative, and contribute to helping people 
before, during, and after disasters.''
    She said this includes a commitment to employee career advancement, 
recognition for good work and diversity and inclusion.
    ``I think that we have the most amazing workforce in the Federal 
Government,'' Criswell said. ``It's the most dedicated group of 
professionals that are truly committed to our mission.''
    This profile was written by Partnership for Public Service staff 
member Heather Gunter.

    Chairman Thompson. The Chair reminds Members that the 
committee record will remain open for 10 business days.
    Without objection, the committee stands adjourned. Thank 
you very much, again.
    [Whereupon, at 2:41 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
